       FEDERAL ELECTION COMMISSION 


       OFFICE OF INSPECTOR GENERAL 





                FINAL REPORT 


AUDIT FOLLOW-UP REVIEW OF THE COMMISSION’S 

    EMPLOYEE TRANSIT BENEFIT PROGRAM 





                     July 2009 

            AUDIT ASSIGNMENT OIG-08-03 

                   OFFICE OF INSPECTOR GENERAL
                                     TABLE OF CONTENTS


DESCRIPTION	                                                                          PAGE

Results in Brief                                                                       1      


Executive Summary                                                                      3      


Background                                                                             6      


Objectives, Scope and Methodology                                                      11             


Audit Findings and Recommendations 


   1.	 Transit Benefit Program Lacks Sufficient Oversight and Accountability           13 


   2.	 Program Management has not Complied with Directive 50                           14


   3.	 FEC’s Transit Benefit Program Control Status Reported to OMB was not 

       Fully or Accurately Assessed                                                    16             


   4.	 Program Policy and Procedures Need Improvement                                  19


   5.	 Separated Employees were not Removed Timely                                     25             


   6.	 Participants Separating from the Agency did not Return Unused Subsidy           27


   7.	 Employees Have Access to Duplicate Benefits                                     29 


   8.	 Employees did not Comply with Program Policy and Claimed Benefits While on 

             Extended Travel         

             Extended Leave 

             Admin Leave                                                               33         


   9.	 Employee Claim Patterns Indicate They Do Not Meet Program Eligibility

       Requirements       
                                                            37

   10. Application, Change Request and Annual Certification Process is not 

       Formally or Effectively Monitored      
                                        39

   11. Program Weaknesses Relating to Parking have not been Addressed
                 42

   12. Employee Names in WMATA Systems are not Consistent with Other FEC Systems 
     46


                                                                                              i
   13. Employees Have Been Assigned SmarTrip Cards that Remain Unregistered 
   47

   14. Single WMATA System Log-on Used for Multiple OHR Staff 
                 48

   15. Monthly Balance of Metrocheks/Vouchers on Hand should be Reviewed
       50

   16. Metrochek Stock Level Variances were not Fully Documented       
        50          


Other Matters of Interest 


       Employee Claim Patterns Indicate They May not Meet Program 

       Eligibility Requirements                                                 51          


Conclusions                                                                     55      


Attachment 1: Summary of Audit Follow-up Findings and Recommendations           56 


Attachment 2: OMB Memorandum 07-15                                              70          


Attachment 3: FEC Response to OMB Memorandum 07-15                              75          


Attachment 4: FEC Transit Subsidy Program Application                           76 


Attachment 5: FEC Employee Clearance Form                                       78          


Attachment 6: Prior Audit Corrective Action Plan with Current OIG Status        80 





                                                                                       ii
                                  RESULTS IN BRIEF 


The Federal Election Commission (FEC) Office of Inspector General (OIG) initiated an
audit follow-up review of the OIG’s 2007 audit of the FEC’s Employee Transit Benefit
Program. The purpose of the audit follow-up review was to verify whether management
had adequately implemented the OIG’s recommendations, as agreed, prior to closing the
outstanding recommendations. After issuing the OIG’s final audit report on February 13,
2007, a corrective action plan (CAP) was provided by management to the OIG on April
4, 2007. Three recommendations were verified as implemented in May 2007 and closed
by the OIG. The remaining twenty-two were planned to be implemented by September
30, 2007. Subsequent to the CAP, management re-evaluated the expected
implementation dates of the outstanding recommendations: eleven were extended to
March 31, 2008; seven were extended to April 30, 2008; and one was left unchanged.
The remaining three were described by management as fully implemented by March 31,
2008. The results of this audit follow-up review show that only one of the 22
recommendations was implemented as of July 31, 2008.

The follow-up review results indicate program management does not have adequate
program controls or quality assurance processes as shown by the number and nature of
exceptions noted during detailed testing of the audit follow-up review. Therefore, the
OIG has made several recommendations for improvement to the management of the
program. In addition to the new listing of recommendations for the current exceptions
noted, we have included the previous corrective action plan provided by management as
Attachment 6 to this report. The corrective action plan shows that the OIG considers 21
of the 25 recommendations contained in the 2007 audit report still open as a result of this
audit follow-up review.

A listing of the findings identified in this audit follow-up review is included below:

                                                                                       FINDING
 NUMBER        FINDING
                                                                                       CLASSIFICATION
      1        Transit Benefit program lacks sufficient oversight and accountability          New

      2        Program management has not complied with Directive 50                          New
               FEC’s Transit Benefit program control status reported to OMB was not
      3                                                                                       New
               fully or accurately assessed
      4        Program policy and procedures need improvement                                Repeat

 Program’s Internal Controls Need to Be Strengthened

      5        Separated employees were not removed timely                                   Repeat
               Participants separating from the agency did not return unused transit
      6                                                                                      Repeat
               subsidy
      7        Employees have access to duplicate benefits                               Modified repeat




                                                                                                           1
                                                                                         FINDING
 NUMBER         FINDING
                                                                                         CLASSIFICATION

                Employees did not comply with program policy and claimed benefits
                while on:
      8                  extended travel                                                      Repeat
                         extended leave
                         administrative leave

                Employee claim patterns indicate they do not meet program eligibility
      9                                                                                         New
                requirements
                Application, change requests and annual certification process is not
      10                                                                                        New
                formally or effectively monitored
      11        Program weaknesses relating to parking have not been addressed             Modified repeat

 Program Administration Practices Weaken Potential Control Environment
                Employee names in the WMATA system are not consistent with other
      12                                                                                   Modified repeat
                FEC systems
                Employees have been assigned SmartBenefits cards that remain
      13                                                                                   Modified repeat
                unregistered in the WMATA system
      14        Single WMATA system log-on used for multiple OHR staff                          New

 Metrochek/Voucher Administration and Controls

      15        Monthly balance of Metrocheks/Vouchers on hand should be reviewed          Modified repeat

      16        Metrochek stock level variances were not fully documented                      Repeat

 Other Matters Of Interest
                Employee claim patterns indicate they may not meet program eligibility
                                                                                                New
                requirements


As a result of this audit follow-up review, the OIG has concluded that management has
failed to adequately respond to the OIG’s 2007 audit recommendations to improve the
program. Further, as a result of the continued control weaknesses, the program was not
effectively monitored thereby providing opportunity for fraud, waste and abuse of
program funds. A table listing the 51 recommendations related to the 16 findings, as well
as 5 suggestions relating to the other matter of interest listed above, is included as
Attachment 1 of this report on page 56. The table also includes management responses to
the OIG recommendations and OIG comment on management’s responses.
Management’s response to the recommendations and OIG comment on those responses
has also been included in the body of the report.




                                                                                                             2
                               EXECUTIVE SUMMARY 

The Federal Election Commission (FEC) Office of Inspector General (OIG) issued a final
audit report on the FEC’s Employee Transit Benefit Program on February 13, 2007. The
OIG initiated the 2006 audit of the FEC’s Employee Transit Benefit Program in response to a
2005 OIG hotline complaint alleging that some participants received transit benefits while on
extended business travel, a violation of FEC policy. The FEC’s Employee Transit Benefit
Program is a subsidy intended to encourage employees to commute to and from work by
means other than single-occupant vehicles. At that time, the employee benefit program had
not been reviewed since 1994 and, considering the cash equivalent nature of the program
benefits, the OIG believed that an audit of the program would be beneficial. In the final 2007
report, the OIG made 25 recommendations to improve program operations and prevent fraud,
waste and abuse by program participants. The report can be accessed at
www.fec.gov/fecig/transit07.pdf.

On April 24, 2007, the United States Government Accountability Office (GAO) issued a
report, Ineffective Controls Result in Fraud and Abuse by Federal Workers, detailing its
testimony before the Permanent Subcommittee on Investigations, Committee on Homeland
Security and Government Affairs, U.S. Senate regarding the Federal Transit Benefit
Program. GAO performed the study because the national capital region had approximately
120,000 participants receiving roughly $140 million in benefits in 2006 and a number of
inspectors general (IG) had found instances of fraud, waste and abuse. In its report, GAO
stated ineffective program controls in the transit program resulted in fraud and abuse by
federal workers. The investigation revealed federal employees:

              fraudulently requested benefits and then sold them on eBay and Craigslist;
              fraudulently requested benefits and gave them to family and friends;
              collected transit benefits while receiving agency-provided parking;
              inflated transportation expenses on their applications above actual commuting
               costs;
              failed to return excess benefits on separation; and
              continued to collect benefits after leaving the agencies.

In conducting its investigation, GAO reviewed program controls at nine federal agencies1
and, based on those results, determined at least $17 million in fraudulent claims occurred in
the national capital region during 2006. Further, it was likely more than that amount was lost
if a similar magnitude of fraud existed in the agencies GAO did not review. GAO stated that
some of the fraud identified in its review could not be quantified and therefore could not be
extrapolated to the program as a whole. The GAO report can be viewed at
www.gao.gov/new.items/d07724t.pdf.

As a result of the GAO investigation, the Office of Management and Budget (OMB) issued a
Memorandum for the Heads of Departments and Agencies, Federal Transit Benefits
Program, (OMB M-07-15) on May 14, 2007 requesting confirmation by June 30, 2007 that

1
    The FEC was not among the nine agencies reviewed by GAO during its investigation.


                                                                                               3
each department and agency had implemented a minimum level of internal controls with
respect to transit benefit programs. OMB included a listing of suggested internal controls as
an attachment to the memorandum. The attachment of suggested internal controls included
an agency notice to employees reminding them of proper and improper use of transit
benefits, a transit application form and a monthly calculation worksheet. Refer
http://www.whitehouse.gov/omb/memoranda/fy2007/m07-15.pdf at Attachment 2 of this
report. On June 28, 2007, the FEC responded to OMB’s request for confirmation that a
minimum of internal controls existed at the agency. The response is included as Attachment
3 of this report. The OIG does not believe the response submitted to OMB accurately
reflected the control environment in effect for the FEC at that time or currently.

The Federal Election Commission (FEC) Office of Inspector General (OIG) initiated a audit
follow-up review of the FEC’s Employee Transit Benefit Program to verify whether
management had adequately implemented the OIG’s recommendations, as agreed, prior to
closing the outstanding recommendations. After issuing the final report on February 13,
2007, a corrective action plan (CAP) was provided by management to the OIG on April 4,
2007. Three recommendations were verified as implemented in May 2007 and closed by the
OIG. The remaining twenty-two were planned to be implemented by September 30, 2007.
Subsequent to the CAP, management re-evaluated the expected implementation dates of the
outstanding recommendations: eleven were extended to March 31, 2008; seven were
extended to April 30, 2008; and one was left unchanged. The remaining three were
described by management as fully implemented by March 31, 2008. The results of this audit
follow-up show that only one of the 22 recommendations was implemented as of July 31,
2008.

The OIG conducted the audit follow-up review with the objectives of assessing the adequacy
of program policies and operating procedures, verifying employee compliance with program
participation requirements, and ensuring that appropriate internal controls are in place. The
audit follow-up review fieldwork was conducted between June 2008 and November 2008.
The audit scope included a review of program activity from April 2007 through July 2008
with limited testing on employees separated in fiscal year (FY) 20072 and full testing on
employees separated in FY 2008.

As during the prior audit, the audit follow-up review revealed the Office of Human
Resources (OHR) failed to properly suspend and remove program participants upon
separation from the agency or change in commute pattern. As a result, former employees no
longer eligible for the benefit had access to $13,556 in FEC transit funds, of which $1,181
was inappropriately claimed. This value includes $200 claimed by an employee while on
administrative leave who was ineligible to participate in the program. The OIG also
identified several employees who separated from the agency, but failed to return $624 of
unused transit benefits. Since the last audit report was issued, we noted the Finance Office,
with assistance from OHR, has recovered $767 of the $1,416 in transit benefits owed by
departing staff. It is noted, however, that documented procedures to ensure the process of

2
 Testing for date of last transit subsidy receipt was not performed for some staff where records were not readily
available due to elapsed time. This includes staff that received Metrocheks and separated prior to January 1,
2007.


                                                                                                               4
identifying, documenting, communicating and recovering funds is not yet in place or working
efficiently. Weaknesses previously identified in FEC Directive 54, Employee Transit Benefit
Program, August 2001, have not been addressed and a newly revised draft policy and
procedures document provided by program management in January and July 2008 to the OIG
for review does not address all program weaknesses identified in the prior audit, or this
follow-up review.

The FEC has had program administration responsibility over transit benefits for 16 years. It
has received guidance and instruction from OMB, detailed illustration of control weaknesses
in the GAO report, and detailed recommendations contained in the previous OIG audit
report. We find, however, that program management has not implemented adequate controls
and quality assurance processes to ensure the program is managed effectively. This is likely
due to the current model where responsibility for program management is shared among
three divisions with no single individual assigned over-all responsibility for program
management and to ensure recommendations are fully implemented. The problem is further
exacerbated by the fact that FEC Directive 50, Audit Follow-Up, is not applied fully at the
Commission. For example, the Audit Follow-up Official did not produce semi-annual
reports to the agency head describing the outstanding steps or tasks required to implement
recommendations and a timetable for resolution. If the Commission were made more aware
of the quantum of corrective actions required and the lack of progress in implementation,
program management may have devoted the resources required to address the program
weaknesses.

The follow-up review results indicate program management does not have adequate program
controls or quality assurance processes as shown by the number and nature of exceptions
noted during detailed testing. Therefore, we have made several recommendations for
improvement to the management of the program. In addition to the new listing of
recommendations for the current exceptions noted, we have included the previous corrective
action plan provided by management as an attachment to this report. The corrective action
plan shows that the OIG considers 21 of the 25 recommendations contained in the 2007 audit
report still open as a result of this audit follow-up. Refer to the corrective action plan issued
by OHR on July 10, 2008 included as Attachment 6 of this report.




                                                                                                5
                                     BACKGROUND 

The Federal Election Commission’s (FEC) Employee Transit Benefit Program was
established in April 1992 to encourage employees to commute to and from work by means
other than single-occupant vehicles. To achieve this, the Employee Transit Benefit Program
provides financial incentives to employees who regularly commute via public transportation,
not to exceed the lesser of the federal tax-excludable amount or the actual commute cost.
Since the inception of the FEC’s program, Executive Order 13150, “Federal Workforce
Transportation,” was issued in April 2000 and mandated all Federal agencies in the national
capital region (Washington, D.C.) to implement a transit pass benefit program by October
2000. In 2008, the Federal tax-excludable amount for transit subsidy increased to $115 per
month for transit/vanpool benefits. As of January 1, 2009, the maximum tax-excludable
amount increased to $120 per month3.

According to FEC Directive 54, Employee Transit Benefit Program, August 2001, any
person on a full-time or part-time work schedule who is listed on the FEC payroll is eligible
to participate in the transit benefit program. To apply, employees must complete the FEC
Transit Subsidy Program Application (Attachment 4) and submit it to the Human Resources
Office. Once approved, employees remain eligible until they leave the employment of the
FEC or their commuting pattern changes in such a manner as to make them no longer
eligible. As of Aug 2, 2008, 342 out of a total of 367 temporary and permanent employees
were enrolled and approved to receive a total of $33,333 in monthly transit subsidy.

In the national capital region, the Washington Metropolitan Area Transit Authority
(WMATA or Metro) directs the Metrochek and SmartBenefits programs. Employees who
commute to work on WMATA-specified forms of transportation have the option of receiving
their approved monthly transit benefit by paper Metrocheks or via SmartBenefits. Unlike
paper Metrocheks which are manually distributed by the FEC monthly, SmartBenefits allow
the FEC to electronically distribute transit benefits in a secure online environment. In fact,
SmartBenefits makes it more effective to manage transit benefits; a web-based program
allows the FEC to load the dollar value of an employee’s transit benefit directly to a
SmarTrip card.

Effective November 15, 2008, paper Metrocheks will no longer be available for employers
that participate in the Transit Benefit Program. SmartBenefit Vouchers will replace the
Metrocheks and will be accepted beginning December 1, 2008 to purchase fares on transit
providers that do not accept the SmarTrip card, such as Virginia Railway Express (VRE),
Maryland Area Regional Commuter (MARC) Train and buses operated by Keller, Dillon,
and Eyre Bus companies. SmartBenefit Vouchers will be available in $1.00, $10.00, and
$30.00 denominations. Unlike Metrocheks, transit benefits received via voucher cannot be
transferred to SmarTrip cards. Metrocheks that had previously been distributed to employees

3
 As part of the American Recovery and Reinvestment Act of 2009 (ARRA) signed into law by
President Obama on February 17, 2009, available benefits under § 132(f) of the Internal
Revenue Code in relation to transit benefits will be increased to $230 dollars per month.



                                                                                                6
were accepted until the close of business on March 6, 2009. After that time, only the new
vouchers may be used, however, employees could exchange Metrocheks at Metro sales
offices through March 31, 2009.



The SmarTrip Card
The SmarTrip card is a permanent plastic farecard
registered with Metro at the time of purchase. The
SmarTrip card can hold a maximum balance of $300 and
is currently used for metrorail, metrobus and
participating vanpool services. SmarTrip is also the only
way to pay for parking at Metro parking lots. The unique
serial number located on the back of the SmarTrip card
protects the card value assigned to the card and is used by the FEC to direct transit benefits.
The employee retrieves funds by swiping the SmarTrip card at specified kiosks located
throughout the WMATA system.

Use of the SmarTrip card benefits the employee by saving time spent visiting the FEC’s
Finance Office to receive the monthly benefit, provides the employee a way to recoup losses
if the card is lost or stolen and gives the employee the ability to consolidate all transit benefit
funding in one place, including adding money of their own, up to the card’s maximum funds
capacity. Employees who do not download the monthly benefit to their SmarTrip card by the
last day of the benefit month lose that month’s funding, which will automatically revert to the
agency as a credit posted on a future WMATA invoice, which is then applied to a future
purchase.

Employees who commute to work on any form of transportation that does not accept
SmarTrip, had the option of receiving their approved monthly transit benefit by Metrochek
paper fare, but are now required to receive their fare in the form of vouchers. Participants
must go to the Finance Office each month to sign for and obtain their monthly benefit.
Annually, participants are provided a schedule of Metrochek/Voucher distribution days. In
addition, employees are reminded by e-mail of the upcoming distribution each month on the
day before the beginning of the distribution of the next month’s subsidy. The Finance Office
distributes Metrocheks/vouchers generally on the last Thursday and Friday of the month and
the following Monday. Additional distribution days are the next Monday through Friday
after the initial three-day period.

Due to the elimination of Metrochek paper fare, OHR required all FEC employees who are
able to use SmarTrip for their commute to transition from Metrocheks by August 31, 2008 or
have their benefit suspended. This is a necessary process as WMATA began limiting the
amount of Metrocheks agencies were able to purchase each month in an effort to force
federal agency transition to SmarTrip and the new voucher program before the deadline.
After January 1, 2009, employees using transit systems that do not accept the SmarTrip card
were issued vouchers that can be used to purchase fare media accepted by those transit
providers (i.e. tokens, weekly or monthly fare cards).


                                                                                                  7
Employee Transit Benefit Program Costs

Transit subsidy disbursements averaged $28,228 per month in fiscal year 2006, 2007 and
2008. These disbursements resulted in annual costs of $328,555, $320,393, and $339,123 to
the FEC for fiscal years 2006, 2007, and 2008 respectively. Projected spending for fiscal
year 2009 is more than $370,000.

                          Annual   Expenditures         for   Transit    Subsidy


                   340,000

                    330,000

             Dollars

                   320,000

                   310,000
                                2006             2007             2008



Program Administration at the FEC

At the FEC, the Employee Transit Benefit Program is administered by three offices: the
Administrative Division, the Office of Human Resources (OHR), and the Finance Office.

The Administrative Division is responsible for the procurement of all Metrocheks/vouchers
for direct delivery to the Finance Office. As required by the program policy directive, the
Administrative Division must also maintain and provide to OHR a monthly list of employees
issued FEC parking permits, including a list of passengers who commute with the parking
permit holders. Employees who participate in an FEC carpool or are issued an FEC parking
permit are not eligible for the transit subsidy program.

OHR is responsible for processing, approving, and maintaining the Transit Subsidy Program
Participant Applications as well as maintaining a database of eligible program participants
generated in the agency automated accounting system. Monthly, OHR prepares the Transit
Subsidy Eligibility List used to distribute paper Metrocheks to eligible recipients. OHR is
also charged with reviewing the monthly list of FEC parking permit holders and their
passengers prepared by the Administrative Division to ensure that employees who receive an
FEC parking benefit are not eligible for the transit subsidy. OHR is responsible for
calculating the transit subsidy owed by separating employees, if any, and communicating the
information to Finance. OHR also manages the annual certification process whereby
employees certify their eligibility to participate in the program, document their commute
pattern, frequency and total monthly cost.

Establishing and maintaining the SmartBenefits (SmarTrip) accounts for those participants
who receive their benefit electronically is another responsibility of OHR. Using WMATA’s
web-based program, OHR staff can add, delete, modify, and edit information contained on
the SmartBenefits database from the 1st through the 15th of each month. After the 15th of


                                                                                            8
each month, SmartBenefits orders for the upcoming month are processed by WMATA.
Since the FEC’s monthly SmarTrip order generates a permanent reoccurring record in
Metro’s database, any changes due to employee separations should be processed in a timely
manner by the 15th of each month. After the 15th of the month, changes in the SmarTrip
order cannot be made. However, the SmartBenefits program allows OHR to suspend usage
of unclaimed FEC transit benefits at any time, including during the last month of
employment. For employees who depart after the 15th of the month, OHR staff can also
suspend FEC paid transit subsidy for the upcoming month on the 28th or after to prevent the
electronic transfer of additional subsidy to their SmarTrip card. This feature allows the
employer to limit a former employee’s access to benefits due to system limitations for
processing employee removal.

The Finance Office is responsible for determining the monthly order quantity of
Metrocheks/vouchers, certifying payment of WMATA invoices, as well as the safeguarding
and distribution of Metrocheks/vouchers. Additionally, the Finance Office maintains
monthly distribution records and is required to collect personal check, money order or
process a payroll deduction for unused transit benefit during the employee separation
clearance process.


Prior Audit Coverage of Employee Transit Benefit Program

A prior OIG audit of the Employee Transit Benefit Program conducted in 1994 found that the
program complied with statutory requirements and successfully achieved the intent of the
program. The OIG also concluded that the internal controls were sufficient to prevent fraud,
waste, or abuse. The prior audit revealed only a few minor weaknesses which did not
warrant a formal finding. Since the OIG’s 1994 audit, significant changes have occurred to
the FEC benefit program. The number of employees participating in the program nearly
doubled, the maximum monthly benefit more than quadrupled, and the FEC introduced the
new electronic SmarTrip card.

In 2005, a hotline complaint was submitted to the FEC OIG alleging that some participants
received transit benefits while on extended business travel, a violation of program policy.
The complainant believed that one or more FEC employees claimed their full transit benefit
while conducting extended out-of-town work assignments. Participants of the program who
do not commute to their normal duty station (i.e. the FEC building located at 999 E Street,
NW, Washington, D.C.) on a regular and reoccurring basis are not eligible to receive the full
monthly subsidy amount. FEC policy requires participants to adjust their monthly subsidy
amount when they vary their monthly commute to their official duty station. Employees
must commute a minimum of 50% of the available number of commuting days (business
days) per month between home and the official duty station on public transportation to be
entitled to their full monthly transit subsidy. Employees who do not commute a minimum of
50% in a month are only entitled to 50% of their full transit benefit for that month. Based on
the complaint, the OIG planned and conducted an audit in 2006 on the FEC Transit Benefit
Program.



                                                                                              9
As part of the OIG’s audit planning for the 2006 audit, the OIG requested information from
the FEC on any program violations related to the transit program since the OIG’s last audit of
the program. The OIG received records documenting program violations regarding a case in
2000. According to the records, the U.S. Attorney’s Office for the District of Columbia
declined to criminally investigate the 2000 matter and referred the issue to the FEC for
administrative action. The program violations involved three program recipients who
received benefits, but participated in a private carpool that received an FEC parking benefit.

Prior to the OIG’s 2006 audit, FEC management did not provide the FEC OIG with any
information regarding the allegations of possible misuse within the agency’s Employee
Transit Benefit Program. Nor was the FEC OIG contacted or approached by management to
conduct/assist with the investigation. Subsequent to the matter, the Director of Personnel at
the time suggested the OIG consider a future audit of the transit benefit program to ensure
employees’ actual commute costs match their transit benefits. The Director of Personnel
made no mention regarding the prior misuse or the need to assess the program’s internal
controls to ensure the weakness that allowed the misuse to occur had been improved. In fact,
the OIG’s 2006 audit found that management did not implement corrective action to address
the internal control issues previously noted in 2000. The current follow-up review of the
2006 audit also shows controls have not been implemented to prevent those who receive a
permanent or temporary parking benefit, or pay for parking at 999 E Street, do not also
receive transit benefits.

As a result of the 2006 audit, the OIG made 25 recommendations to improve management of
the transit benefit program. Since the report was issued in February 2007, the OIG has
received several hotline complaints regarding potential transit benefit program violations.
The complaints were referred to the OIG Chief Investigator and are under review.




                                                                                           10
OBJECTIVES, SCOPE AND METHODOLOGY
The objectives of this audit follow-up review were to: 1) assess program policies and
operating procedures for compliance with applicable regulations; 2) verify employee
compliance with program participation requirements; and 3) ensure that the appropriate
internal controls are in place. The follow-up fieldwork was conducted between June and
November 2008. The audit follow-up review scope included a review of program activity
from April 2007 through July 2008.

To accomplish the audit follow-up review objectives, we performed the following
procedures:

   •	 Reviewed Directive 54 and the draft (January and July 2008) Transit Subsidy Policy
      (intended to replace Directive 54), HR Transit Subsidy Procedures for New
      Employees, Transit Subsidy FAQ, FEC Employee Exit Clearance Form, and other
      documents submitted by management to the OIG for comment. Refer Finding 4 on
      page 19.

   •	 Conducted interviews with program staff in order to verify policies are consistently
      followed; understand internal operating procedures; and to document any program
      violations noted since the OIG’s prior audit conducted in 2006 and report issued in
      February 2007.

   •	 Reviewed the FEC response to OMB Memorandum 07-15 to determine whether the
      response correctly reflected the control weaknesses noted in the February 2007 OIG
      audit report. Refer finding 3 on page 16.

   •	 Reviewed employee separations since the February 2007 OIG audit report to
      determine whether their access to FEC provided transit subsidy was removed in a
      timely manner and whether the FEC correctly sought recovery of unused subsidy
      collected in the month separated. Refer findings 5 and 6 on pages 25 and 27.

   •	 Reviewed FEC transit applications of employees hired in fiscal year 2008 to
      determine whether their application for subsidy was processed in a timely manner,
      verified for accuracy and reasonableness, and formally approved by OHR
      management. Refer finding 10 on page 39.

   •	 Reviewed transit applications of employees hired in fiscal year 2008 to determine
      whether they were provided transit subsidy in accordance with FEC Directive 54.
      Refer findings 4 and 7 on pages 19 and 29.

   •	 Reviewed the annual certification process to determine whether sufficient review of
      employee certification occurs, whether the certifications are formally approved by
      OHR management and whether employees who fail to certify are removed from the
      program. Refer finding 9 on page 37.




                                                                                             11
•	 Reviewed FEC employees’ electronic leave records to identify employees who have
   taken greater than 80 hours of leave during a calendar month to determine whether
   the employees appropriately reduced their transit benefit in accordance with Directive
   54. 	Refer finding 8 on page 33.

•	 Reviewed employee travel records for staff that may have traveled 50% or more
   business days in a month to determine whether the employees correctly reduced their
   transit benefit in accordance with Directive 54. Refer finding 8 on page 33.

•	 Reviewed electronic SmartBenefit activity and manual Metrochek distribution reports
   from April 2007 through July 2008 to determine whether:

       o	 Employees have irregular claims that may indicate they do not meet program
          eligibility. For example, participants who failed to claim SmarTrip benefits
          for two consecutive months. Those with irregular claims had their transit
          activity compared to their leave activity for reasonableness;
       o	 Employees claimed full benefits after mid-month or had a pattern of
          consistently claiming benefits late in the month, indicating they may not be
          compliant with program Directive.
       o	 Registered program recipients who no longer claimed benefits were actually
          former employees not removed from the program or current employees who
          ceased to participate, but had not been removed;
       o	 Employees were incorrectly listed as eligible recipients under both the
          SmartBenefits and Metrochek programs;
       o	 Employees had more than one SmartBenefit card actively registered;
       o	 Employees who have/had been granted a temporary (handicap) parking pass,
          pay to park in the FEC parking garage, or are issued a permanent (FEC
          provided) parking benefit are not eligible for the transit subsidy.

   Refer findings 5, 7, 9, 11, and Other Matters of Interest on pages 25, 29, 37, 42, and
   51, respectively.

•	 Reviewed monthly Finance Office Metrochek distribution reconciliation forms for
   January 2007 through July 2008 to assess whether Finance has reduced the balance of
   Metrocheks on hand, as recommended in the prior audit report. Refer finding 15 on
   page 50.

•	 Created a reconciliation schedule of the monthly Finance Office Metrochek
   distribution listings for the period January 2007 through August 2008 to determine
   whether variances existed. Where variances were noted, reviewed supporting
   documentation to determine whether Finance documented the reasons for any
   overages or shortages in Metrocheks on-hand after the monthly distribution. Refer
   finding 16 on page 50.`

•	 Performed a stock count after the November 2008 distribution to ensure the reported
   amounts in the monthly reconciliation were accurate. There was no discrepancy.


                                                                                        12
      AUDIT FINDINGS AND RECOMMENDATIONS 

1. Transit Benefit Program Lacks Sufficient Oversight and Accountability

Because the FEC is a relatively small agency, the responsibilities for managing programs are
often shared between two or more divisions. With respect to internal audits, an Audit
Follow-up Official (AFO) is assigned responsibility for monitoring and reporting on the
status of outstanding audit recommendations, as described in FEC Directive 50, Audit
Follow-Up. The AFO, however, does not have authority to direct implementation or timing
of corrective actions by other divisions; the person merely reports the status of
recommendations.

In the case of the Transit Benefit Program, responsibility for program administration is
shared between three separate divisions, Office of Human Resources (OHR), Finance, and
the Administrative Division. Under this model, no one individual is responsible for ensuring
that the three separate divisions design, document and implement an adequate control
framework to ensure the transit benefit program is not susceptible to fraud, waste and abuse.
Instead, each division is responsible for performing one or more key functions and does not
report on whether it has established performance standards or monitoring controls over its
area of responsibility. For instance, OHR should define the data processing standards and
controls for OHR staff that process transit benefit applications, changes, or removals, and
then monitor whether the standards for timeliness and accuracy are met. To date, OHR has
not fully defined the standards and has not monitored staff performance. The Administrative
Division had established standards for providing some parking data to OHR, but has not
monitored whether the standard fully met program user needs or was met. Because no single
person is assigned overall responsibility for program management, neither division is
required to report on whether it has established adequate performance standards and whether
it has monitored performance and met the standard. As such, the respective divisions are not
able to monitor program performance as a whole, and information to assess program
performance can only be obtained through detailed audits such as the prior audit and this
audit follow-up review.

The lack of overarching accountability has contributed to a general failure to address the
control weaknesses identified in the prior audit report and is further illustrated in the nature
and number of additional findings included in this follow-up report. It is apparent that
managers from each of the three program divisions, each working independently on
implementing the prior audit recommendations, have not yielded the desired result, which is
an efficient program that serves the needs of FEC employees and is not susceptible to fraud,
waste or abuse.

Recommendation

1a.    The Commission should designate a single individual with the responsibility,
       authority, and accountability to oversee the program in its entirety, and to address the
       transit benefit program weaknesses identified in this follow-up report and the prior
       transit benefit audit report.


                                                                                              13
Management Response
1a. 	 Program responsibility, authority and accountability shall reside with an Office of
      Human Resource (OHR) Specialist with oversight from the Office of the Staff
      Director. The OSD prefers not to name specific individuals in this response but
      offices instead. The OSD will develop and maintain on the FECNet OSD Web page a
      list of staff, by name, responsible for critical actions and specific duties in offices
      under the purview of the OSD. This action will be captured and addressed in the
      Corrective Action Plan (CAP).


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendation.


2. 	Program Management has not Complied with Directive 50

FEC Directive 50, Audit Follow-Up, April 2006, was created in response to OMB Circular
A-50, Audit Follow-Up, and details the roles and responsibilities of the FEC OIG and
program management with respect to audit follow-up actions required to address audit
findings. FEC Directive 50 mainly focuses on responsibilities for the OIG’s annual financial
statement audits, but also includes the following guidance for “Other Audits,” such as the
internal audit of the FEC’s Transit Benefit Subsidy program.

        “Other audits

        For any other audits conducted by the Inspector General or other agencies (e.g., 

        GAO) the Staff Director will recommend and the Commission shall approve, the 

        follow-up official. This person shall: 


        1.	 Develop a written corrective action plan, including specific steps and/or tasks to
            be taken to implement the corrective action plan and a time frame for completion
            of each step or task, to be presented to the Commission within thirty days of
            receiving an audit report;
        2.	 The written corrective action plan shall be presented to the Commission through
            the Staff Director, including any comments the Staff Director may add, for
            information, tally vote or for discussion at a Commission meeting;
        3.	 Conduct regular meetings with the Inspector General or other audit officials
            throughout the year to follow-up on outstanding findings and recommendations,
            and include reports on those meetings in the written corrective action plan and
            the semi-annual reports required to be presented to the Commission;
        4.	 Respond in a timely manner to all requests;
        5.	 Engage in good faith effort to resolve all disagreements; and
        6.	 Produce semi-annual reports to the agency head. These reports shall include the
            status of all unresolved audit reports, the outstanding steps or tasks required to be
            completed in order to resolve the recommendation raised in the audit reports, and
            a timetable for resolution of those steps or tasks; and the number of reports or
            recommendation resolved during the period.”


                                                                                              14
FEC management has not complied with FEC Directive 50. The final audit report of the
2006 Transit Benefit Audit was issued on February 13, 2007. A corrective action plan was
provided to the OIG on March 16, 2007 and the OIG provided comments on the plan to
management on April 4, 2007. Management submitted the final corrective action plan to the
Commission on May 1, 2007. While the CAP was eventually presented to the Commission
for information or tally vote, the CAP was not provided within 30 days of receipt of final
audit report in accordance with requirements one and two of Directive 50.

Neither the AFO nor program management met with the OIG throughout the year to discuss
the status of agreed actions in accordance with requirement three above. No semiannual
reports on audit recommendation status were prepared and provided to the agency head in
accordance with requirement six of Directive 50. In addition, during the follow-up audit
testing period, responses to information requested by the OIG were not always received in a
timely manner. In some instance, requests for information were not acknowledged by OHR
staff and multiple requests were required, in some instances, in order for the OIG to receive
documentation from OHR.

Further, the OIG noted that the CAPs provided by program officials to the OIG were not
consistent, and in some cases incorrect. In the most recent CAP provided by management in
July 2008, a recommendation the OIG had reported as closed in mid-2007 was listed as
“open,” had a revised implementation date, and new agreed management action. Because of
the length of time needed to fully implement recommendations and the number of individuals
responsible for implementation activities, several versions of the CAP were used. As such,
there is the potential for error in reporting the status to the OIG. The incorrect and
inconsistent reporting of the status of outstanding recommendations is further evidence of the
failure of FEC management to properly implement OMB and FEC requirements for audit
follow-up.

The OIG has worked with the FEC’s Information Technology Division to develop an Audit
Recommendation Tracking Database. This tool can be used to record all OIG
recommendations for audits and inspections and report on the current status to interested
parties. The database is designed to be a single point of input for both the OIG and program
areas and record the following information:

      FEC OIG Audit/Inspection number, report title and date final report is issued;
      OIG recommendations (numbered audit recommendations as presented in the final
       report);
      Agreed management action that will be required to resolve each recommendation;
      Initial expected implementation date;
      Revised implementation date if the action is not fully completed by the initial planned
       date;
      Name of the FEC official responsible for implementing or monitoring implementation
       of the recommendation;
      Final management actions taken to implement the recommendation;
      Date final actions are taken by responsible official;



                                                                                            15
          Management status (open or closed);
          OIG verification activity (action taken by OIG auditors to verify recommendation is
           fully implemented); and
          OIG status (open or closed).

Using the information input by OIG and FEC officials, the database can be used to display
corrective action plans and status reports on audit follow-up activity by audit or by
responsible official. The system is designed to be a single point of data input and will
improve the transparency and reporting capabilities, while reducing the need to update
various data management sources, such as Microsoft Word documents or Excel spreadsheets.


Recommendations

2a. 	      FEC officials comply with Directive 50, to include the following:
            provide corrective action plans to the OIG within 30 days of final report;
            submit the corrective action plans within 30 days to the Commission via the Staff
             Director for information, tally vote or approval;
            hold regular meetings with the OIG to discuss the status of the outstanding
             recommendations;
            produce semi-annual reports to the Commission on the status of outstanding
             recommendations; and
            use the FEC OIG Audit Recommendation Tracking System or similar system that
             records recommendations, agreed management actions and implementation status.


Management Response
2a. 	 Concur with recommendation. Directive 50 will be updated and a first draft
      circulated to the Commission within thirty days (30) of receipt of the final report. A
      CAP will be provided within thirty (30) days of the final audit.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendation. The OIG believes any
planned updates to Directive 50 should retain and emphasize the importance of regular
meetings and monitoring of outstanding audit recommendations by FEC management with
the OIG and Commission.


3. 	       FEC’s Transit Benefit Program Control Status Reported to OMB Was Not Fully
           or Accurately Assessed

On April 24, 2007, the United States Government Accountability Office (GAO) issued a
report, Ineffective Controls Result in Fraud and Abuse by Federal Workers, detailing its
testimony before the Permanent Subcommittee on Investigations, Committee on Homeland



                                                                                             16
Security and Government Affairs, U.S. Senate regarding the Federal Transit Benefit
Program. GAO performed the study because the national capital region had approximately
120,000 participants receiving roughly $140 million in benefits in 2006 and a number of
inspectors general (IG) had found instances of fraud, waste and abuse. In its report, GAO
stated ineffective program controls in the transit program resulted in fraud and abuse by
federal workers. The report highlighted a number of transit program abuses at other federal
agencies where employees claimed too much, sold their benefits or gave them to others for
use, or claimed benefits after leaving an agency. GAO estimated the annual projected loss to
the government is at least 17 million dollars, in addition to unknown losses which could not
be quantified, but were considered material.

Based on the results of the GAO report and testimony before Congress, the Office of
Management and Budget (OMB) issued a memorandum requesting all agency heads state
whether a minimum level of controls exist over the administration of the transit program of
their agencies. The response from federal agencies to OMB was due by June 30, 2007. The
FEC’s response was prepared by the FEC’s former CFO, signed by a former FEC Chairman,
and sent to OMB on June 28, 2007. In the response, FEC leadership stated:

       "Transit Benefit Internal Controls are in place for the FEC's Transit Benefits Program.
       Recently, our Office of Inspector General (OIG) conducted an audit of the FEC's
       Transit Benefit Program and found that the FEC is managing the program effectively.
       The OIG suggested additional improvements to the program, and the FEC will
       incorporate those suggestions into our procedures to ensure the program continues to
       operate effectively and as intended."

The FEC’s response to OMB is not accurate because it implies the FEC OIG audit results
support that the program is managed effectively. The 2007 OIG audit report made no such
assertion, rather it illustrated a number of weaknesses existed and made 25 recommendations
for correcting those weaknesses.
In addition, the Deputy Inspector General’s memo accompanying the final audit report to the
Commissioners states:

       "As a result of these conditions, the program was not effectively monitored thereby
       providing opportunity for fraud, waste and abuse of program funds. Considering this,
       we have made several recommendations for improvement to the management of the
       program."

The "conditions" referred to were described in the report distribution memo and relate to
instances where staff did not comply with program requirements. Specifically, participants
of the program:

          claimed benefits while on extended leave or travel; 

          failed to return excess benefits; 

          accepted subsidized parking and transit benefits; and 

          continued to have access to benefits after separation due to program office’s 

           failure to monitor and remove access to benefits in a timely manner.



                                                                                             17
The OMB Memorandum 07-15 requested confirmation that a minimum internal control
structure exists for the following:

               “Transit Benefit Internal Controls

               Application Requirements

               Employee Home Address
               Employee Work Address
               Commuting Cost Breakdown
               Employee Certification of Eligibility
               Warning Against Making False Statement in Benefit Application

               Note: Some agencies require employees to affix a copy of a completed
               Washington Metropolitan Area Transit Authority online trip planner, which
               employees can use to determine the participant's actual daily, and then
               monthly, public transportation costs.

               Independent Verification of Eligibility

               Commuting Cost Verified by Approving Official (e.g. employee's home
               address validated and commuting costs correctly calculated)
               Eligibility Verified by Approving Official

               Implementation

               Applicants Checked Against Parking Benefits Records
               Benefits Adjusted Due to Travel, Leave or Change of Address
               Removal from Transit Benefit Program Included in Exit Procedures.”

While the FEC created and implemented a new form to be used for application, annual re-
certification, and removal, the form is not used completely. For instance, independent
verification of eligibility by the OHR is rarely documented on the form. In addition,
implementation control practices, such as parking benefit review and adjustment for travel
and leave are not fully implemented, as indicated in the number of findings noted in the prior
report and this follow-up report. At the time the response was submitted by the FEC to
OMB, only three of the 25 recommendations had been implemented and verified by the OIG.
It does not appear the FEC correctly assessed whether the control weaknesses identified
during the prior audit had actually been addressed before providing a response to OMB.
Further, the response presented to OMB incorrectly attributed the FEC OIG as determining
the transit program was managed effectively when clearly the memorandum to the
Commission, the executive summary of the report, and the audit report detail state the
opposite, and recommended 25 actions to address program management weaknesses.




                                                                                           18
Recommendations

3a. 	   FEC management should implement control processes to ensure information prepared
        for external reporting is fully and accurately assessed prior to forwarding to the
        Commission for approval and release.

3b. 	   The FEC OIG requests that draft responses to OMB and other oversight entities are
        provided by management to the OIG as a matter of courtesy when those responses
        specifically refer to OIG audit activities and reported audit results.


Management Response
3a.	 Concur with recommendation. The intention is to develop an action within 90 days of
     the final report being published. This action will be listed in the Corrective Action
     Plan listed in 2a.

3b. 	   Concur with recommendation. OSD will adopt a policy where by communications
        made to outside agencies will be coordinated with CFO, OGC and OIG prior to
        release.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations. The OIG only requests
review of external communications where OIG activity or work products are mentioned or
where the response attributes a status or opinion to the IG or OIG work.


4. 	    Program Policy and Procedures Need Improvement

Directive 54 has been the official guidance on the transit benefit program at the FEC since
March 1992. The current directive dated August 2001 replaced the previous version. The
prior audit report recommended changes to Directive 54 which were not implemented.
Instead, FEC OHR and CFO management teams created draft policies and procedures to
replace the Directive. To date, those policies and procedures have not been finalized or
formally communicated to staff. Therefore, Directive 54 remains the current guidance to
FEC staff.

When the FEC initially established the Employee Transit Benefit Program in 1992, program
participants received the transit benefit in the form of paper Metrocheks and tokens. Since
then, WMATA has allowed users to move beyond the original paper Metrochek to a
SmarTrip card which is a reusable, rechargeable fare card for use on metrorail, metrobus or
in a registered vanpool. The FEC provides SmarTrip cards as its main form of transit
subsidy, recently requiring all staff whose commutes accept SmarTrip to transition from
Metrocheks to the SmarTrip card. Employees who use SmarTrip cards are able to download
their transit subsidy at the machines located throughout the Metro system or assign their



                                                                                              19
benefit to a vanpool electronically via the transit system website. Since the 2006 audit,
WMATA has replaced Metrocheks with vouchers in an attempt to decrease program fraud
and increase rider’s ability to receive transportation benefits in an electronic form, even
where the transportation provider does not accept the SmarTrip card. WMATA has
increased the number of transportation providers who accept SmarTrip cards and improved
electronic processes to eliminate the need for paper transfers between various bus and rail
systems. The improvements result in a transit system and benefits program that is
increasingly more electronic, cost efficient, and allows for transparent monitoring by riders
and the agencies that supply them benefits.

Although the FEC has participated in the SmartBenefits program since 2003, the current
employee transit benefit directive has not been adequately updated to provide guidance
regarding management of SmartBenefits or transit benefits assigned via the SmarTrip card.
Specifically, FEC Directive 54 does not provide policies and procedures on the
SmartBenefits’ administration tasks, such as: how to assign monthly benefit amounts,
reassign benefits for misplaced SmarTrip cards or how to remove or suspend former
employees to prevent benefits from being loaded to their account after separating from the
FEC. Regarding SmartBenefits, we found that the FEC Directive 54 only briefly states the
following:

       “Departing employees who have transferred their fare media amount to a
       SmartCard will return any unspent portion of the issued subsidy to the
       Finance Office in the form of a Metrochek(s) rounded down to the nearest
       whole dollar value.”

The policy does not provide any other instruction pertaining to SmartBenefits or the
SmarTrip card. Without guidelines addressing the proper management of SmartBenefits, the
electronic transit subsidies become more susceptible to fraud or mismanagement.

Additionally, FEC Directive 54 stipulates a cutoff of the 20th day of each month to apply for
the benefit for the following month; however, the actual cutoff is the 15th day of the month
for participants applying for the SmarTrip card benefit. SmartBenefits orders for the
upcoming month are processed on the 16th day of each month by WMATA.

We found that Directive 54 does not describe the appropriate method of processing transit
subsidy benefits (SmarTrip) for incoming personnel who are hired after the 15th of the month.
Specifically, FEC Directive 54 states:

       “1. Applications for the transit subsidy are available in the Personnel Office
       (Attachment 1). Applications received by the 20th of each month will be processed
       and maintained by the Personnel Office for inclusion in the list of approved
       applicants to receive transit benefits the following month. Once an application is
       approved by the Personnel Office, the required application information is used to
       create the list of employees eligible for the transit subsidy. Once approved, employees
       remain eligible until they leave the employment of the FEC or their commuting
       pattern changes in such a manner as to make them no longer eligible”.



                                                                                                20
The policy does not state that employees who apply for benefits before the 20th should
receive full or partial benefits for the application month; however the FEC OHR clerk
routinely authorizes full or partial benefits for the application month, based on actual
commute costs for employees who apply before the 20th of the month. Finance does not
question the distribution practice. Employees who apply after the 20th are routinely given
full benefits for the following month and, in one case authorized partial benefits in the month
applied.

Review of transit applications and benefits received for employees hired between October 1,
2007 and July 31, 2008 showed the following with respect to benefits received by new
employees:

      20 participants applied before the 20th and received full benefits in the month applied
       totaling $1,788;
      8 applied before the 20th and received partial benefits the month applied totaling
       $520;
      3 applied before the 20th and received no benefits in the month applied (complied
       with Directive);
      24 applied after the 20th and received full benefits in the month following application
       totaling $2,355;
      1 applied after the 20th and did not receive full or partial benefits in month applied or
       month following application (complied with Directive); and
      1 applied after the 20th and was authorized partial benefits in the month applied and
       full benefits the month following application.

The practice of authorizing full or partial transit benefits in the month an application is
submitted, or full benefits in the month following application for those who apply after the
20th, indicates program operating practices have diverged from program guidance, but are
applied in a fairly consistent basis. Had Directive 54 been applied correctly, the FEC could
have reduced program expenses by $4,663 for the period October 1, 2007 through July 31,
2008.

Despite the OIG recommendation and management agreement in the prior report, OHR staff
members who are responsible for processing applications in the WMATA systems and
administering the program have not been formally trained and do not have sufficient written
instruction to manage the program effectively. During the audit testing period of January
2007 through July 2008, no WMATA system guides or FEC prepared procedures manuals
were in use by OHR. The OHR staff were not aware of, and did not use the WMATA
system reports (“employee removed” and “currently enrolled”) to verify employee subsidy
status when processing applications, change requests, certifications or separations. A one
page Standard Operating Procedures draft provided by the OHR Director to the OIG is not
sufficiently detailed and does not include instruction on verification or control actions to be
performed before or after processing applications or change requests. A two page Transit
Subsidy Internal HR Coding Instructions provided to the OIG for review is poorly
constructed and does not include instruction on verification or control actions to be
performed prior to or after processing applications and change requests.



                                                                                              21
Directive 54 has not been revised to reflect changes in the program, such as the
implementation of alternative working arrangements adopted by many FEC staff. The
alternative working arrangements include compressed work schedules and regular/episodic
flexiplace (telecommuting) work arrangements. In addition, the FEC’s program policy does
not address the following:

   •	   management of SmartBenefits,
   •	   transition from Metrochek to vouchers,
   •	   staff training needs, or
   •	   detailed program office instructions or reference to other internal operating 

        procedures to implement the policy. 


To date, the OIG notes that Directive 54 has the following weaknesses:

   	 An inconsistency in the illustration for staff who work exactly 50%. The examples
      for scheduled absence (2a) show staff may claim all the benefit for a month where
      they are present 50% or more duty days. The example for unscheduled absence (2b)
      has a person present exactly 50% but only entitled to claim only 50%,
   	 the policy has not been updated to reflect the new operating environment of electronic
      SmartBenefit, or the requirement that employees use SmartBenefit if their commute
      allows (reduce Metrochek/voucher use),
   	 no mention regarding transition from Metrochek to SmartBenefits vouchers,
   	 lack of instruction for calculating the maximum number of commute days each month
      based on the changed operating environment for employees who have adopted
      compressed work schedules and/or regular/episodic Flexiplace,
   	 current policy does not reflect the annual certification process currently being used at
      the FEC,
   	 the transit application form does not address participants’ commuting costs where the
      fare is purchased on a monthly basis and therefore is a fixed price, rather than a daily
      rate as stated on the application form, and
   	 the policy does not define the point when a person is no longer considered an eligible
      participant of the program, e.g. failure to commute using public transportation at least
      50% of the time for a number of consecutive months would render a person
      ineligible.

As an initial step to policy and program revision, management should first address the
theoretical concepts of fairness to staff, protection of federal funds, and ability to effectively
monitor, detect and prevent program abuse. In addition, management should document
and/or revise the policy, procedures and forms required to serve each operational and control
activity, and identify what elements/detail each document should contain. In order to do this,
management should consider the other findings and recommendations in this report, process
flow the activities within each division and between the three divisions, and document
existing control weaknesses and recommended corrective actions. Management should then
design and implement prevention and detection activities to decrease exceptions.
Management should also develop and document quality assurance standards with
performance goals to measure program performance. The performance goals should be used


                                                                                               22
in the performance plans for managers and staff responsible for administering the program.
Management should then monitor and report program results to the Commission through
business planning and as an element of follow-up to this audit report.


Recommendations

4a. 	   Program management should consider the OIG’s findings and revise the program
        directive/policy and other procedure documents.

4b. 	   Management should request examples of transit benefit policies and procedure guides
        from other federal agencies, GAO, or OMB to use as examples in designing its
        revised policies and procedures. In addition, management should consider using the
        WMATA system user guide as a starting point for developing the procedures guide
        for OHR program officials.

4c. 	   The transit benefit application form should be modified to include elements suggested
        in the OMB memorandum sample form, such as compressed schedules; flexiplace;
        and age and handicap reduced commuter rates. The form should also include an
        employee release authorizing the FEC to obtain transit activity detail from WMATA
        for transit activity on the FEC issued SmarTrip card, as needed, to effectively monitor
        the program. The form should encourage employees who regularly use WMATA
        transit systems for personal use or metro parking to maintain a separate SmarTrip for
        those transactions. If agreed by management, the form should also reflect that staff
        may claim and retain transit subsidy where their commute payment is based on a
        monthly rate such as van pool or train pass, even if they do not meet the 50%
        participation rate for a given month.

4d. 	   Management should consider using greater than and less than values to define the
        maximum benefits claimable when an employee’s commuting costs vary based on
        days commuted each month. The less than/greater than scenarios could be used to
        ensure fairness to the employees while also limiting program expense to the FEC.
        The policy change would provide a quantifiable method for determining compliance.
        Refer to the examples below.

        Example 1: Employee has daily commute of $5 and maximum authorized $100 per
        month. Due to scheduled leave, an employee commutes 5 days in a given month.
        Employee is authorized to claim the lesser of actual cost or 50% of transit benefit.
        Actual cost $25 or 50% of the approved benefit equal to $50. Employee would claim
        $25.
        Assume same as above but employee commutes 12 days in a month.
        Actual cost $60 or 50% being $50. Employee would be authorized and elect to claim
        the actual cost of $60.




                                                                                             23
       Example 2: Employee’s daily commute is $15 per day and actual monthly
       commuting cost is $300. Maximum subsidy claim per month is limited to $120. Due
       to unscheduled sick leave, employee commutes 3 days in a given month.
       Actual cost $45 or 50% of the approved benefit equal to $60 (rounded). Employee
       could claim up to $45, actual cost.
       Assume same as above but employee commutes 10 days.
       Actual cost $150 or 50% being $60. Employee elects to claim actual cost of $120
       and supplements with $30 additional personal funds.


Management Response
4a.  Directive 54 will be updated and a final draft will be circulated to the Commission
     for a vote.

4b.    The OSD cannot support this recommendation. Given the timing of the audit report
       and requested management response, this is both unnecessary and not possible.
       OSD, OHR and other offices have conducted sufficient research to produce a revised
       policy that reflects cohesion of the WMATA system and FEC procedures.

4c.    The OSD cannot support this recommendation. WMATA will not release transit
       activity detail unless a criminal investigation and legal proceeding. The request must
       be pursuant to a court order or made by the employee. The transit benefit application
       form has been updated.

4d.    Concur with recommendation. Procedure will be incorporated in revised Standard
       Operating Procedures (SOP).


OIG Comment
The agency’s planned actions for recommendation 4a are responsive to the audit issues
identified, and when fully implemented, should satisfy the intent of the audit
recommendation. With respect to recommendation 4b, the OIG still believes the program
offices would benefit by reviewing best practice examples of policies, procedures and
guidelines obtained from other federal agencies. It was not the intent of the OIG that all
policies, procedures, standard operating procedures or other guidance would be fully drafted
and approved prior to the issuance of the final audit follow-up review report. With respect to
recommendation 4c, the OIG now understands that WMATA will not provide detailed
employee transit information except when the employee is subject to formal investigation. In
the future, WMATA systems will allow registered users to access information relating to
their own transit activity. At that time, management should consider reevaluating the
recommendation as employees may voluntarily provide information when requested. With
respect to the revisions recommended for transit application form in 4d, we note the transit
form available via the OHR intranet website is dated June 15, 2008, does not reflect the
changes recommended above, and may not be the updated version intended by FEC
management for employee use from this date forward.


                                                                                           24
Program’s Internal Controls Need To Be Strengthened
The following findings indicate that controls over transaction processing and monitoring of
program activity needs to be strengthened. During the audit follow-up review, we noted no
managerial review or quality assurance of key processes that would have allowed detection
and correction of processing errors or omissions. There is no compilation of monthly transit
claim activity and no consolidated review of employee claim activities for an extended
period of time. If management had designed and implemented controls over transaction
processing and program activities as a whole, management could have prevented or limited
abuses and financial exposure of the FEC with respect to the transit program.

5.     Separated Employees Were Not Removed Timely

Separated employees were not removed from the transit benefit system in a timely manner
and seven former employees claimed benefits after they left FEC employment. One
employee who separated in 2005 was still eligible to claim transit benefits until mid-2008.

We reviewed the electronic report of WMATA claims from April 2007 through July 2008 to
determine whether former FEC employees who had separated since February 2007 were still
enrolled in the benefit program and claiming benefits. We also reviewed claim activity for
current employees who had ceased to claim transit benefits and verified whether or not those
individuals were still employed with the FEC. The review indicated that 55 former
employees had access to $13,556 in SmartBenefits to which they were not entitled. These
former employees continued to have access to FEC SmartBenefits due to a failure by the
OHR to remove participants from the program in a timely manner or a failure to suspend
benefits during the month the system removal was processed. One former temporary
employee had access to benefits totaling $1,950 for 34 months after separating in March
2005, but fortunately did not claim the available benefits. Further, seven former employees,
including one individual on administrative leave, claimed $1,181 in benefits that the
individuals were not entitled to receive.

Of the 100 employees separated from FY 2007 to July 31, 2008, 81 participated in the transit
subsidy program; 63 collected the subsidy using SmartBenefits and 18 used Metrocheks. Of
those 81 program participants, 40 had transit subsidy removed timely with eight having their
eligibility removed on the day they separated. Two could not be determined as they
separated prior to availability of current electronic records. The remaining 39 employees
were not removed from the transit system in a timely manner; 34 received SmartBenefits and
5 participants received Metrocheks. Because separated employees who use Metrocheks are
not likely to re-enter the FEC to claim their transit benefit, or if they did they would likely be
detected and denied, it is more critical that those with access to the electronic SmartBenefits
be removed from the system immediately upon separation. In total, 34 of the 63
SmartBenefit recipients were not removed timely, a 54 percent failure rate.




                                                                                               25
Recommendations

5a. 	   Program management should implement internal controls and quality assurance
        processes to ensure employees who separate have their access to transit subsidy
        terminated at the earliest possible date. Examples of appropriate internal controls are
        listed below:

           	 An OHR clerk processes the removal and/or suspension of transit benefits on
              the day the employee performs the walkthrough of the separation clearance
              form, or at the earliest possible date in accordance with system limitations. If
              the system does not allow removal (16th through the end of the month),
              suspension for the next month should be processed between the 28th and the
              end of month to ensure benefits cannot be claimed for the next month. A
              reminder should be used to ensure the removal is processed at the earliest
              possible date. The clerk should print or record the action which shows the
              suspension and removal actions processed in the WMATA system.
           	 The OHR clerk should download the WMATA “currently enrolled” and
              “employee removed” reports each month and maintain the historical data for
              use by others in quality assuring transit benefit program transactions.
           	 Management should perform a monthly review of the separation listing and
              verify separated employees have been suspended and removed by logging on
              to the WMATA system or reviewing the downloaded “employee removed”
              and “currently enrolled” reports to verify the correct action was performed.
           	 Management should establish a performance standard for the program staff to
              assess their success in ensuring that no separated employees have access to
              transit benefits administered by the FEC.
           	 Noting that there are instances where some employees do not complete a
              separation clearance form, a failsafe approach should be developed whereby
              the National Finance Center payroll listing is compared to the WMATA
              “currently enrolled” listing and exception reporting is used to identify any
              employees not listed for payroll purposes who are registered for transit
              benefits. The transit benefit could then be suspended and removed.

5b. 	   Program management should consider whether to attempt recovery of the $1,181 in
        excess benefits claimed by the seven former employees.


Management Response
5a. 	 Concur with recommendation. Procedure will be incorporated in a revised SOP.

5b. 	   FEC Management will review the specifics for the impacted employees and determine
        the best course of action for the agency.




                                                                                             26
OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendation.


6. 	    Participants Separating From the Agency Did Not Return Unused Transit
        Subsidy

FEC policy states that it is not permissible for departing employees to use transit benefits
provided by the FEC after their final date of employment at the FEC. Employees leaving the
organization must complete a check-out process; the check-out process includes the return of
unused transit subsidy benefits. An FEC Employee Clearance Form, used during the check-
out process, provides for the recording of unused transit benefits. A copy of the form can be
found in Attachment 5. Because WMATA does not allow the return of partially used
Metrocheks, Finance can no longer accept the unused Metrocheks. Instead, employees are
required to return excess benefits claimed in the form of a check or money order. If neither a
check nor money order is provided by the separating employee, Finance can use a payroll
deduction from the employee’s final paycheck to collect the amount owed.

The program directive states that the Finance Office manages the receipt of unused transit
benefits from departing employees, however, Finance requires OHR to provide information
on the amount claimed for the current month and the employee’s daily commute costs. The
OIG found that the clearance forms seldom included the collection of unused transit benefits.
Currently, the process for seeking recovery of unused transit subsidy at employee separation
is neither transparent nor consistently applied. Finance performs the calculation; however,
based on the OIG’s review of clearance forms, the calculations by the Finance Office to
determine the amount of unused benefits were not properly documented. It does not appear
all departing staff were fully assessed and repayment sought. The revised draft policy states
OHR is responsible for calculating the repayment value. During the audit follow-up, the OIG
provided a template to OHR that could be used to calculate the repayment or show that a
repayment is not due. The template is not yet in use.

The OIG’s audit testing revealed that employees who departed the FEC between January 1,
2007 and July 31, 2008 returned only $767 of the $1,416 calculated by the OIG to be unused
based on the separation dates of the employees. Thirteen employees may still owe $6244.

Allowing employees who separate from the agency to retain FEC paid transit subsidies is not
permissible under the provisions of FEC Directive 54. To assist program staff when
computing the amount of unused subsidy that should be returned on the last day of
employment, the program management drafted a revised employee clearance form. The OIG
provided input on the new draft form content as well as the sequential process necessary so
that OHR has all relevant information to compute whether repayment is due. The revised
employee clearance form is not yet in use.

4
 The variance of $28 results from the difference between the amounts calculated as owed by OIG versus the
amount requested returned by Finance/OHR. Evidence of how Finance/OHR calculated the repayment amount
was not always present.


                                                                                                       27
Recommendations

6a. 	   The OHR should ensure the employee separation clearance process includes the
        computation of unused transit subsidy to be recovered from separating employees.
        The revised clearance form should be used to show the unused transit subsidy
        repayment amount or the fact that no repayment is required.

6b. 	   The repayment calculation worksheet provided by the OIG in May 2008, or similar
        document, should be used to calculate whether repayment is due. A copy of the
        calculation worksheet should be attached to the employee clearance form so that
        Finance can request and collect the correct amount from separating employees.

6c. 	   If not already available, OHR employees should be given read only access to the
        WebTA system so that OHR can view time and attendance records for the month an
        employee separates and use actual attendance to calculate whether repayment is due.
        Alternatively, separating employees should be instructed to print a copy of their
        timesheets for the current month and provide the information to OHR to allow
        calculation of transit subsidy repayment.

6d. 	   OHR management should ensure proper training of staff responsible for the office’s
        employee separation clearance process. Staff should be familiar with unused transit
        subsidy requirements and the procedures used to calculate the correct amount of
        transit subsidy that should be returned by departing employees.


Management Response
6a. 	 Concur with recommendation. The OHR has updated the separation clearance
      process to incorporate transit subsidy as an item to check so that it is readily
      identifiable in order to calculate any unused transit subsidy, as outlined in the policy.
      The updated form is currently being used by OHR and the process will be
      incorporated in the revised SOP.

6b. 	   Concur with recommendation. The employee clearance form has been updated to
        reflect this recommendation. A copy of the updated form will be provided with the
        CAP.

6c. 	   The OSD cannot support this recommendation. The OSD does not find it appropriate
        for OHR to pull Time and Attendance for this purpose. OSD will consult further with
        OGC on this issue and advise OIG of OGC opinion. This will be added to the CAP.

6d. 	   Concur with this recommendation. OHR has requested additional training from
        WMATA. Details will be provided in the Corrective Action Plan. The training is done
        in cooperation with WMATA and OHR.




                                                                                             28
OIG Comment
The agency’s planned actions for recommendations 6a, 6b and 6d are responsive to the audit
issues identified, and when fully implemented, should satisfy the intent of the audit
recommendations. With respect to 6c, prior to WebTA, OHR or Finance reviewed the
employee timesheets in order to calculate whether a transit repayment was required. The
timesheets were retained in the separating employee’s personnel file maintained in Finance,
along with a copy of the employee clearance form and final pay and/or leave balance transfer
details. This recommendation simply reflects the change in source documentation
availability due to the transition to an electronic time and attendance system and the fact that
the current management process assigns responsibility for calculating final transit repayment
to OHR staff members.


7.     Employees Have Access to Duplicate Benefits

According to FEC Directive 54, the Employee Transit Benefit Program provides financial
incentives to employees who regularly commute via public transportation, not to exceed the
lesser of the federal tax-excludable amount or the actual commute cost. Therefore,
employees are not eligible to receive multiple benefits or benefits that exceed actual
commute costs. Program controls should exist to ensure employees do not have access to
multiple benefits. For the period of review, April 2007 through July 2008, employees had
access to $4,680 in duplicate benefits and an additional $1,216 available from August 2008
to November 2008.

Our review identified two individuals who had transitioned from SmartBenefits to
Metrocheks and another employee who had registered a new SmartBenefit card, but access to
prior benefits was not immediately terminated for the three employees. In total, the three
individuals could have claimed $2,848 in duplicate benefits, but did not. In one instance, the
duplicate access to benefits was identified by Finance through comparison of the Metrochek
distribution listing to the SmartBenefits listing, but only after duplicate benefits could have
been claimed for seven months, totaling $770. In the second instance, an individual who
registered a second SmartBenefit card had previously registered a card in another name. The
initial card registered with the FEC was not in the name of the employee, and was not
terminated when the new SmarTrip card was registered. From August 2006 until July 2008,
that person could have claimed $1,748 in duplicate benefits. Access was removed based on
OIG request. It is our understanding that OHR no longer allows employees to register cards
that have previously been registered with WMATA under another name. Instead, the person
is assigned a new card and required to register the card in their name (refer finding 12 on
page 46). The third instance appears to relate to an employee transitioning from Metrocheks
to SmartBenefits and then back to Metrocheks. The employee had access to download
benefits to a SmarTrip card for three months, but did not. Instead, the employee claimed
benefits via Metrocheks totaling $330.

We also noted three recent instances (after July 2008) relating to new employees or
employees who requested changes in transit subsidy benefits gaining access to duplicate
benefits under SmartBenefits. The OIG identified two employees who had more than one



                                                                                             29
active SmartBenefit card registered in their names, which were identified by the OIG in
November 2008 through a review of the “currently enrolled” listing. A third employee
applied for SmartBenefits in June 2008 and then requested a change to Metrocheks in August
2008. Because the SmartBenefit card was not registered in the employee’s name, the
employee was given access to both SmartBenefits and Metrocheks. The employee claimed
benefits in both forms for two months (September and October), informed Finance of the
error, and then returned the excess portion to the FEC. It appears these three instances
occurred when an initial transit benefit application was processed and, within a relatively
short period of time, a second form was submitted requesting a change. It does not appear
the status of the initial request was adequately confirmed, adjusted, or removed by OHR prior
to processing the second request. The risk was likely compounded by the failure to register
SmarTrip cards in the name of the employee on the day they were distributed (refer finding
13 on page 47). The dollar value of access to duplicate benefits was $805 for the three
employees.

When a new employee or an employee not previously receiving transit benefits applies for
benefits, the OHR clerk processes the application and sends an e-mail to Finance with the
following information:

      the new employee has been authorized benefits and the effective date;
      a short description of the commute as well as the daily and monthly rate;
      whether the employee is authorized partial or full benefit for the current month (based
       on effective date of employment, daily commute, and number of days remaining in
       the month);
      the manner in which the employee will claim the benefit in the future,
       Metrochek/voucher or SmartBenefits;
      SmarTrip card number (if applicable); and
      Kick-off date on which SmartBenefits will be available for download and therefore
       the date the employee will no longer be eligible to collect transit benefits from
       Finance via Metrochek or voucher.

Due to the limited dates for which transit benefit changes can be processed in the WMATA
system, an employee who applies for benefits on the 16th of a month is frequently authorized
partial benefit in that month, and full benefit the following month. However, the employee
would not be able to download transit subsidy electronically (kick-off) until the first day of
the second full month after being processed in the WMATA system. OHR authorizes the
employee to collect transit subsidy from Finance twice before the employee can begin
electronic download of benefits in the third month. If an employee is not listed on the pre-
printed hard-copy report for voucher distribution, Finance manually writes the name of the
employee on the monthly Metrochek distribution listing and indicates the amount of benefit
distributed based on the information from OHR. Finance also includes a copy of the e-mail
from OHR with the monthly distribution report to document distribution to an employee who
was not included on the hard-copy distribution listing.

While conducting detailed testing to determine whether applications for benefits were
processed timely, we noted 14 of the 53 applicants who registered and received a SmarTrip



                                                                                            30
card were also listed on the Metrochek distribution listing for one or more months. The
temporary condition of appearing on two listings likely results from an attempt to manage the
FEC transit benefit system (PeopleSoft) detail so that an employee appears on the
Metrochek/voucher distribution listing the month of and/or month after the employee begins
working to authorize collection of benefits at Finance, prior to a SmartBenefit kick-off date.
By inputting a new employee into the PeopleSoft with no SmartBenefit card number, the
employee will appear on the hard-copy Metrochek/voucher distribution listing. The OHR
clerk must then remember to update the PeopleSoft system with the SmartBenefit card
number assigned to the employee prior to the WMATA kick-off date in order to remove the
employee from the Metrochek distribution listing and prevent access to duplicate benefits.
The duplicate access to benefits results when the PeopleSoft listing is not updated by OHR
prior to printing the transit voucher distribution list and sending the list to Finance.

In order to prevent the access to duplicate benefits, new transit benefit participants who will
eventually collect benefits using SmartBenefits should have their SmarTrip card number
entered into PeopleSoft on the day they receive the card and their name should not be pre-
printed on hard-copy Metrochek distribution listing. The e-mail notification from OHR to
Finance that provides notice of the employee subsidy amount and kick-off day to begin
automated download of benefits is sufficient to authorize benefit collection via Metrochek or
voucher prior to the SmartBenefit kick-off date.

OIG notes that Finance often reviews the WMATA report on monthly benefits claimed and
identifies employees who have access to both SmartBenefits and Metrocheks. Where
duplicate benefits are noted, Finance notifies OHR to correct the problem by verifying which
benefit claim method is correctly authorized and deleting the other. If Finance does not
receive the monthly WMATA transit report from OHR, it cannot perform the quality
assurance function. Currently, the process is not formalized through written instruction for
OHR and Finance. OIG testing revealed that the Finance Office did not receive the
WMATA reports for eight months during the follow-up testing period (April 2007 through
July 2008). The reports for January through August 2008 were not received until September
11, 2008.

Recommendations

7a.    OHR should download the “currently enrolled” and “employee removed” listings
       monthly, as well as use the on-line WMATA system data and the FEC Transit Benefit
       Eligibility Listing to verify the status of employees prior to processing additions or
       changes to the transit benefit system. It is important to note that employees may have
       had several SmarTrip cards registered in their names over their term of employment,
       but should only have one active SmarTrip card at any point in time. OHR must verify
       and review system changes by SmarTrip card number as well as employee name to
       prevent access to duplicate benefits.

7b.    The record of change requests and the resulting changes processed should be retained
       in OHR transit files, along with the completed application/change request form. As a
       result, any OHR staff member who is responsible for processing transactions can



                                                                                             31
        review the history of requests by employee name and determine whether previous
        requests have been completed. OHR should consider creating a shared e-mail
        directory to store communications from FEC employees regarding their transit
        inquiries and change requests. Any request for new benefits, termination of benefit,
        or change in the amount of benefit received, address and commute pattern, and type
        of benefit (voucher or SmartBenefit) should be documented using the Transit Subsidy
        Program Application form.

7c. 	   Program management should review change requests on a regular basis to ensure
        benefits are not available in two forms; voucher and SmartBenefits, or two or more
        SmartBenefit card numbers. This can be done by reviewing the “currently enrolled”
        listing and verifying only one card number is assigned to each employee (i.e. no
        duplicate names). Also, Finance should continue the practice whereby a staff
        member compares the monthly Metrochek/voucher distribution listing to the
        electronic listing of SmartBenefit recipients provided by OHR. Program management
        should consider an automated report comparison between the Transit Benefit
        Eligibility Listing (PeopleSoft) that records the participants’ names and benefit type
        (Metrochek/voucher or SmartBenefits) to the WMATA “currently enrolled” listing to
        highlight duplicate benefits. A second automated review of the “currently enrolled”
        listing could be performed to highlight employees listed with more than one SmarTrip
        card number. This would allow monthly comparison with exception reporting and
        minimize the need for manual review by OHR and Finance staff.

7d. 	   OHR should input the SmarTrip card number in the PeopleSoft system at the time the
        card is distributed to an employee and not attempt to manage whether the employee
        name prints on the monthly distribution listing for Finance. Employee names should
        be manually written on the distribution form for one or more months if the
        participants have elected to receive transit benefits via SmarTrip.

7e. 	   Finance should distribute benefits as indicated by OHR for the time period indicated.
        If WMATA system limitations require manual benefit distribution for more than one
        month, Finance should print the e-mail for reference and inclusion in distribution
        reports for both months.


Management Response
7a. 	 Concur with this recommendation. OHR has already instituted a process to address
      this issue. Details will be provided in the Corrective Action Plan. Copies of the
      procedures will be provided.

7b. 	   Concur with this recommendation. OHR has already instituted a process to address
        this issue and will be outlined in the CAP.

7c. 	   Concur with this recommendation. Process has been adopted, although not
        automated.




                                                                                           32
7d.    Concur with this recommendation. Process has been adopted, although not
       automated.

7e.    FEC management concurs with the recommendation for Finance to reconcile OHR
       reports and is already performing this internal control check for the vouchers.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations. The OIG looks
forward to reviewing the additional detail on planned implementation activities that will be
provided in the CAP.


8.     Employees Did Not Comply With Program Policy

The Employee Transit Benefit Program is intended for FEC personnel who commute on a
regular and recurring basis; FEC transit subsidy is to be used for the commute to and from
the official duty station. However, for a variety of reasons, employees may vary their
monthly commute to work. This may occur as a result of annual or sick leave, or official
travel. Program policy states that employees must commute a minimum of 50 percent of the
available number of commuting days (business days) per month between home and the
official duty station on public transportation to be entitled to their full monthly transit
subsidy. Employees who do not commute a minimum of 50 percent in a month are only
entitled to 50 percent of their full transit benefit for that month.

It is the employees’ responsibility to designate the adjusted subsidy amount based on their
anticipated use of public transportation. When employees know in advance that they will not
be commuting to the office using public transportation for 50 percent or more of the business
days in a given month, they are entitled to half of their transit benefit for that month.
Conversely, if after accepting the full amount of transit subsidy for the monthly commute, an
employee does not commute to work for at least 50 percent of the commuting (business) days
because of unplanned or unscheduled absences, the employee is eligible for 50 percent of the
transit benefit the following month. It is program management’s responsibility to design a
control framework to prevent, detect and correct instances of non-compliance. However, our
audit results revealed that employees failed to adhere to the program’s policy, and program
management has not implemented sufficient monitoring and control activities to detect
instances of non-compliance. Specifically, 48 employees claimed $2,612 in FEC transit
benefits, of which $689 was inappropriately claimed for periods of extended travel and
$1,923 was inappropriately claimed for periods of extended annual and/or sick leave from
October 2007 through July 2008. Additionally, we identified one ineligible employee who
claimed $200 in transit subsidies while on administrative leave. Refer to the three sections
below for testing results detail and recommendations.




                                                                                               33
Program Participants on Extended Travel

In order to determine whether program participants complied with the policy to reduce transit
benefits claimed during periods of extended travel, the OIG reviewed business trips taken
between October 2007 and July 2008 for travel that exceeded 10 days in a calendar month; or
a high number of travel days that bridged consecutive months. We identified 23
vouchers/records that documented travel of employees who were not entitled to the full
monthly benefit due to their extended absence from work. After examining the applicable
transit subsidy claiming reports, we found that five employees correctly reduced their benefit
for planned travel, and four claimed nothing in the month of travel or subsequent month even
though they were entitled to claim fifty percent. For the remaining 14 of the 23 business
trips, the employees were not compliant with the transit subsidy program requirements while
on extended travel. Specifically, the employees inappropriately claimed $689.50 in transit
benefits of which they were not entitled to due to their absence from the FEC. It was also
noted that one employee claimed transit benefits electronically during the period of travel
absence, indicating that the SmarTrip card may have been used by someone other than the
employee.

Program Participants on Extended Leave

To evaluate whether employees adjusted their monthly subsidies given actual leave usage,
we reviewed a download of National Finance Center time and attendance records for the
period October 2007 to July 2008. Using electronic analysis, we identified 141 employees
whose leave may have exceeded 80 hours in a calendar month. The data was further
reviewed and 23 were eliminated from testing because they did not participate in the transit
subsidy program. The remaining 118 employees were reviewed to determine whether they
commuted less than 50 percent of the days in the month of leave and, if so, whether they
correctly reduced their transit subsidy in the month of or month following leave taken.

We found that during the review period, October 2007 through July 2008, 67 of the 118
program participants identified for review commuted to the office for more than 50 percent
of the business days in a calendar month. Accordingly, these 67 program participants were
entitled to their full transit benefit for that month. We identified 12 participants who
commuted exactly 50% of the commutable days who did not reduce their benefit and five
employees who correctly reduced their benefit based on less than 50% attendance. However,
we identified 34 of the 118 employees who collected their full monthly transit benefit for the
period of extended leave from the FEC did not adjust their benefit in the following month, or
inaccurately adjusted their subsidy amount. In fact, we calculated that those 34 participants
claimed $1,922.50 in transit benefits of which they were not eligible to receive.

Directive 54 provides an example for scheduled absence (2a in the directive). Specifically,
Directive 54 illustrates that staff may claim all the benefit for a month where they are present
50% or more of the business days in the month. The directive’s example for unscheduled
absence (2b) has a person present exactly 50%, but only entitled to claim 50% of the monthly
benefit. Under the two scenarios, the 12 employees who commuted exactly 50% of
commutable days may be entitled to all or half of their monthly subsidy, depending on



                                                                                             34
whether the leave was scheduled or unscheduled. For the purposes of this review, we did not
include those instances as errors. The total inappropriately claimed by the employees was
$679.50.

Although a program Directive exists and a policy statement has been included in the monthly
transit benefit distribution reminders to participants, it does not appear that either is effective
at ensuring program compliance with respect to employees on extended leave or travel.
Although previously recommended by the OIG, program policies and procedures have not
been developed to provide participants with specific program instruction regarding
adjustments to their transit subsidy. Specifically, SmarTrip users have not been provided
with proper guidelines for adjusting the amount of transit subsidy claimed at the kiosks
located throughout the WMATA system. Transit benefit program applications have not been
amended to require a supervisory approval to provide managers the opportunity to advise
their employees, as needed, on program requirements. With respect to leave and travel,
supervisors should advise employees at the time leave and travel are approved that the
employee should adjust their transit benefit accordingly.

Ineligible Employee Claimed Transit Subsidy While on Administrative Leave

While reviewing employee compliance with FEC policy during periods of extended annual
and sick leave, the OIG identified one ineligible employee who claimed transit subsidy while
on administrative leave in 2007. The employee claimed benefits of $100 per month for two
months while on administrative leave. This was due to the fact that OHR failed to suspend
the benefit in a timely manner, despite a new process whereby employees placed on
administrative leave are required to complete an employee clearance form as if they were
separating from the agency. In this instance, the employee clearance form was not completed
until the employee legally separated from the agency, nearly a year later.

Recommendations

8a.    Transit benefit policies and communications should convey to participants that FEC
       management or other officials may periodically compare extended leave and travel
       records to transit benefit claims for compliance with FEC program requirements.
       Although the current directive and monthly reminders to program participants provide
       the program policy for extended leave and travel, given the continued compliance
       issue, additional controls are necessary.

8b.    Division management should regularly communicate the transit benefit policy to their
       staff to ensure participants are fully aware of their responsibility to reduce the
       benefits claimed during extended absences for travel or leave. This communication
       could be done during normal staff or team meetings.

8c.    OHR should develop clear program policies and procedures to provide participants
       with specific instructions on how adjustments should be made for those who receive
       their transit subsidy electronically via the SmarTrip card.




                                                                                                35
8d.     Program management should require supervisory review/signature of the employees’
        transit benefit program applications. An awareness that an employee participates in
        the transit program will allow the supervisor to advise their employees, as needed, on
        the requirements of the program, such as instances in which participants commute
        less than 50 percent of the business days in a month.

8e.     Program management should ensure that the program offices’ staff are properly
        trained on the guidelines and procedures regarding transit subsidy adjustments
        required when participants are on extended absence from the office. Properly trained
        program staff can provide accurate information to employees who contact HRO for
        advisement regarding program requirements.

8f.     Program management should ensure participants placed on administrative leave have
        benefits suspended or removed, as appropriate. Although program management has
        implemented procedures that include transit benefit restrictions for employees on
        administrative leave, additional controls are warranted. It should take care to suspend
        and remove access to transit benefits at the earliest possible date following an
        employee’s placement on administrative leave.

8g.     Program management should implement a process to identify staff who are absent for
        an extended period of time and review their claim activity to determine whether the
        control processes implemented result in program compliance.


Management Response
8a. 	 The OSD cannot support this recommendation. This is not possible without audit
      authority, which the FEC does not have except in the case of a criminal investigation.
      Currently, OHR has a periodic review process in place and compares claimed and
      unclaimed reports. The process will be codified in the revised SOP. OSD will
      encourage management at all levels to incorporate informational briefings into any
      venue where it is appropriate.

8b. 	   The OSD cannot support this recommendation. Line supervisors should bear no
        responsibility, oversight or otherwise, of the benefit. However, OSD will encourage
        management at all levels to incorporate informational briefings into any venue where
        it is appropriate.

8c. 	   Concur with recommendation. Policy and procedures are being revised with a no
        later than date of August 1, 2009 and will be posted on FECNet.

8d. 	   The OSD cannot support this recommendation. It is far-reaching to expect
        supervisors to adhere to this recommendation. Communication and awareness will
        be increased via FECNet.

8e. 	   Concur with this recommendation. The OSD is working to revise the FEC Parking
        Policy as well as the revised Transit Policy. OHR and Administrative Services staff



                                                                                            36
        will be trained in procedures on how to process terminations and removals based on
        employees’ circumstances. Employees and/or managers will be instructed to notify
        OHR when employees will be absent from duty station for an extended time.

8f. 	   Concur with the recommendation. The process is being incorporated into the policy
        and procedures.

8g. 	   Concur with the recommendation. The process is being incorporated into the policy
        and procedures. This may be done in cooperation with timekeepers, but again, the
        responsibility lies with the employees.


OIG Comment
With respect to 8a, the recommendation does not require audit authority. Management is
responsible for ensuring effective internal controls of the program. One type of internal
control is the comparison of different types of data, such as benefit claims and leave/travel
records, and taking corrective action, when necessary, to resolve exceptions. Excessive
claims for periods of extended leave and travel has been a longstanding program issue and
management should implement additional controls to ensure program compliance.
The process for reviewing claimed and unclaimed activity would not detect excessive
benefits claimed during periods of extended leave or travel.

With respect to 8b, the recommendation is not suggesting the line supervisors oversee the
benefit program, merely use team meetings and employee training sessions to communicate
the policy in a more direct communication method.

With respect to 8c and 8d, we accept management’s response. Awareness and management
review are important. With respect to 8e, 8f and 8g, the agency’s planned actions are
responsive to the audit issues identified, and when fully implemented, should satisfy the
intent of the audit recommendation.


9. 	    Employee Claim Patterns Indicate They Do Not Meet Program Eligibility
        Requirements

Per Directive 54:

        “The purpose of the FEC transit subsidy program is to provide financial incentives to
        employees who regularly commute via public transportation. For the purposes of this
        program, "regularly commute" shall mean that the employee commutes via public
        transportation on a regular and recurring basis and that a minimum of 50% of the
        available number of commuting days (business days) per month between home and
        the official duty station are on public transportation. FEC transit subsidy is to be
        used for the commute to and/or from the official duty station. The official duty station
        for all FEC employees is 999 E Street, NW, Washington, DC, other designated leased
        office space in the Washington, DC metro area or temporary local duty station.”



                                                                                                37
Examples of eligibility:
   a.	 Mr. Doe works full time 5 days a week, taking public transportation both to and from
       work on an average of 20 work days (or 40 one-way trips) per month. Since Mr. Doe
       takes public transportation to and from work over 50% of the time, he is eligible to
       participate in the FEC Transit Subsidy program.

      b.	 Ms. Jones rides to work with Mrs. Doe most of the time, and uses public transportation
          only occasionally (less than 50% of the business days per month). Ms. Jones is not
          eligible for a transit benefit because her use of public transportation is not regular and
          recurring.

The examples provided in Directive 54 clearly illustrate those employees who commute less
than 50 % per month are not eligible for transit benefits.

A number of employees with long-term irregular claims indicate they do not meet program
eligibility requirements or comply with the program directive. We reviewed the electronic
claims listings for the period April 2007 to July 2008 and noted 20 employees had irregular
claims which may indicate they do not meet program eligibility requirements as their
commute may not in fact be “regular.” In total, those employees failed to claim 71 percent of
their available benefit dollars over the 16 month review time period. Some employees
consistently claimed below 50 percent of their available benefit dollars. Review of leave
activity showed 18 of the employee’s leave was not aligned to the periods where they had
reduced or no transit benefit claims. Several employees did not claim any transit benefit for
eight of the sixteen months reviewed.


Recommendations

9a.       OHR should review the detailed results of this testing and consider the implications
          for revising program policy and operating procedures.

9b.       OHR should review the detailed results of this testing and request staff certify that
          they met program eligibility requirements and comply with the Directive. OHR
          should request written explanation from employees who have a history of irregular
          claims.

9c.       OHR should download the monthly WMATA claim activity listings each month. The
          data should be compiled and reviewed annually for irregular claims to ensure
          employees who received benefits use them as intended.


Management Response
9a. 	 Concur with this recommendation.

9b. 	     Concur with this recommendation. OHR maintains a log of this activity. This will be
          codified in the revised policy and procedures.



                                                                                                       38
9c. 	   Concur with this recommendation. OHR maintains a log of this activity. This will be
        codified in the revised policy and procedures.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations. We look forward to
reviewing the additional detail on planned implementation activities that will be provided in
the CAP.


10. 	   Application, Change Requests and Annual Certification Process is not Formally
        or Effectively Monitored

FEC Directive 54 states:

        “The Personnel Director is responsible for the approval/disapproval of all transit
        subsidy applications.”

Currently, FEC employees who submit transit benefit application forms, change requests or
annual certifications are not required to submit proof of commute with the application. The
employee is, however, required to include their home address on the form. Based on the
information provided by the employee, the OHR clerk verifies the reasonableness of the
calculated commute cost using the WMATA system Trip Planner feature. The OHR clerk
does not maintain a record that the commute cost is reasonable and does not use a checklist
or other form to record that the cost verification control step has been performed. Review of
FY 2008 transit benefit application forms for new hires showed only 3 of 55 were subject to
management review and approval. None of the application forms had an OHR clerk sign-off
on the data entry portion of the form. In addition, a review of the 2008 annual certification
forms showed little or no evidence of management review or data entry processing that
would be evidenced by signatures and date entry in the appropriate fields of the form. As
such, there is little evidence that the Personnel Director has formally approved the transit
subsidy applications, change requests and annual certifications processed by OHR.

Discussion with management indicated a period in which a signature stamp for a former
Acting OHR Director was provided to OHR staff to use in approving transit applications.
Use of a signature stamp does not provide sufficient evidence that separation of duties was
maintained between those responsible for approving transit applications and those
responsible for processing the application in FEC and WMATA systems.

Further, we concluded the annual certification process is not formally or effectively
monitored as shown by the following types of exceptions noted:

           employees who failed to certify annually were not removed from the program;
           employees who stopped claiming and did not certify were not removed;
           employees who claim infrequently continue to certify but were not questioned;
            and


                                                                                              39
       	 terminated employees had their benefits increased to the highest value for 2008
          ($115) even though they were no longer employed and had not certified.

The level of authorized benefits typically increases annually to keep pace with increased
transportation costs in the DC metropolitan area. The maximum authorized level has
increased five dollars per year for the last four years, to the current maximum of $120.00. In
February 2008, the process used to update the authorization level was to have WMATA run a
program to automatically update those receiving the previous maximum benefit (previous
value $110.00) to the new level ($115.00 in February 2008). The OHR clerk then went
through the listing of those increased to make sure the employee was authorized (eligible) at
or above the new level. If the clerk noted a person authorized exactly at the previous level or
below the increased level, the clerk adjusted the benefit level in the WMATA system to
reflect the maximum authorized benefit for the employee.
Because regular review of account activity was not performed, this process allowed increases
to employees who had not re-certified their commute for the year, were no longer employed
by the FEC, had ceased claiming benefits, or were not claiming their benefits in a manner
consistent with their certified amount. Also, the OHR does not maintain a listing of the
maximum amount each staff member is certified to receive. For instance, if a staff member
has a calculated monthly commute cost of $200.00, they would be approved to receive
$115.00. A listing of those staff who could receive a higher value if the government
authorized and the FEC funded the payment is not maintained. Because the WMATA
system does not contain a field for maximum certified amount, the FEC should maintain a
listing of the authorized level for each participant and provide WMATA a listing of those
authorized an increase. By doing so, the FEC can ensure increases are applied only to those
actually authorized the benefit and is not dependent on subsequent review to remove the
increased benefit.


Recommendations

10a. 	 OHR should require all FEC employees submit proof of their commute with their
       certification by using the trip planner features of WMATA website. This would
       enable rapid review and approval by the OHR Director or designated official
       responsible for approving applications, change requests and annual certifications.

10b. 	 After reviewing the commute information, costs, and transit application mathematical
       calculations, OHR management should sign the form authorizing the OHR clerk to
       process the application, change request, or certification.

10c. 	 Clerks who process applications, change requests, or annual certifications should sign
       and date the form in the fields provided after entering the data in the system and
       verifying the transaction was processed.

10d. 	 Signature stamps should not be used to authorize transit benefit applications, change
       requests, and annual certifications.




                                                                                            40
10e. 	 OHR should track annual certification forms submitted by FEC staff. For those who
       fail to submit a form, an e-mail reminder should be used followed by benefit
       suspension or removal. Failure to certify by FEC employees should be considered an
       informal request to cease participation in the program.

10f. 	 OHR should not use the WMATA automatic increase function which automatically
       increases those receiving the maximum benefit ($115) to the next maximum benefit
       level ($120.00). Instead, OHR should submit a listing to WMATA of FEC staff that
       have certified and are authorized to receive the increase. If the auto increase function
       is used, the FEC should first create a listing of each staff member, benefit type
       (SmartBenefit or voucher), the amount certified (actual monthly commute costs) and
       the maximum authorized each month (previously limited to $115 and recently
       increased to $120). The listing can then be sorted to identify those staff that were
       authorized to receive the previous maximum but do not have commute costs in excess
       of that amount. Those individuals would have their system increase reduced to the
       previous value ($115).


Management Response
10a. 	 Concur with this recommendation. The process is being incorporated into the policy
       and procedures.

10b. 	 Concur with this recommendation. The Human Resources Specialist/Employee
       Relations will sign the form authorizing the Human Resources Assistant to process
       the application, change request or certification. The process will be incorporated
       into the policy and procedures.

10c. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.

10d. 	 Concur with this recommendation.

10e. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.

10f. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations. We look forward to
reviewing the additional detail on planned implementation activities that will be provided in
the CAP.




                                                                                            41
11.       Program Weaknesses Relating to Parking have not been Addressed

According to Directive 54, employees who commute in a private FEC carpool or who receive
a federal parking benefit may not participate in the transit benefit program; this includes
those who receive long or short term handicap parking privileges. FEC Directive 54 requires
that a current list of employees who have been issued FEC subsidized parking permits,
including passengers who commute with the parking permit holders, be maintained and then
compared to the Transit Subsidy Eligibility List to ensure that ineligible employees are not
on the transit subsidy list.

Parking information on FEC employees who receive FEC paid parking benefits, to include
senior executives, long and short term handicap permit holders, employees who pay to park
in the FEC parking garage, and their passengers, are not provided to OHR in a manner or
frequency sufficient to ensure employees do not have access to duplicate transit benefits.
When the Administration Division does prepare listings for distribution, the information does
not always reach the OHR staff responsible for processing changes and/or monitoring
employee participation compliance. Since the prior audit report was issued in February
2007, we found that the Administrative Division did not:

        regularly communicate the names of employees who have been issued monthly or
         annual FEC paid parking permits, including handicap permit holders;
       communicate the names of FEC employees who pay to park in the basement to OHR
         for comparison against the Transit Subsidy Eligibility List;
      	 implement a control where employees who pay to park in the basement or those who
         receive FEC paid parking benefits certify whether other FEC employees commute
         with them and include the names of FEC carpool passengers, as required by FEC
         Directive 54, on the monthly listing of parking permit holders;
      	 receive any information on which FEC employees paid to park in the basement from
         the FEC parking provider from May 2007 through July 2008; or
      	 maintain sufficient documentation to determine whether employees who had been
         issued handicap permits also claimed transit benefits for any portion of the time the
         employee held the permit (e.g. document the date a handicap permit was issued, the
         expected period of use, and communicate the information to OHR).

Further, OHR did not suspend or remove access to benefits for staff who received temporary
handicapped parking benefits.

Prior to March 2008, the Administrative Division did not record and monitor the short and
long term (daily, weekend or handicap) passes issued to FEC staff or visitors. Since March
2008, the Administrative Division began using a sign-out sheet to record the name, permit
number, date issued, date returned, and whether the pass was issued for one day use or
longer. Because the information on temporary passes issued is now maintained, it can be
provided to OHR. However, we noted the sign-out sheet does not include a field to record
the date a pass is expected to be or should be returned. When reviewing the sign-out sheets
we identified instances where a parking permit(s) were:




                                                                                            42
     issued to staff and not returned within a day or two; 

     issued and recorded as permanently issued (line out the permit number as unavailable 

       for distribution) but no detail was recorded of who had been issued the pass;
     issued to a contract firm but an individual did not sign for receipt of the permit;
     issued to a business area or division rather than an individual, and an individual did
       not sign for receipt of the permit.

If parking passes are issued to staff on a temporary or long-term basis but not fully and
accurately recorded, OHR cannot determine whether the employee access to transit benefits
should be removed.

Because the necessary information on FEC paid parking was not provided timely or
reviewed, we noted the following:

    	 a Commissioner has access to both parking and transit benefits;
    	 seven employees retained access to transit benefits while issued handicap parking
       permits. We are unable to determine whether employees claimed transit benefits
       while also having access to FEC paid parking due to the lack of detailed records
       retained by the Administrative Division;
    	 an employee who pays to park in the basement retained access to transit benefits via
       SmartBenefits from April 2006 until present totaling $3,750. The individual had a
       former last name listed in the transit system and parking benefits listed under a
       different last name. It is unclear whether the person notified OHR of the change in
       eligibility status. The employee has not claimed the transit benefits available;
    	 an employee previously absent from the FEC for eight months due to medical
       reasons retained access to Metrocheks during the period of absence. After returning,
       the employee claimed Metrocheks for several months and then transitioned to pay
       parking in the FEC garage. Finance questioned the employee’s failure to collect
       Metrocheks at which time the employee notified OHR and Finance that they were
       testing paid parking as a commute option;
    	 an existing employee assumed a position which authorized FEC paid parking
       benefits and accepted the paid benefits. The employee retained access to
       SmartBenefits for six months but did not claim the benefits; and
    	 other exceptions were noted during detailed testing and were referred to the OIG
       Investigator for further review.

Despite the prior program violations in 2000 regarding three employees who regularly
participated in an FEC carpool and received transit subsidy, and an exception in the prior
audit where a staff member received transit subsidy while participating in a carpool, the OHR
does not consistently perform a comparison of the monthly list of parking permit holders to
the Transit Subsidy Eligibility List, due largely to the fact that the information was not
collected and provided by the Administrative Division.

The planned coordination between the OHR and the Administrative Division to ensure that
employees participating in the paid parking program are not receiving a transit subsidy has
not occurred. The Administrative Division has not yet implemented a process to ensure that



                                                                                          43
employees who request paid parking permits are aware that they cannot participate in both
programs. The FEC’s policy attempted to establish an internal control with the monthly
comparison of the list of FEC paid parking permit holders with the Transit Subsidy
Eligibility List to prevent employees from participating in both benefit programs. However,
(1) the Administrative Division neglected to determine if FEC parking permit holders
operated a FEC carpool thereby providing a parking benefit to other FEC employees; (2)
permit holders were not made aware of their responsibility to inform the Administrative
Division when other employees ride in their car/vanpool; (3) the Administrative Division did
not obtain information on staff who pay to park from the parking provider and communicate
the information to OHR; (4) OHR did not compare the list of parking permit holders and
their passengers (if known) to the Transit Subsidy Eligibility List to ensure that ineligible
employees are not on the transit subsidy list, and (5) OHR did not request parking
information from the Administrative Division when the necessary data was not provided
monthly.

In order to ensure individuals do not have access to duplicate benefits, each FEC paid
parking permit holder and those who pay to park in the FEC garage should be required to
sign a certification statement that clarifies the permit holders' understanding of the
responsibilities as well as documents their acknowledgement of program requirements.
Permit holders should also be made aware that they are required to inform management as
changes occur in their commuting arrangements (i.e. new riders start or stop commuting with
the permit holder). The monthly list of permit holders and their passengers should be
provided to OHR for reconciliation with the Transit Subsidy Eligibility List in a timely
manner.


Recommendations

11a.   Program management should revise the current policy to ensure that employees are
       not receiving FEC paid transit subsidy while riding as passengers in non-FEC paid or
       private carpools.

11b.   The Administrative Division should create and maintain a complete and accurate
       listing of employees who receive long-term FEC paid parking benefits, such as SL
       and those considered permanently handicapped. Although the current practice is to
       provide annual passes for these employees, the listing should be reviewed and
       updated regularly for changes in staff. The listing should be saved on a shared
       network directory to allow OHR staff access to the most recent data at all times.

11c.   The Administrative Division should receive the listing of FEC employees who pay to
       park in the basement from the building parking manager each month. It should scan
       the document and save it on a shared network directory to allow OHR staff access to
       the most recent data at all times.

11d.   The Administrative Division should maintain a listing of employees who have been
       issued short term handicap parking permits. Where possible, the length of time the



                                                                                            44
       permit is needed should be included to allow OHR to suspend or remove access to
       transit benefits for that period of time. The information should be included in a
       shared directory to allow OHR access to the most recent data at all times.

11e. 	 Employees who receive transit benefits and who will be absent for an extended period
       of time, or their supervisor, should notify OHR of the intended absence and change in
       eligibility status so that access to benefits can be suspended or removed until the
       employee returns.

11f. 	 The Administrative Division should require all staff who receives FEC paid parking
       benefits, including handicap parking benefits, and those who pay to park in the FEC
       garage certify the names of FEC staff that carpool with them. The listing of
       carpoolers should be included in a shared directory to allow OHR access to the most
       recent data at all times.

11g. 	 OHR should review the Transit Subsidy Eligibility Listing monthly to ensure no staff
       listed as receiving FEC paid parking benefits is included. If an exception is noted and
       the employee elects to receive the transit benefit, OHR and Administrative Divisions
       should verify the FEC paid parking pass has been returned. OHR should also review
       the listing to ensure staff that pay to park in the basement and their carpoolers do not
       have access to transit benefits.


Management Response
11a. 	 Concur with this recommendation. Communication and awareness will be increased
       via FECNet informing the employees of the procedures of the transit program.

11b. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.

11c. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.

11d. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.

11e. 	 Concur with recommendation. This is an employee responsibility but will be covered
       in the revised SOP which will be posted on FECNet.

11f. 	 The OSD cannot fully support this recommendation. However, as a security measure
       (not related to the transit authority benefit program) a policy will be drafted which
       states that all members of any car pool accessing the underground parking at 999 E
       Street NW must be identified.

11g. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.



                                                                                            45
OIG Comment
The agency’s planned actions are responsive to the audit issues identified for
recommendations 11a through 11e, and 11g, and when fully implemented, should satisfy the
intent of the audit recommendations. With respect to 11f, this recommendation was
previously agreed by management during the prior audit but not fully implemented. Refer
Attachment 6, Prior Audit Corrective Action Plan with Current OIG Status, recommendation
19 on page 98. Program management should take the steps necessary to identify employees
who have access to either paid or unpaid FEC parking benefits and prevent their access to
FEC provided transit subsidy benefits.


Administrative Practices Weaken Potential Program Controls
The following findings illustrate OHR business practices that individually and collectively
decrease the ability of program staff to effectively monitor the FEC transit benefit program.

12. 	   Employee Names in the WMATA System are not Consistent with Other FEC
        Systems

Our review of electronic claims listing and “currently enrolled” reports identified eight
employees whose names were not the same as that listed in NFC payroll/leave listings or
FEC e-mail and intranet employee listings. One person had the first and last name reversed
and another had their last name truncated. The remaining individuals appear to have changed
their names due to marriage and the WMATA system data has not been updated.

If the employee names in the WMATA system were the same as that in FEC transit benefit
and payroll systems, automated system analysis for timely removal and duplicate benefits
could be performed. When the names are not consistent, it is possible for an employee to
apply for transit benefits under different names and be granted duplicate benefits. Further,
when names are not consistent, it is difficult for program management to identify whether
transit recipients are currently employed and whether employees have been granted access to
duplicate benefits.


Recommendations

12a. 	 OHR should amend the WMATA system detail to reflect the name used in the NFC
       system.

12b. 	 OHR should ensure all future applications for transit benefit have the name reflected
       as that in the NFC.

12c. 	 When processing changes to personnel records which impact name, OHR should
       consider whether any adjustment to WMATA or PeopleSoft systems are required.
       Where necessary, OHR should input changes to ensure names are consistent between
       FEC systems.


                                                                                            46
Management Response
12a. 	 Concur with this recommendation. This will be added to the CAP with an
       approximate date for it to take effect in both systems.

12b. 	 Concur with this recommendation. This will be included in the revised SOP.

12c. 	 Concur with the recommendation. The process is being incorporated into the policy
       and procedures.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations. We look forward to
reviewing the additional detail on planned implementation activities that will be provided in
the CAP.


13. 	   Employees Have Been Assigned SmartTrip Cards That Remain Unregistered

When an employee applies for transit subsidy and their commute allows use of
SmartBenefits, the OHR clerk inputs the information into the WMATA system to authorize
benefit claims via SmarTrip card but does not register the card to an employee by name.
Instead, OHR records the card number on the transit application form and in the e-mail
notifying Finance to provide Metrocheks for the period prior to the date the SmartBenefit
system will allow electronic download (kick-off). OHR also requests the employee go to the
WMATA SmartBenefit system and register the card in their name and create a system log-on
and password. According to the OHR clerk, she monitors employee registration and those
who fail to register their card are sent reminders and will be terminated if they fail to register
their SmarTrip card.

As of November 24, 2008, five SmarTrip cards authorized to download benefits using FEC
funds totaling $416 per month did not have an employee named assigned. The OIG
requested OHR provide a listing of who the cards should have been registered to, but OHR
was unable to provide the information. As such, we cannot be assured that the employees
assigned these cards do not have access to duplicate benefits or are not former employees
who retain access to FEC funded transit benefits.

The online registration could and should be accomplished at the time the card is distributed
to an employee. The OHR clerk could look away while the employee types in the private
password or OHR could register the card and assigned a password. The employee could then
log on to the WMATA system and change the password.




                                                                                               47
Recommendations

13a. 	 In order to restrict access to duplicate benefits and ensure employees are removed
       timely, OHR should register all SmarTrip cards distributed in the employee’s name at
       the time the card is issued. The employee can elect to input a user name and
       password at the OHR terminal while the clerk looks away. Alternatively, the OHR
       clerk can input the username and assign a password, such as derivative of employee
       name, and the employee can then change the password at a later date.

13b. 	 If OHR is unable to determine which FEC employees have been assigned the
       unregistered cards; it should suspend the cards and send notice to all FEC staff for the
       employees with the associate cards to contact OHR. At that point, the cards should
       be registered with an employee name.


Management Response
13a. 	 Concur with this recommendation. The revised policy will articulate that all
       employees must register their cards to receive benefits and/or receive the card. This
       will be codified in the revised SOP.

13b. 	 Concur with this recommendation. The revised policy will articulate that all
       employees must register their cards to receive benefits and/or receive the card.
       Currently there are no unregistered cards.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendations.


14. 	   Single WMATA System Log-on Used for Multiple OHR Staff

The FEC manages the SmarTrip benefits by logging on to the WMATA website using an
account number and password. Using the secure log-in, FEC OHR staff input employee
name, benefit level, and SmarTrip card number assigned. The system logs all changes such
as additions, removals, benefit level changes, and name change by the user log-on. The
system records a date/time stamp as well indicating when the last change was processed. The
system does not record the maximum authorized benefit level. For instance, if a calculated
monthly commute was $165.00, the authorized level in the SmarTrip system is $120.00, the
current maximum benefit authorized by the FEC.

FEC OHR currently has only one log-on and password that is shared by OHR staff. Without
a separate log-on for each staff member authorized to input system changes, OHR is unable
to determine whether system additions or changes were appropriate and authorized. The
FEC is not able to hold a single employee responsible for potential abuses detectable through
management review or audit such as:



                                                                                             48
      assigning transit benefits to employees who do not participate in the program and
       collecting the benefit for themselves or for family and friends;
      assigning duplicate benefits; and/or
      increasing benefit levels for self or others above the actual level authorized.

Lack of individual log-on also hinders the ability of management to review and understand
processing errors that unintentionally lead to assignment of duplicate benefits. It is unclear
how many OHR staff members have access to the log-on and password but it is estimated
three or four. For effective customer service and continuity of operations, more than one
OHR staff member, including those who supervise those staff, should have system access
and procedural knowledge of how to assign, remove and amend SmarTrip benefits for FEC
employees, as well as manage internal systems used to maintain the Transit System
Eligibility listing (PeopleSoft). Discussion with the WMATA account representative
indicates the FEC can request multiple log-on accounts linked to the FEC account and
establish a separate password for each. By doing so, OHR would improve the transparency,
accountability, and ability to audit transit benefit system transactions processed by OHR
staff.


Recommendation
14a. 	 OHR employees should be assigned separate log-on/passwords for both WMATA
       systems and FEC systems. Program Management should consider formal training
       and read-only access to WMATA systems for those in both Finance and
       Administration Division to create the best possible control environment for the FEC.


Management Response
14a. 	 Concur with this recommendation. OHR has requested from the WMATA
       representative separate logins and training.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendation.




                                                                                             49
Metrochek/Voucher Administration and Controls
15.    Monthly Balance of Metrocheks/Vouchers On-Hand Should Be Reviewed

The FEC OIG assessed the monthly balance of Metrocheks on-hand for distribution to
program participants. Between January 2007 and August 2008, Finance maintained a
monthly balance of $15,050. During that same period, Finance distributed between 60 and
70 percent of that balance each month with the average distribution of 64 percent. Since
OHR has required new and existing employees transition to SmartBenefits if their commute
allowed, Finance has reduced the monthly stock level by 33 percent to $10,100. In
November 2008, Finance distributed $6,125 in Metrocheks (61 percent) indicating that
further reduction in stock level for Metrocheks or vouchers may be possible. Maintaining a
higher monthly balance of Metrocheks on-hand increases the possibility of loss or misuse.
The Finance Office should evaluate Metrochek/voucher orders based on prior usage, stock on
hand, and estimated usage of stock. Given the change in policy to require FEC staff to use
SmartBenefits if possible, the overall monthly stock level should be assessed more
frequently.


Recommendation

15a.   Finance should continue to review and reduce the level of Metrochek/vouchers held.
       The current and previous rates of distribution between 60 to 70 percent indicate
       additional reductions could be achieved while still maintaining sufficient reserves to
       meet ad hoc demands.


Management Response
15a. Finance reduced the inventory at the end of February 2009 by approximately 35%.
     FEC management will continue to annually evaluate the appropriate level of
     inventory necessary to effectively support the organization.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit recommendation.


16.    Metrochek Stock Level Variances Were Not Fully Documented

Program policy states that the Finance Office is responsible for maintaining information on
the distribution of Metrocheks. Accordingly, any differences found during the monthly
reconciliation of Metrocheks purchased and disbursed must be recorded and resolved by the
Finance Office. For the period January 2007 to August 2008, we identified four instances
where a variance existed but management did not provide any documentation to explain what
actions were taken to identify the cause of the variances. During the audit follow-up review,


                                                                                             50
the Finance Office agreed that actions taken to investigate and resolve such variances should
be documented as had been agreed in the prior audit.

Recommendations

16a. 	 Finance should document all variances and the actions taken to investigate and
       resolve the variance in the monthly distribution records.

16b. 	 To ensure mathematical accuracy of the monthly distribution and stock counts,
       Finance staff should use a spreadsheet or adding tape to calculate the total distributed
       and expected and actual closing stock levels. An example spreadsheet to reconcile
       actual stock to calculated distribution levels was provided by the OIG.

Management Response
16a. 	 Concur with this recommendation and is currently documenting all variances and
       discrepancies.

16b. 	 FEC management believes that the current spreadsheet utilized by Finance is
       sufficient to monitor and reconcile all voucher balances.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified for
recommendation 16a, and when fully implemented, should satisfy the intent of the audit
recommendation. With respect to 16b, the OIG’s testing noted the spreadsheet used was
ineffective in preventing mathematical errors. Any revised reconciliation methods
implemented will be reviewed as part of future follow-up activity.




                    OTHER MATTERS OF INTEREST 



Employee Claim Patterns Indicate They May Not Meet Program Eligibility
Requirements

Per Directive 54:

       “The purpose of the FEC transit subsidy program is to provide financial incentives to
       employees who regularly commute via public transportation. For the purposes of this
       program, "regularly commute" shall mean that the employee commutes via public
       transportation on a regular and recurring basis and that a minimum of 50% of the
       available number of commuting days (business days) per month between home and
       the official duty station are on public transportation. FEC transit subsidy is to be
       used for the commute to and/or from the official duty station. The official duty station


                                                                                             51
       for all FEC employees is 999 E Street, NW, Washington, DC, other designated leased
       office space in the Washington, DC metro area or temporary local duty station.”

A substantial number of employees with late claims indicate they may not meet program
eligibility requirements or may not comply with the program directive. Transit benefits
claimed on or after the 15th of the month were considered “late” claims. We reviewed the
electronic SmartBenefits claims activity and noted that 103 employees claimed benefits after
the 15th of the month in 440 instances. The claims made after mid-month for the 16 month
period April 2007 to July 2008 totaled $32,616. Of those, 313 claims totaling $27,788 were
for the full amount and 127 claims totaling $4,828 were for partial amounts. Technically,
applying the 50% rule as described in Directive 54, employees who had not claimed by mid-
month should have reduced their claims by 50%, resulting in a savings of $16,308.35 for the
Commission. In total:

      30 employees had only one late claim;
      44 employees had 2 to 5 late claims;
      23 employees had 6 to 10 late claims;
      3 employees had 11 to 14; and
      3 employees had more than 15 late claims.

Some employees claimed multiple times in a given month and indicated a possible
"managed" claim practice to ensure the maximum value was maintained on the SmarTrip
card at any given time. For these employees, it appeared they regularly made the initial
claim of the month after mid-month, then replenished the card through additional downloads
(sometimes more than once per week or even per day) to ensure they were able to claim the
maximum benefit each month despite what appears to be a transit card that cannot hold the
full subsidy allotment at the beginning of the month. This practice is likely due to previous
FEC benefits accumulating over time or personal funds applied to the card and a balance
maintained at or near the maximum value of $300.

The WMATA system allows the account holder (FEC) to project the amount of claims that
will be made and temporary suspend claims for the remainder of the month. By using the
feature, the FEC could suspend all employees’ ability to claim benefits in a given month
when benefits have not been claimed by a certain date. This is the electronic equivalent of
requiring employees to seek formal approval for late claims, the same as employees who use
Metrocheks or vouchers issued by the Finance Office. If employees do not claim their
benefit by a certain date, they would be required to notify HR and request their benefit be
reinstated for the month by authorizing voucher distribution. At that time, the HR staff
member could determine the reason for failure to claim by midmonth and could adjust the
amount of the transit benefit to reflect the actual commute costs for the month. If a balance
is retained from prior periods, the staff member would be asked to expend previously issued
benefits before being provided additional funds. By using this feature, the FEC could
manage SmartBenefits and Metrochek/voucher program participants under the same
standards, better utilize agency funds, and identify and appropriately remove staff who may
not meet program eligibility requirements.




                                                                                           52
A review of monthly Metrochek distributions for late claims showed two employees received
full benefits for months when they did not commute more than 50% of the commutable days
in the month based on review of the late distribution form and/or leave records. The form
used to document approval and receipt of late distributions does not include an area to
calculate the amount that should be received under the transit policy, i.e. the full or reduced
amount. There were also several instances where employees acknowledged receipt of
benefits while assigned to a temporary duty location, a practice supported by Directive 54 if
the employee continues to commute via public transportation. The form used to authorize
receipt of benefits while assigned to the temporary duty location was signed by the
employees’ Division Head, but does not list the location of the temporary duty location. As
such, program management would not know if the change in duty location resulted in a lower
monthly commute cost for the employee, and therefore whether full or reduced benefit
should be provided.

Suggestions

1. 	   OHR should review the detailed results of this testing and consider the implications
       for revising program policy and operating procedures.

2. 	   OHR should review the detailed results of this testing and request staff certify that
       they met program eligibility requirements and comply with the Directive. OHR
       should request written explanation from employees who have a history of late claims.

3. 	   OHR should download the monthly WMATA claim activity listings each month. The
       data should be compiled and reviewed annually for late claims to ensure employees
       who received benefits use them as intended.

4. 	   OHR should obtain information and training on system features that allow forward
       projection and suspension of funds that can be claimed when the benefits are not
       claimed by mid-month. In conjunction with policy revision, it should consider
       whether to implement the control feature to allow parity between SmartBenefit and
       voucher recipients.

5. 	   Program management should revise the Request for Late Distribution of Fare Media
       form to include calculation of the benefit authorized under the policy and the
       Acknowledgement of Receipt of Fare Media While at Temporary Duty Station form to
       include the location of the temporary duty station and whether full or reduced transit
       subsidy is authorized.


Management Response

1.	    Concur with this recommendation. The Human Resources Specialist/Employee
       Relations is already doing this. A one-month period is required to download for the
       current month.




                                                                                              53
2.	    Concur with this recommendation. The Human Resources Specialist/Employee
       Relations is already doing this. A one-month period is required to download for the
       current month.

3.	    Concur with this recommendation. The Human Resources Specialist/Employee
       Relations is already doing this. A one-month period is required to download for the
       current month.

4.	    Concur with this recommendation. OHR has requested additional training from
       WMATA.

5.	    Concur with this recommendation. The process will be incorporated into the policy
       and procedures.


OIG Comment
The agency’s planned actions are responsive to the audit issues identified, and when fully
implemented, should satisfy the intent of the audit suggestions. The OIG provided the
detailed results of testing to OHR on May 18, 2009. The OIG suggests the OHR download
the monthly claim activity data and review the information to identify trends in claim activity
over an extended period of time.




                                                                                            54
                                 CONCLUSIONS 

The OIG continues to note the program’s internal control system needs strengthening to
ensure that unused subsidies are returned by separating employees, former employees are
promptly removed from the list of eligible transit subsidy recipients, employees do not have
access to duplicate benefits, and that ineligible persons do not have access to FEC transit
benefits. Based on the results of this audit follow-up, the OIG has concluded that
management has failed to adequately respond to the OIG’s 2007 audit recommendations to
improve the program. Further, as a result of the continued control weaknesses, the program
was not effectively monitored thereby providing opportunity for fraud, waste and abuse of
program funds.

The FEC Transit Benefit Program requires immediate correction and ongoing monitoring to
ensure that the program weaknesses and abuses described in this report are prevented,
detected, and corrected in the future, thus preventing program fraud, waste and abuse. To
date, program management has failed to implement 21 of the 25 recommendations contained
in the prior audit report, largely due to a lack of centralized program monitoring and
reporting. This lack of central oversight and accountability has negatively impacted program
management’s willingness to prioritize program administration and to devise an effective
control framework. The transit benefit program has undergone financial increases annually
since 2005 as well as major program and system changes as WMATA continues to enhance
its systems and processes to more effectively serve to the public. Given the cash equivalent
nature of the program and the high inherent risk of fraud, the FEC transit benefit program
remains a financial risk to the FEC as well as to the government as a whole.

Program management should take the steps necessary to plan, monitor, report, review and
modify program administration to ensure the program achieves its intended objective and is
not susceptible to fraud waste and abuse.




                                                                                           55
                               Attachment 1 Summary of Audit Follow-up Findings and Recommendations

                                           SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                            Recommendation                                   Management Response                        OIG Comment
     No.
                                                                                                     Program responsibility, authority and
                                                                                                     accountability shall reside with an
                                                                                                     Office of Human Resource (OHR)
                                                                                                     Specialist with oversight from the
                                                                                                     Office of the Staff Director. The OSD
                                                                                                                                              The agency’s planned actions are
                                      The Commission should designate a single individual            prefers not to name specific
                 Transit Benefit                                                                                                              responsive to the audit issues
                                      with the responsibility, authority, and accountability to      individuals in this response but
                 Program Lacks                                                                                                                identified, and when fully
      1a                              oversee the program in its entirety, and to address the        offices instead. The OSD will
                 Oversight and                                                                                                                implemented, should satisfy the
                                      transit benefit program weaknesses identified in this          develop and maintain on the FECNet
                 Accountability                                                                                                               intent of the audit
                                      follow-up report and the prior transit benefit audit report.   OSD Web page a list of staff, by
                                                                                                                                              recommendation.
                                                                                                     name, responsible for critical actions
                                                                                                     and specific duties in offices under
                                                                                                     the purview of the OSD. This action
                                                                                                     will be captured and addressed in the
                                                                                                     Corrective Action Plan (CAP).
                                      FEC officials comply with Directive 50, to include the
                                      following:                                                                                              The agency’s planned actions are
                                              provide corrective action plans to the OIG                                                     responsive to the audit issues
                                               within 30 days of final report;                                                                identified, and when fully
                                              submit the corrective action plans within 30                                                   implemented, should satisfy the
                                                                                                     Concur with recommendation.
                                               days to the Commission via the staff Director                                                  intent of the audit
                                                                                                     Directive 50 will be updated and a
                 Program                       for information, tally vote or approval;                                                       recommendation. The OIG
                                                                                                     first draft circulated to the
                 Management has not           hold regular meetings with the OIG to discuss                                                  believes any planned updates to
      2a                                                                                             Commission within thirty days (30)
                 Complied with                 the status of the outstanding recommendations;                                                 Directive 50 should retain and
                                                                                                     of receipt of the final report. A CAP
                 Directive 50                 produce semi-annual reports to the Commission                                                  emphasize the importance of
                                                                                                     will be provided within thirty (30)
                                               on the status of outstanding recommendations;                                                  regular meetings and monitoring
                                                                                                     days of the final audit.
                                               and                                                                                            of outstanding audit
                                              use the FEC OIG Audit Recommendation                                                           recommendations by FEC
                                               Tracking System or similar system that records                                                 management with the OIG and
                                               recommendations, agreed management actions                                                     Commission.
                                               and implementation status.




                                                                                                                                                      56




                                                                                                                                                           

                                              SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                               Recommendation                                   Management Response                        OIG Comment
     No.
                 FEC’s Transit Benefit                                                                 Concur with recommendation. The          The agency’s planned actions are
                 Program Control         FEC management should implement control processes to          intention is to develop an action        responsive to the audit issues
                 Status Reported to      ensure information prepared for external reporting is fully   within 90 days of the final report       identified, and when fully
      3a
                 OMB was not Fully       and accurately assessed prior to forwarding to the            being published. This action will be     implemented, should satisfy the
                 or Accurately           Commission for approval and release.                          listed in the Corrective Action Plan     intent of the audit
                 Assessed                                                                              listed in 2a.                            recommendations.
                 FEC’s Transit Benefit                                                                                                          The OIG only requests review of
                                         The FEC OIG requests that draft responses to OMB and          Concur with recommendation. OSD
                 Program Control                                                                                                                external communications where
                                         other oversight entities are provided by management to        will adopt a policy where by
                 Status Reported to                                                                                                             OIG activity or work products
      3b                                 the OIG as a matter of courtesy when those responses          communications made to outside
                 OMB was not Fully                                                                                                              are mentioned or where the
                                         specifically refer to OIG audit activities and reported       agencies will be coordinated with
                 or Accurately                                                                                                                  response attributes a status or
                                         audit results.                                                CFO, OGC and OIG prior to release.
                 Assessed                                                                                                                       opinion to the IG or OIG work.
                                                                                                                                                The agency’s planned actions for
                                                                                                                                                recommendation 4a are
                 Program Policy and      Program management should consider the OIG’s findings         Directive 54 will be updated and a       responsive to the audit issues
      4a         Procedures Need         and revise the program directive/policy and other             final draft will be circulated to the    identified, and when fully
                 Improvement             procedure documents.                                          Commission for a vote.                   implemented, should satisfy the
                                                                                                                                                intent of the audit
                                                                                                                                                recommendation.

                                                                                                                                                With respect to recommendation
                                                                                                                                                4b, the OIG still believes the
                                                                                                       The OSD cannot support this              program offices would benefit
                                                                                                       recommendation. Given the timing         by reviewing best practice
                                         Management should request examples of transit benefit
                                                                                                       of the audit report and requested        examples of policies, procedures
                                         policies and procedure guides from other federal
                                                                                                       management response, this is both        and guidelines obtained from
                 Program Policy and      agencies, GAO, or OMB to use as examples in designing
                                                                                                       unnecessary and not possible. OSD,       other federal agencies. It was
      4b         Procedures Need         its revised policies and procedures. In addition,
                                                                                                       OHR and other offices have               not the intent of the OIG that all
                 Improvement             management should consider using the WMATA system
                                                                                                       conducted sufficient research to         policies, procedures, standard
                                         user guide as a starting point for developing the
                                                                                                       produce a revised policy that reflects   operating procedures or other
                                         procedures guide for OHR program officials.
                                                                                                       cohesion of the WMATA system and         guidance would be fully drafted
                                                                                                       FEC procedures.                          and approved prior to the
                                                                                                                                                issuance of the final audit
                                                                                                                                                follow-up review report.




                                                                                                                                                         57




                                                                                                                                                              

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                             Recommendation                                   Management Response                         OIG Comment
     No.
                                       The transit benefit application form should be modified                                                  With respect to recommendation
                                       to include elements suggested in the OMB memorandum                                                      4c, the OIG now understands
                                       sample form, such as compressed schedules; flexiplace;                                                   that WMATA will not provide
                                       and age and handicap reduced commuter rates. The form                                                    detailed employee transit
                                       should also include an employee release authorizing the       The OSD cannot support this                information except when the
                                       FEC to obtain transit activity detail from WMATA for          recommendation. WMATA will not             employee is subject to formal
                                       transit activity on the FEC issued SmarTrip card, as          release transit activity detail unless a   investigation. In the future,
                 Program Policy and
                                       needed, to effectively monitor the program. The form          criminal investigation and legal           WMATA systems will allow
      4c         Procedures Need
                                       should encourage employees who regularly use WMATA            proceeding. The request must be            registered users to access
                 Improvement
                                       transit systems for personal use or metro parking to          pursuant to a court order or made by       information relating to their own
                                       maintain a separate SmarTrip for those transactions. If       the employee. The transit benefit          transit activity. At that time,
                                       agreed by management, the form should also reflect that       application form has been updated.         management should consider
                                       staff may claim and retain transit subsidy where their                                                   reevaluating the
                                       commute payment is based on a monthly rate such as van                                                   recommendation as employees
                                       pool or train pass, even if they do not meet the 50%                                                     may voluntarily provide
                                       participation rate for a given month.                                                                    information when requested.
                                                                                                                                                With respect to the revisions
                                                                                                                                                recommended for transit
                                       Management should consider using greater than and less
                                                                                                                                                application form in 4d, we note
                                       than values to define the maximum benefits claimable
                                                                                                                                                the transit form available via the
                                       when an employee’s commuting costs vary based on days         Concur with recommendation.
                 Program Policy and                                                                                                             OHR intranet website is dated
                                       commuted each month. The less than/greater than               Procedure will be incorporated in
      4d         Procedures Need                                                                                                                June 15, 2008, does not reflect
                                       scenarios could be used to ensure fairness to the             revised Standard Operating
                 Improvement                                                                                                                    the changes recommended
                                       employees while also limiting program expense to the          Procedures (SOP).
                                                                                                                                                above, and may not be the
                                       FEC. The policy change would provide a quantifiable
                                                                                                                                                updated version intended by
                                       method for determining compliance.
                                                                                                                                                FEC management for employee
                                                                                                                                                use from this date forward.
                                                                                                                                                The agency’s planned actions are
                                       Program management should implement internal controls                                                    responsive to the audit issues
                 Separated Employees                                                                 Concur with recommendation.
                                       and quality assurance processes to ensure employees who                                                  identified, and when fully
      5a         Were Not Removed                                                                    Procedure will be incorporated in a
                                       separate have their access to transit subsidy terminated at                                              implemented, should satisfy the
                 Timely                                                                              revised SOP.
                                       the earliest possible date.                                                                              intent of the audit
                                                                                                                                                recommendation.
                                                                                                                                                The agency’s planned actions are
                                                                                                     FEC Management will review the             responsive to the audit issues
                 Separated Employees   Program management should consider whether to attempt
                                                                                                     specifics for the impacted employees       identified, and when fully
      5b         Were Not Removed      recovery of the $1,181 in excess benefits claimed by the
                                                                                                     and determine the best course of           implemented, should satisfy the
                 Timely                seven former employees.
                                                                                                     action for the agency.                     intent of the audit
                                                                                                                                                recommendation.




                                                                                                                                                         58




                                                                                                                                                              

                                           SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                            Recommendation                                   Management Response                         OIG Comment
     No.
                                                                                                    Concur with recommendation. The
                                                                                                    OHR has updated the separation
                                       The OHR should ensure the employee separation                clearance process to incorporate
                 Participants
                                       clearance process includes the computation of unused         transit subsidy as an item to check so
                 Separating From the
                                       transit subsidy to be recovered from separating              that it is readily identifiable in order
      6a         Agency Did Not
                                       employees. The revised clearance form should be used to      to calculate any unused transit            The agency’s planned actions for
                 Return Unused
                                       show the unused transit subsidy repayment amount or the      subsidy, as outlined in the policy.        recommendations 6a and 6b are
                 Transit Subsidy
                                       fact that no repayment is required.                          The updated form is currently being        responsive to the audit issues
                                                                                                    used by OHR and the process will be        identified, and when fully
                                                                                                    incorporated in the revised SOP.           implemented, should satisfy the
                                                                                                                                               intent of the audit
                                       The repayment calculation worksheet provided by the          Concur with recommendation. The
                 Participants                                                                                                                  recommendations.
                                       OIG in May 2008, or similar document, should be used to      employee clearance form has been
                 Separating From the
                                       calculate whether repayment is due. A copy of the            updated to reflect this
      6b         Agency Did Not
                                       calculation worksheet should be attached to the employee     recommendation. A copy of the
                 Return Unused
                                       clearance form so that Finance can request and collect the   updated form will be provided with
                 Transit Subsidy
                                       correct amount from separating employees.                    the CAP.
                                                                                                                                               With respect to 6c, prior to
                                                                                                                                               WebTA, OHR or Finance
                                                                                                                                               reviewed the employee
                                                                                                                                               timesheets in order to calculate
                                                                                                                                               whether a transit repayment was
                                                                                                                                               required. The timesheets were
                                                                                                                                               retained in the separating
                                       If not already available, OHR employees should be given                                                 employee’s personnel file
                                                                                                    The OSD cannot support this
                                       read only access to the WebTA system so that OHR can                                                    maintained in Finance, along
                                                                                                    recommendation. The OSD does not
                 Participants          view time and attendance records for the month an                                                       with a copy of the employee
                                                                                                    find it appropriate for OHR to pull
                 Separating From the   employee separates and use actual attendance to calculate                                               clearance form and final pay
                                                                                                    Time and Attendance for this
      6c         Agency Did Not        whether repayment is due. Alternatively, separating                                                     and/or leave balance transfer
                                                                                                    purpose. OSD will consult further
                 Return Unused         employees should be instructed to print a copy of their                                                 details. This recommendation
                                                                                                    with OGC on this issue and advise
                 Transit Subsidy       timesheets for the current month and provide the                                                        simply reflects the change in
                                                                                                    OIG of OGC opinion. This will be
                                       information to OHR to allow calculation of transit                                                      source documentation
                                                                                                    added to the CAP.
                                       subsidy repayment.                                                                                      availability due to the transition
                                                                                                                                               to an electronic time and
                                                                                                                                               attendance system and the fact
                                                                                                                                               that the current management
                                                                                                                                               process assigns responsibility for
                                                                                                                                               calculating final transit
                                                                                                                                               repayment to OHR staff
                                                                                                                                               members.



                                                                                                                                                        59




                                                                                                                                                             

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                             Recommendation                                  Management Response                        OIG Comment
     No.
                                                                                                                                              The agency’s planned actions for
                                       OHR management should ensure proper training of staff         Concur with this recommendation.
                 Participants                                                                                                                 recommendation 6d is
                                       responsible for the office’s employee separation              OHR has requested additional
                 Separating From the                                                                                                          responsive to the audit issues
                                       clearance process. Staff should be familiar with unused       training from WMATA. Details will
      6d         Agency Did Not                                                                                                               identified, and when fully
                                       transit subsidy requirements and the procedures used to       be provided in the Corrective Action
                 Return Unused                                                                                                                implemented, should satisfy the
                                       calculate the correct amount of transit subsidy that should   Plan. The training is done in
                 Transit Subsidy                                                                                                              intent of the audit
                                       be returned by departing employees.                           cooperation with WMATA and OHR.
                                                                                                                                              recommendations.
                                       OHR should download the “currently enrolled” and
                                       “employee removed” listings monthly, as well as use the                                                The agency’s planned actions are
                                       on-line WMATA system data and the FEC Transit                                                          responsive to the audit issues
                                       Benefit Eligibility Listing to verify the status of           Concur with this recommendation.         identified, and when fully
                                       employees prior to processing additions or changes to the     OHR has already instituted a process     implemented, should satisfy the
                 Employees Have
                                       transit benefit system. It is important to note that          to address this issue. Details will be   intent of the audit
      7a         Access to Duplicate
                                       employees may have had several SmarTrip cards                 provided in the Corrective Action        recommendations. The OIG
                 Benefits
                                       registered in their names over their term of employment,      Plan. Copies of the procedures will      looks forward to reviewing the
                                       but should only have one active SmarTrip card at any          be provided.                             additional detail on planned
                                       point in time. OHR must verify and review system                                                       implementation activities that
                                       changes by SmarTrip card number as well as employee                                                    will be provided in the CAP.
                                       name to prevent access to duplicate benefits.
                                       The record of change requests and the resulting changes
                                       processed should be retained in OHR transit files, along
                                       with the completed application/change request form. As                                                 The agency’s planned actions are
                                       a result, any OHR staff member who is responsible for                                                  responsive to the audit issues
                                       processing transactions can review the history of requests                                             identified, and when fully
                                       by employee name and determine whether previous                                                        implemented, should satisfy the
                                                                                                     Concur with this recommendation.
                 Employees Have        requests have been completed. OHR should consider                                                      intent of the audit
                                                                                                     OHR has already instituted a process
      7b         Access to Duplicate   creating a shared e-mail directory to store                                                            recommendations. The OIG
                                                                                                     to address this issue and will be
                 Benefits              communications from FEC employees regarding their                                                      looks forward to reviewing the
                                                                                                     outlined in the CAP.
                                       transit inquiries and change requests. Any request for                                                 additional detail on planned
                                       new benefits, termination of benefit, or change in the                                                 implementation activities that
                                       amount of benefit received, address and commute pattern,                                               will be provided in the CAP.
                                       and type of benefit (voucher or SmartBenefit) should be
                                       documented using the Transit Subsidy Program
                                       Application form.




                                                                                                                                                      60




                                                                                                                                                           

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                             Recommendation                                    Management Response                        OIG Comment
     No.
                                       Program management should review change requests on
                                       a regular basis to ensure benefits are not available in two
                                       forms; voucher and SmartBenefits, or two or more
                                       SmartBenefit card numbers. Program management
                 Employees Have                                                                        Concur with this recommendation.
                                       should consider an automated report comparison between
      7c         Access to Duplicate                                                                   Process has been adopted, although
                                       the Transit Benefit Eligibility Listing (PeopleSoft) that
                 Benefits                                                                              not automated.
                                       records the participants’ names and benefit type
                                       (Metrochek/voucher or SmartBenefits) to the WMATA                                                        The agency’s planned actions are
                                       “currently enrolled” listing to highlight duplicate                                                      responsive to the audit issues
                                       benefits.                                                                                                identified, and when fully
                                                                                                                                                implemented, should satisfy the
                                       OHR should input the SmarTrip card number in the
                                                                                                                                                intent of the audit
                                       PeopleSoft system at the time the card is distributed to an
                                                                                                                                                recommendations. The OIG
                                       employee and not attempt to manage whether the
                 Employees Have                                                                        Concur with this recommendation.         looks forward to reviewing the
                                       employee name prints on the monthly distribution listing
      7d         Access to Duplicate                                                                   Process has been adopted, although       additional detail on planned
                                       for Finance. Employee names should be manually
                 Benefits                                                                              not automated.                           implementation activities that
                                       written on the distribution form for one or more months if
                                                                                                                                                will be provided in the CAP.
                                       the participants have elected to receive transit benefits via
                                       SmarTrip.
                                       Finance should distribute benefits as indicated by OHR
                                                                                                       FEC management concurs with the
                                       for the time period indicated. If WMATA system
                 Employees Have                                                                        recommendation for Finance to
                                       limitations require manual benefit distribution for more
      7e         Access to Duplicate                                                                   reconcile OHR reports and is already
                                       than one month, Finance should print the e-mail for
                 Benefits                                                                              performing this internal control check
                                       reference and inclusion in distribution reports for both
                                                                                                       for the vouchers.
                                       months.




                                                                                                                                                        61




                                                                                                                                                             

                                          SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                      Finding                            Recommendation                                   Management Response                         OIG Comment
     No.
                                                                                                                                              With respect to 8a, the
                                                                                                                                              recommendation does not
                                                                                                                                              require audit authority.
                                                                                                                                              Management is responsible for
                                                                                                                                              ensuring effective internal
                                                                                                    The OSD cannot support this
                                                                                                                                              controls of the program. One
                                                                                                    recommendation. This is not possible
                                                                                                                                              type of internal control is the
                                                                                                    without audit authority, which the
                                     Transit benefit policies and communications should                                                       comparison of different types of
                                                                                                    FEC does not have except in the case
                                     convey to participants that FEC management or other                                                      data, such as benefit claims and
                                                                                                    of a criminal investigation.
                                     officials may periodically compare extended leave and                                                    leave/travel records, and taking
                                                                                                    Currently, OHR has a periodic
                 Employees Did Not   travel records to transit benefit claims for compliance                                                  corrective action, when
                                                                                                    review process in place and compares
      8a         Comply With         with FEC program requirements. Although the current                                                      necessary, to resolve exceptions.
                                                                                                    claimed and unclaimed reports. The
                 Program Policy      directive and monthly reminders to program participants                                                  Excessive claims for periods of
                                                                                                    process will be codified in the revised
                                     provide the program policy for extended leave and travel,                                                extended leave and travel has
                                                                                                    SOP. OSD will encourage
                                     given the continued compliance issue, additional controls                                                been a longstanding program
                                                                                                    management at all levels to
                                     are necessary.                                                                                           issue and management should
                                                                                                    incorporate informational briefings
                                                                                                                                              implement additional controls to
                                                                                                    into any venue where it is
                                                                                                                                              ensure program compliance.
                                                                                                    appropriate.
                                                                                                                                              The process for reviewing
                                                                                                                                              claimed and unclaimed activity
                                                                                                                                              would not detect excessive
                                                                                                                                              benefits claimed during periods
                                                                                                                                              of extended leave or travel.
                                                                                                    The OSD cannot support this               With respect to 8b, the
                                                                                                    recommendation. Line supervisors          recommendation is not
                                     Division management should regularly communicate the
                                                                                                    should bear no responsibility,            suggesting the line supervisors
                                     transit benefit policy to their staff to ensure participants
                 Employees Did Not                                                                  oversight or otherwise, of the benefit.   oversee the benefit program,
                                     are fully aware of their responsibility to reduce the
      8b         Comply With                                                                        However, OSD will encourage               merely use team meetings and
                                     benefits claimed during extended absences for travel or
                 Program Policy                                                                     management at all levels to               employee training sessions to
                                     leave. This communication could be done during normal
                                                                                                    incorporate informational briefings       communicate the policy in a
                                     staff or team meetings.
                                                                                                    into any venue where it is                more direct communication
                                                                                                    appropriate.                              method.
                                     OHR should develop clear program policies and                  Concur with recommendation.
                                                                                                                                              With respect to 8c, we accept
                 Employees Did Not   procedures to provide participants with specific               Policy and procedures are being
                                                                                                                                              management’s response.
      8c         Comply With         instructions on how adjustments should be made for             revised with a no later than date of
                                                                                                                                              Awareness and management
                 Program Policy      those who receive their transit subsidy electronically via     August 1, 2009 and will be posted on
                                                                                                                                              review are important.
                                     the SmarTrip card.                                             FECNet.




                                                                                                                                                      62




                                                                                                                                                           

                                         SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                      Finding                           Recommendation                                 Management Response                       OIG Comment
     No.
                                     Program management should require supervisory
                                     review/signature of the employees’ transit benefit          The OSD cannot support this
                                     program applications. An awareness that an employee         recommendation. It is far-reaching to   With respect to 8d, we accept
                 Employees Did Not
                                     participates in the transit program will allow the          expect supervisors to adhere to this    management’s response.
      8d         Comply With
                                     supervisor to advise their employees, as needed, on the     recommendation. Communication           Awareness and management
                 Program Policy
                                     requirements of the program, such as instances in which     and awareness will be increased via     review are important.
                                     participants commute less than 50 percent of the business   FECNet.
                                     days in a month.
                                                                                                 Concur with this recommendation.
                                                                                                 The OSD is working to revise the
                                                                                                 FEC Parking Policy as well as the
                                     Program management should ensure that the program
                                                                                                 revised Transit Policy. OHR and
                                     offices’ staff are properly trained on the guidelines and
                                                                                                 Administrative Services staff will be
                 Employees Did Not   procedures regarding transit subsidy adjustments required
                                                                                                 trained in procedures on how to
      8e         Comply With         when participants are on extended absence from the
                                                                                                 process terminations and removals
                 Program Policy      office. Properly trained program staff can provide
                                                                                                 based on employees’ circumstances.
                                     accurate information to employees who contact OHR for
                                                                                                 Employees and/or managers will be
                                     advisement regarding program requirements.
                                                                                                 instructed to notify OHR when
                                                                                                 employees will be absent from duty
                                                                                                 station for an extended time.           The agency’s planned actions are
                                     Program management should ensure participants placed                                                responsive to the audit issues
                                     on administrative leave have benefits suspended or                                                  identified, and when fully
                                     removed, as appropriate. Although program management                                                implemented, should satisfy the
                 Employees Did Not   has implemented procedures that include transit benefit     Concur with the recommendation.         intent of the audit
      8f         Comply With         restrictions for employees on administrative leave,         The process is being incorporated       recommendation.
                 Program Policy      additional controls are warranted. It should take care to   into the policy and procedures.
                                     suspend and remove access to transit benefits at the
                                     earliest possible date following an employee’s placement
                                     on administrative leave.
                                                                                                 Concur with the recommendation.
                                     Program management should implement a process to            The process is being incorporated
                 Employees Did Not   identify staff who are absent for an extended period of     into the policy and procedures. This
      8g         Comply With         time and review their claim activity to determine whether   may be done in cooperation with
                 Program Policy      the control processes implemented result in program         timekeepers, but again, the
                                     compliance.                                                 responsibility lies with the
                                                                                                 employees.




                                                                                                                                                 63




                                                                                                                                                      

                                              SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                               Recommendation                                 Management Response                       OIG Comment
     No.
                 Employee Claim
                 Patterns Indicate       OHR should review the detailed results of this testing and
      9a         They Do Not Meet        consider the implications for revising program policy and    Concur with this recommendation.
                 Program Eligibility     operating procedures.                                                                                The agency’s planned actions are
                 Requirements                                                                                                                 responsive to the audit issues
                 Employee Claim          OHR should review the detailed results of this testing and                                           identified, and when fully
                                                                                                      Concur with this recommendation.        implemented, should satisfy the
                 Patterns Indicate       request staff certify that they met program eligibility
                                                                                                      OHR maintains a log of this activity.   intent of the audit
      9b         They Do Not Meet        requirements and comply with the Directive. OHR
                                                                                                      This will be codified in the revised    recommendations. We look
                 Program Eligibility     should request written explanation from employees who
                                                                                                      policy and procedures.                  forward to reviewing the
                 Requirements            have a history of irregular claims.
                                                                                                                                              additional detail on planned
                 Employee Claim          OHR should download the monthly WMATA claim                                                          implementation activities that
                                                                                                      Concur with this recommendation.
                 Patterns Indicate       activity listings each month. The data should be                                                     will be provided in the CAP.
                                                                                                      OHR maintains a log of this activity.
      9c         They Do Not Meet        compiled and reviewed annually for irregular claims to
                                                                                                      This will be codified in the revised
                 Program Eligibility     ensure employees who received benefits use them as
                                                                                                      policy and procedures.
                 Requirements            intended.
                 Application, Change
                 Requests and Annual
                                         OHR should require all FEC employees submit proof of         Concur with this recommendation.
                 Certification Process
     10a                                 their commute with their certification by using the trip     The process is being incorporated
                 is not Formally or
                                         planner features of WMATA website.                           into the policy and procedures.
                 Effectively
                 Monitored

                                                                                                      Concur with this recommendation.        The agency’s planned actions are
                                                                                                      The Human Resources                     responsive to the audit issues
                 Application, Change
                                         After reviewing the commute information, costs, and          Specialist/Employee Relations will      identified, and when fully
                 Requests and Annual
                                         transit application mathematical calculations, OHR           sign the form authorizing the Human     implemented, should satisfy the
                 Certification Process
     10b                                 management should sign the form authorizing the OHR          Resources Assistant to process the      intent of the audit
                 is not Formally or
                                         clerk to process the application, change request, or         application, change request or          recommendations. We look
                 Effectively
                                         certification.                                               certification. The process will be      forward to reviewing the
                 Monitored
                                                                                                      incorporated into the policy and        additional detail on planned
                                                                                                      procedures.                             implementation activities that
                 Application, Change                                                                                                          will be provided in the CAP.
                 Requests and Annual
                 Certification Process   Clerks who process applications, change requests, or
                                                                                                      Concur with the recommendation.
                 is not Formally or      annual certifications should sign and date the form in the
     10c                                                                                              The process is being incorporated
                 Effectively             fields provided after entering the data in the system and
                                                                                                      into the policy and procedures.
                 Monitored               verifying the transaction was processed.




                                                                                                                                                      64




                                                                                                                                                           

                                              SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                               Recommendation                                   Management Response                    OIG Comment
     No.
                 Application, Change
                 Requests and Annual
                                         Signature stamps should not be used to authorize transit
                 Certification Process
     10d                                 benefit applications, change requests, and annual              Concur with this recommendation.
                 is not Formally or
                                         certifications.
                 Effectively
                 Monitored
                 Application, Change     OHR should track annual certification forms submitted
                 Requests and Annual     by FEC staff. For those who fail to submit a form, an e-
                                                                                                        Concur with the recommendation.
                 Certification Process   mail reminder should be used followed by benefit                                                    The agency’s planned actions are
     10e                                                                                                The process is being incorporated
                 is not Formally or      suspension or removal. Failure to certify by FEC                                                    responsive to the audit issues
                                                                                                        into the policy and procedures.
                 Effectively             employees should be considered an informal request to                                               identified, and when fully
                 Monitored               cease participation in the program.                                                                 implemented, should satisfy the
                                         OHR should not use the WMATA automatic increase                                                     intent of the audit
                                         function which automatically increases those receiving                                              recommendations. We look
                                         the maximum benefit. Instead, it should submit a listing                                            forward to reviewing the
                                         to WMATA of FEC staff that have certified and are                                                   additional detail on planned
                 Application, Change     authorized to receive the increase. If the auto increase                                            implementation activities that
                 Requests and Annual     function is used, the FEC should first create a listing of                                          will be provided in the CAP.
                                                                                                        Concur with the recommendation.
                 Certification Process   each staff member, benefit type (SmartBenefit or
     10f                                                                                                The process is being incorporated
                 is not Formally or      voucher), the amount certified (actual monthly commute
                                                                                                        into the policy and procedures.
                 Effectively             costs) and the maximum authorized each month. The
                 Monitored               listing can then be sorted to identify those staff that were
                                         authorized to receive the previous maximum but do not
                                         have commute costs in excess of that amount. Those
                                         individuals would have their system increase reduced to
                                         the previous value.
                                                                                                        Concur with this recommendation.
                 Program Weaknesses      Program management should revise the current policy to
                                                                                                        Communication and awareness will
                 Relating to Parking     ensure that employees are not receiving FEC paid transit
     11a                                                                                                be increased via FECNet informing
                 have not been           subsidy while riding as passengers in non-FEC paid or
                                                                                                        the employees of the procedures of
                 Addressed               private carpools.                                                                                   The agency’s planned actions are
                                                                                                        the transit program.
                                                                                                                                             responsive to the audit issues
                                         The Administrative Division should create and maintain a
                                                                                                                                             identified for recommendations
                                         complete and accurate listing of employees who receive
                                                                                                                                             11a through 11e, and when fully
                                         long-term FEC paid parking benefits, such as SL and
                 Program Weaknesses                                                                                                          implemented, should satisfy the
                                         those considered permanently handicapped. Although             Concur with the recommendation.
                 Relating to Parking                                                                                                         intent of the audit
     11b                                 the current practice is to provide annual passes for these     The process is being incorporated
                 have not been                                                                                                               recommendations.
                                         employees, the listing should be reviewed and updated          into the policy and procedures.
                 Addressed
                                         regularly for changes in staff and saved on a shared
                                         network directory to allow OHR staff access to the most
                                         recent data at all times.




                                                                                                                                                     65




                                                                                                                                                          

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                             Recommendation                                  Management Response                        OIG Comment
     No.
                                       The Administrative Division should receive the listing of
                 Program Weaknesses    FEC employees who pay to park in the basement from
                                                                                                     Concur with the recommendation.
                 Relating to Parking   the building parking manager each month. It should scan
     11c                                                                                             The process is being incorporated
                 have not been         the document and save it on a shared network directory to
                                                                                                     into the policy and procedures.
                 Addressed             allow OHR staff access to the most recent data at all
                                       times.
                                       The Administrative Division should maintain a listing of                                               The agency’s planned actions are
                                       employees who have been issued short term handicap                                                     responsive to the audit issues
                 Program Weaknesses    parking permits. Where possible, the length of time the                                                identified for recommendations
                                                                                                     Concur with the recommendation.
                 Relating to Parking   permit is needed should be included to allow OHR to                                                    11a through 11e, and when fully
     11d                                                                                             The process is being incorporated
                 have not been         suspend or remove access to transit benefits for that                                                  implemented, should satisfy the
                                                                                                     into the policy and procedures.
                 Addressed             period of time. The information should be included in a                                                intent of the audit
                                       shared directory to allow OHR access to the most recent                                                recommendations.
                                       data at all times.
                                       Employees who receive transit benefits and who will be
                 Program Weaknesses                                                                  Concur with recommendation. This
                                       absent for an extended period of time, or their supervisor,
                 Relating to Parking                                                                 is an employee responsibility but will
     11e                               should notify OHR of the intended absence and change in
                 have not been                                                                       be covered in the revised SOP which
                                       eligibility status so that access to benefits can be
                 Addressed                                                                           will be posted on FECNet.
                                       suspended or removed until the employee returns.
                                                                                                                                              With respect to 11f, this
                                                                                                                                              recommendation was previously
                                                                                                                                              agreed by management during
                                                                                                                                              the prior audit but not fully
                                                                                                     The OSD cannot fully support this
                                       The Administrative Division should require all staff who                                               implemented. Refer Attachment
                                                                                                     recommendation. However, as a
                                       receives FEC paid parking benefits, including handicap                                                 6, Prior Audit Corrective Action
                 Program Weaknesses                                                                  security measure (not related to the
                                       parking benefits, and those who pay to park in the FEC                                                 Plan with Current OIG Status,
                 Relating to Parking                                                                 transit authority benefit program) a
     11f                               garage certify the names of FEC staff that carpool with                                                recommendation 19 on page 90.
                 have not been                                                                       policy will be drafted which states
                                       them. The listing of carpoolers should be included in a                                                Program management should
                 Addressed                                                                           that all members of any car pool
                                       shared directory to allow OHR access to the most recent                                                take the steps necessary to
                                                                                                     accessing the underground parking at
                                       data at all times.                                                                                     identify employees who have
                                                                                                     999 E Street NW must be identified.
                                                                                                                                              access to either paid or unpaid
                                                                                                                                              FEC parking benefits and
                                                                                                                                              prevent their access to FEC
                                                                                                                                              provided transit subsidy benefits.




                                                                                                                                                       66




                                                                                                                                                            

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                             Recommendation                                   Management Response                         OIG Comment
     No.
                                       OHR should review the Transit Subsidy Eligibility
                                       Listing monthly to ensure no staff listed as receiving FEC
                                                                                                                                                The agency’s planned actions are
                                       paid parking benefits is included. If an exception is noted
                 Program Weaknesses                                                                                                             responsive to the audit issues
                                       and the employee elects to receive the transit benefit,        Concur with the recommendation.
                 Relating to Parking                                                                                                            identified, and when fully
     11g                               OHR and Administrative Divisions should verify the             The process is being incorporated
                 have not been                                                                                                                  implemented, should satisfy the
                                       FEC paid parking pass has been returned. OHR should            into the policy and procedures.
                 Addressed                                                                                                                      intent of the audit
                                       also review the listing to ensure staff that pays to park in
                                                                                                                                                recommendation.
                                       the basement and their carpoolers do not have access to
                                       transit benefits.
                 Employee Names in
                 the WMATA System                                                                     Concur with this recommendation.
                 are not Consistent    OHR should amend the WMATA system detail to reflect            This will be added to the CAP with
     12a
                 with National         the name used in the NFC system.                               an approximate date for it to take
                 Finance Center                                                                       effect in both systems.                   The agency’s planned actions are
                 Listings                                                                                                                       responsive to the audit issues
                 Employee Names in                                                                                                              identified, and when fully
                 the WMATA System                                                                                                               implemented, should satisfy the
                                                                                                      Concur with this recommendation.
                 are not Consistent    OHR should ensure all future applications for transit                                                    intent of the audit
     12b                                                                                              This will be included in the revised
                 with National         benefit have the name reflected as that in the NFC.                                                      recommendations. We look
                                                                                                      SOP.
                 Finance Center                                                                                                                 forward to reviewing the
                 Listings                                                                                                                       additional detail on planned
                 Employee Names in                                                                                                              implementation activities that
                                       When processing changes to personnel records which                                                       will be provided in the CAP.
                 the WMATA System
                                       impact name, OHR should consider whether any                   Concur with the recommendation.
                 are not Consistent
     12c                               adjustment to WMATA or PeopleSoft systems is                   The process is being incorporated
                 with National
                                       required. Where necessary, OHR input changes to ensure         into the policy and procedures.
                 Finance Center
                                       names are consistent between FEC systems.
                 Listings
                                                                                                      Concur with this recommendation.
                 Employees Have
                                       In order to restrict access to duplicate benefits and ensure   The revised policy will articulate that
                 Been Assigned
                                       employees are removed timely, OHR should register all          all employees must register their
     13a         SmartBenefit Cards
                                       SmarTrip cards distributed in the employee’s name at the       cards to receive benefits and/or          The agency’s planned actions are
                 That Remain
                                       time the card is issued.                                       receive the card. This will be            responsive to the audit issues
                 Unregistered
                                                                                                      codified in the revised SOP.              identified, and when fully
                                                                                                                                                implemented, should satisfy the
                                                                                                      Concur with this recommendation.
                 Employees Have                                                                                                                 intent of the audit
                                       If OHR is unable to determine which FEC employees              The revised policy will articulate that
                 Been Assigned                                                                                                                  recommendation.
                                       have been assigned the unregistered cards; it should           all employees must register their
     13b         SmartBenefit Cards
                                       suspend the cards and send notice to all FEC staff for the     cards to receive benefits and/or
                 That Remain
                                       employees with the associate cards to contact OHR.             receive the card. Currently there are
                 Unregistered
                                                                                                      no unregistered cards.



                                                                                                                                                        67




                                                                                                                                                             

                                            SUMMARY OF AUDIT FOLLOW-UP FINDINGS AND RECOMMENDATIONS
Recommendation
                       Finding                            Recommendation                                 Management Response                       OIG Comment
     No.
                                       OHR employees should be assigned separate log-                                                      The agency’s planned actions are
                 Single WMATA          on/passwords for both WMATA systems and FEC                 Concur with this recommendation.        responsive to the audit issues
                 System Log-on Used    systems. Program Management should consider formal          OHR has requested from the              identified, and when fully
     14a
                 for Multiple OHR      training and read-only access to WMATA systems for          WMATA representative separate           implemented, should satisfy the
                 Staff                 those in both Finance and Administration Division to        logins and training.                    intent of the audit
                                       create the best possible control environment for the FEC.                                           recommendation.
                                                                                                   Finance reduced the inventory at the
                                                                                                                                           The agency’s planned actions are
                                       Finance should continue to review and reduce the level of   end of February 2009 by
                 Monthly Balance of                                                                                                        responsive to the audit issues
                                       Metrochek/vouchers held. The current and previous rates     approximately 35%. FEC
                 Metrocheks/Vouchers                                                                                                       identified, and when fully
     15a                               of distribution between 60 to 70 percent indicate           management will continue to
                 On-Hand Should Be                                                                                                         implemented, should satisfy the
                                       additional reductions could be achieved while still         annually evaluate the appropriate
                 Reviewed                                                                                                                  intent of the audit
                                       maintaining sufficient reserves to meet ad hoc demands.     level of inventory necessary to
                                                                                                                                           recommendation.
                                                                                                   effectively support the organization.
                                                                                                                                           The agency’s planned actions are
                                                                                                                                           responsive to the audit issues
                 Metrochek Stock
                                       Finance should document all variances and the actions       Concur with this recommendation         identified for recommendation
                 Level Variances
     16a                               taken to investigate and resolve the variance in the        and is currently documenting all        16a, and when fully
                 Were Not Fully
                                       monthly distribution records.                               variances and discrepancies.            implemented, should satisfy the
                 Documented
                                                                                                                                           intent of the audit
                                                                                                                                           recommendation.
                                                                                                                                           With respect to 16b, the OIG’s
                                       To ensure mathematical accuracy of the monthly                                                      testing noted the spreadsheet
                 Metrochek Stock       distribution and stock counts, Finance staff should use a   FEC management believes that the        used was ineffective in
                 Level Variances       spreadsheet or adding tape to calculate the total           current spreadsheet utilized by         preventing mathematical errors.
     16b
                 Were Not Fully        distributed and expected and actual closing stock levels.   Finance is sufficient to monitor and    Any revised reconciliation
                 Documented            An example spreadsheet to reconcile actual stock to         reconcile all voucher balances.         methods implemented will be
                                       calculated distribution levels was provided by the OIG.                                             reviewed as part of future
                                                                                                                                           follow-up activity.




                                                                                                                                                   68




                                                                                                                                                        

Other Matters of Interest
                                                                                                       Concur with this recommendation.
                    Employee Claim
                                                                                                       The Human Resources
                    Patterns Indicate     OHR should review the detailed results of this testing and
                                                                                                       Specialist/Employee Relations is
        1           They May Not Meet     consider the implications for revising program policy and                                             The agency’s planned actions are
                                                                                                       already doing this. A one-month
                    Program Eligibility   operating procedures.                                                                                 responsive to the audit issues
                                                                                                       period is required to download for the
                    Requirements                                                                                                                identified, and when fully
                                                                                                       current month.
                                                                                                                                                implemented, should satisfy the
                                                                                                       Concur with this recommendation.
                    Employee Claim        OHR should review the detailed results of the testing and                                             intent of the audit suggestions.
                                                                                                       The Human Resources
                    Patterns Indicate     request staff certifies that they met program eligibility                                             The OIG provided the detailed
                                                                                                       Specialist/Employee Relations is
        2           They May Not Meet     requirements and comply with the Directive. OHR                                                       results of testing to OHR on May
                                                                                                       already doing this. A one-month
                    Program Eligibility   should request written explanation from employees who                                                 18, 2009. The OIG suggests the
                                                                                                       period is required to download for the
                    Requirements          have a history of late claims.                                                                        OHR download the monthly
                                                                                                       current month.
                                                                                                                                                claim activity data and review
                                                                                                       Concur with this recommendation.         the information to identify trends
                    Employee Claim
                                          OHR should download the monthly WMATA claim                  The Human Resources                      in claim activity over an
                    Patterns Indicate
                                          activity listings each month. The data should be             Specialist/Employee Relations is         extended period of time.
        3           They May Not Meet
                                          compiled and reviewed annually for late claims to ensure     already doing this. A one-month
                    Program Eligibility
                                          employees who received benefits use them as intended.        period is required to download for the
                    Requirements
                                                                                                       current month.
                                          OHR should obtain information and training on system
                    Employee Claim        features that allow forward projection and suspension of                                              The agency’s planned actions are
                    Patterns Indicate     funds downloaded when they are not claimed by mid-           Concur with this recommendation.         responsive to the audit issues
        4           They May Not Meet     month. In conjunction with policy revision, it should        OHR has requested additional             identified, and when fully
                    Program Eligibility   consider whether to implement the control feature to         training from WMATA.                     implemented, should satisfy the
                    Requirements          allow parity between SmartBenefit and voucher                                                         intent of the audit suggestions.
                                          recipients.
                                          Program management should revise the Request for Late
                    Employee Claim        Distribution of Fare Media form to include calculation of                                             The agency’s planned actions are
                    Patterns Indicate     the benefit authorized under the policy and the              Concur with this recommendation.         responsive to the audit issues
        5           They May Not Meet     Acknowledgement of Receipt of Fare Media While at            The process will be incorporated into    identified, and when fully
                    Program Eligibility   Temporary Duty Station form to include the location of       the policy and procedures.               implemented, should satisfy the
                    Requirements          the temporary duty station and whether full reduced                                                   intent of the audit suggestions.
                                          transit subsidy is authorized.




                                                                                                                                                         69




                                                                                                                                                              

    Attachment 2 OMB Memorandum 07-15



                              EXECUTIVE OFFICE OF THE PRESIDENT 

                                   OFFICE OF MANAGEMENT AND BUDGET 

                                             WASHINGTON, D.C. 20503 





                                                     May 14, 2007
M-07-15


MEMORANDUM FOR THE HEADS OF DEPARTMENTS AND AGENCIES

FROM:               	 obert Shea
                    R
                    Associate Director for Management

SUBJECT: 	          Federal Transit Benefits Program

The Federal Transit Benefits Program is designed to subsidize Federal employees’ cost of using
public transportation to travel to and from work. On April 24, 2007, the Government Accountability
Office (GAO) reported numerous instances of fraud and abuse of Metrocheks by Federal
employees. 1 In one instance, GAO found, after a three-day investigation, an employee who drove to
work, parked for free in an agency-provided parking, and still collected $105 per month in
Metrocheks, most of which he sold on the Internet auction site, eBay. In several instances, Federal
employees were caught selling their benefits on the popular community website, Craigslist. In other
instances, former Federal employees continued to receive transit benefits even after they left their
agencies.

We must preserve the benefits of this program while eliminating the opportunity for waste, fraud,
and abuse. In response to press reports, many agencies immediately notified their employees of the
proper and improper uses of transit benefits. To prevent further abuse, GAO and others have
identified additional internal controls to improve administration of the program.

Please confirm to me, in writing, no later than June 30, 2007 that you have implemented at a
minimum the internal controls listed in the attachment, Transit Benefit Internal Controls. If you
believe other, existing controls are in place and that additional controls are unwarranted, please
make that assertion also in writing. For your additional reference, attached to this memo are copies
of (1) an agency note to employees reminding them of the proper and improper use of transit
benefits, (2) a transit benefit application that adopts the application controls described below, and
(3) a mass transit expense work sheet to assist employees in calculating their usual monthly mass
transit commuting cost.

Attachments




1
    Federal Transit Benefits Program: Ineffective Fraud and Abuse by Federal Workers, GAO-07-724T, (Washington, D.C.,
April 24, 2007).




                                                                                                                        70
 Attachment 2 OMB Memorandum 07-15




Transit Benefit Internal Controls

Application Requirements

Employee Home Address
Employee Work Address
Commuting Cost Breakdown
Employee Certification of Eligibility
Warning Against Making False Statements in Benefit Application

Note: Some agencies require employees to affix a copy of a completed Washington Metropolitan
Area Transit Authority online Trip Planner, which employees can use to determine the participant’s
actual daily, and then monthly, public transportation costs.

Independent Verification of Eligibility

Commuting Cost Verified by Approving Official (e.g. employee's home address validated and
commuting costs correctly calculated)

Eligibility Verified by Approving Official

Implementation

Applicants Checked Against Parking Benefits Records
Benefits Adjusted Due to Travel, Leave, or Change of Address
Removal from Transit Benefits Program Included in Exit Procedures




                                                2

                                                                                               71
Attachment 2 OMB Memorandum 07-15




    ----- Original Message -----
    From: Postmaster
    To: DL-EOP-ALL
    Sent: Fri May 04 18:45:18 2007
    Subject: Transportation Subsidy Benefit

    Use of Your Transportation Subsidy Benefit


    This is a reminder to all employees who receive the transportation
    subsidy that it is a benefit and may only be used to pay the costs of
    YOUR public transportation to and from work, which may include Metro
    subway/bus, Virginia Railway Express (VRE), MARC trains, and other
    eligible commuter buses and vanpools. The amount of the transit benefit
    will equal the actual amount paid for public transportation, not to
    exceed $110.00 per month.

    The certification that each recipient signed on the Transportation
    Subsidy Benefit Program application form states:

    ·    I work for the Executive Office of the President, and I am not
    listed as a member of a Federal commuter vanpool or carpool.

    ·    I am not the holder of any other form of workplace motor vehicle
    parking permit, nor am I receiving transportation benefits from another
    Federal organization.

    ·    I am eligible for a transportation subsidy benefit for use on a
    participating public transportation system, am obtaining the subsidy
    for my work-related commuting use, and will not transfer the benefit to
    anyone else.

    ·    I have accurately listed the commuting cost to and from my home to
    work using public transportation.

    ·    I acknowledge that it is my responsibility to return any unused
    transportation subsidy to the component (e.g., subsidy unused due to
    leave taken or separation).

    ·    I understand that this certification and making false, fictitious,
    or fraudulent certification may render me subject to criminal
    prosecution under Title 18, United States Code, Section 1001, and/or
    adverse action, including removal from the Federal service.

    Should you have questions regarding the Transportation Subsidy Benefit
    Program, please contact the Office of Administration, Human Resources
    Management Division on 202-395-1088.

    Thank you.




                                                                              72
                  Attachment 2 OMB Memorandum 07-15
FORM CD-544
REV. 02107
                                                          DOC APPLICATION FOR -SIT                               BENEFIT
                                                                                     ( Please Print )


                                               New Application                    Modification                         Recertification Q


        Name:
                     (J-4                               (First)                          .              (Last 4 D i ~ of
                                                                                                                      b S o d Secunty No.)                     (G-

        Home Address:
                                   (NumberESwdApt. No.)                      (C~Y)                                          (5~).                                              (ZIP)




                      Duildind                                               (Room Number)                                  (MailStop)                         (Phone Number)

        CURRENT MODE OF TRANSPORTATION USED FOR COMMUTING: (Please check all that apply)
       -Car (single or double occupancy, not including: drive to Commuter Parking Lot)                                                O t h e r               -E d
       C a r N a n Pool                        C o m m u t e r Bus           C o m m u t e r Train               -Metro Bus                        -M e ~ Ro ail
       MASS TRANSIT BENEFIT MODE OF COMMUTING:(Please check all that apply)

       -Commuter Bus                           C o m m u t e s Train         M e t r o Bus                       M     e   m Rail            M e t r o - A p p r o v e d Vanpool
        DO YOU IUECEIVE REDUCED FARE PUBUC TRANSPORTATION RATES (Employee with habilitiesor Semor Citizen)              YES      KO
       EMPLOYEE Certification: I hereby certify that 1 am employed by the Department of Commerce (DOC) and am not named on a worksite parking permit
       wlthDOC m any other fedwl agency. I also certi@ that I am eligble for a public banspmbon subsldy beneEt. wIIl be using it for my regular M y commute
       to mdror h work and will not transfer It to anyone else. In addition, I certify that the monthly transh beneflt I am receiwing does not exceed my average
       monthly commutmg cost ( b a d on my workweek schedule).

       This c d h h ~ nr n m a matter wtlun the pisdiction of an agency of the United States and making a false, fictitious, or fraudulent ~ ~ c a t j omay
                                                                                                                                                          n render
       the maker subject to crlrmnal prosecuhon under title 18, United Sbtes &ode, section 1001, civlI penalty achon provihng for adrnimstrative recoveties of up
       to $5000 per violation, andm agency dfsdplkry actions up to and indudjng disrnlssal.


         X
            ( A p p l i m 1S-                                                                                                                                    0 ~ )
       m A C Y ACT STATEMENT: T h s informahon is xlIicited under authority of 5 U.S. C. Semons 301 and 7905. Furnishing the information on this form
       is vduntmry, but failure to do so may result m d i s a p p d of your request fa a public aanslt fare benefir The purpose of this information is to facilitate timely
       p d n g of ywr reqmf, tu enntre your ellgibihy, and t o prevent misuse of the fun& involved. This information will be matched with Ihts at other Fed&
       agendes to emure that you are not ltsted as a q w l or \panpool pamcipnt or a holder OF any orher form of vehicle work site parking p e m t wth D e m e n t
       of Cornmace or any other Fed& agency.




       Accounting C l d c a t i o n Code: (Print Clearly)
       Enter Appropriate Dollar Amount of the Fare Media Requested: $                              Lblonthly Cost) mot to Exceed $110 00 per month)

        X
       [Supenisor's Signature)             (Print Name) (Date)    VOTE: Approval is based on person's eligibility     ta receive bemlits in the amount stated        above.)

         COMPLETED BY BUREAU'S BUDGET OFFICl                                                                                                                                           I
       Servicing Accounting Office:
                                                                                                                                              pILc:

              APPROVED FOR AVAILABILITY OF FUNDS:
       X
             (Signatureof Budget Approving OffibaIJ                              (Print Name)


      I COMPLETED BY TRANSIT POINT OF CONTACT:
             (Signature of Transit Point of Cordact)                             (Print Name)                                                                   late)



                                                                                                                                                                               73
       Attachment 2 OMB Memorandum 07-15


                                                R/IASS TRANSIT EXPENSE WORK SHEET 

NOTE DOC AppIlcafion for Pubk Translr Fare B d t , re*          DOC p d c i p m t s ta calculate their usual mmthIy maw &t mmmuhg cast to tha marcst d o I k fm thm& d
commute to work lhrs work Bhect must be cormplcted to rscelvs subsidy benefits d wll assist tmphyees m compuang thm usual mwthly mass @ansitcommunng cost

INSTRUCTIONS: Calculate your Tom!Mo71rhIvMass7 h n r r r Erpmes hy &e way you pay for m               a List y m mode of mass m p d o n , and bow much it cosr )rou;            or ~f
pard &or if purchased m             e passes. Then using the work sheet below, m e n all COSTA to a total monthly amom. It 11:possible that an e m p l v m y h ~ v ae combinahon of
daily, weckly or monthly txpcuscs m c o q u a n g thcu total d l y mass Uamprkdon o r p c a p c ~

REMEmER: Parbtgfecs are wt atlowed and caanot be induded whca compufingmonthly transit c w k If you a r e a p m n with a dig=bilify or ~eniorcitken raceiving
reduced fate rate%you must &late h e d u d r a t a vou uav.


                           MODE OF TWNSPORTATION                                                           DAILY           1     WEEKLY PASS              I MONTHLY PASS
                                                                                                          EXPENSE         1            EXPENSE                      EXPENSE




                                                     1
BUS TO WORK                                               NAME OFCOMPANY
(&&I                                                 i
BUS FROM WORK
(LdJ                                a                /
   NAME OF COMPANY


OTHER BUS MODE TO WORK                                    NAME OF COMPANY
(Cammut8r0fC0110~

OTHER BUS MODE FROM WORK                                  NAME OF COMPANY
(Cornnuder orCwn!y)

RAlL TO WORK                                              FROM WHAT STATION
(bght Rall ar Subwavl

RAIL FA1                                                  FROM WHAT STATION
p g h t Re




COMMUTER RAIL FROM WORK                                   NAME OF COMPANY
(TmfnJ
                                                                                                                 --
                      LIST MODE TO WORK                   NAME OF COY P A W
OTHER                                                                                                 $
                      LIST MODE FROM WORK
                  I
                                                                                                                                                              S
VAN POOL COST PER MONTH                                   NAME OF COMPANY




                                                                                  TOTAL       t           $0.00
                                                          CONVERTING DAILY AND WEEKLY COST TO MONTHLY COST

                                                               40-HOUR WORKWEEK SCHEDULE CONVERSION

ElGKT HOUR WORK DAY CONVERSION                                          NINE HOUR WORK DAY CONVERSION                                   TEN HOUR WORKDAY CCINVERSION




                  I I.
                                                                                                                                                                   . -.
3AlLY COST            NO DAYS
                      WORKED
                                    TOTAL DAlLY COST
                                    PER MONTH
                                                                                                      TOTAL DAILY COST
                                                                                                      PER M O M H
                                                                                                                               DAILY
                                                                                                                               COST       I   NO. DAYS
                                                                                                                                              WORKED     I        , WL>, k,i #.A*
                                                                                                                                                              TOTML
                                                                                                                                                              PER M O M H
                                                                                                                                                                             buaT


I                                       0.00                                                          $   0.00
                  LESS TH4N 4hFtOUR WORKWEEKSCHEDULE CONVERSION                   ,               I                            M E K L Y PASS CONVERSION

Cmplete f f p u work less lhen 4 0 4 ~per  ~ ,7elemmmuter, pad-me, e e l
                                        1 week                                                        WEEKLY PASS
                                                                                                      COSTS               I    NUMBER OF WEEKS PER
                                                                                                                               MONTH                     l    TOTAL W E K L Y CDST
                                                                                                                                                              PEEMONTH

DAILY MASS TRANSIT CDST             NUMBER OF DAYS              TOTAL DAILY O S T PER MONTH
                                    WORKED PER MONTH



NOTE: If me scheduled n u m h r of hours y ~ wnrk
                                             u    per month changes, see your Transd polnt of con!aa.


MAME OF EMPLOYEE (Pleaseprinty~wnanm M f l
                                                                                                              TOTAL DAILY COST PER MONTH (H any) t


                                                                                                            TOTAL WEEKLY COST PER MONTH P any) t
                                                                                                  I
SIGNATURE OF EMPLOYEE
                                                                                                           TOT& MONTHLY COST PER MONTH [fi any] t

                                                                                                                                                         II
                                                                                                            GRAND TOTAL COST PER MONTH P any)

MY GRAND TOTAL MONTHLY MASS TRANSlT CI3MMCTTlNG COSTS ROUNDEDTO THE NEAREST DOLLAR 

(Round s11herup w down to nearest dollar)                                                                                                            t        $





                                                                                                                                                                             74
   Attachment 3 FEC Response to Office of Management and Budget Memorandum 07-15




                             FEDERAL ELECTION COMMISSION




OFFICE OF THE CHAIRMAN
                                                                         June 28,2007


  Mr. Robert Shea
  Associate Director for Management
  Executive Office of the President
  Office of Management and Budget
  Washington, DC 20503

  Dear Mr. Shea:

          In response to your memorandum, M-07-15, dated May 14,2007, the Federal Election
  Commission (FEC) is confirming that the internal controls listed in the attachment, Transit Benefit
  Internal Controls, are in place for the FEC's Transit Benefits Program. Recently, our Office of
  Inspector General (OIG) conducted an audit of the FEC's Transit Benefit Program and found that the
  FEC is managing the program effectively. The OIG suggested additional improvements to the
  program, and the FEC will incorporate those suggestions into our procedures to ensure the program
  continues to operate effectively and as intended.

          The Commission appreciates and shares OMB's commitment to sound internal controls and
  management practices. Should you need any additional information, please do not hesitate to contact
  Erin Singshinsuk, Chief Financial Officer at 202-694- 1217.

                                                                Sincerely,




                                                                Robert D. Lenhard
                                                                Chairman




                                                                                                   75
        Attachment 4 FEC Transit Subsidy Program Application
                                               FEDERAL ELECTION COMMISSION
                                            TRANSIT SUBSIDY PROGRAM APPLICATION
                                                     (Please type or print legibly in blue or black ink)
ACTION REQUESTED (CHECK ONE): ___New ___Change ___Cancellation ___Annual Recertification ___ Temporary NTE
 DATE: ______________
NOTE: Items 1 through 12, and the reverse side of this form must be completed in full before submitting to Human Resources.
                                                         APPLICANT INFORMATION
 1. NAME OF APPLICANT (Last, First, Middle             2. LAST FOUR DIGITS OF SSN                                  3. DIVISION
 Initial)



 4. HOME ADDRESS (Street, City, State, Zip             5. MODE (S) OF TRANSPORTATION TO BE                         6. TYPE OF FARE MEDIA YOU USE.
 Code)                                                 USED DAILY TO COMMUTE TO AND FROM                              SmarTrip Card (Card No.)
                                                       WORK.
                                                       ___Bus ___Light Rail ___ Subway                             ___________________________
                                                       ___Ferry ___Train ___Authorized                             ___Fare card ___Tickets ___Pass
                                                       Vanpool ___Other (Specify)                                  ___Tokens __Voucher
                                                                                                                   ___SmarTrip Card
                                                                                                                   ___Other (Specify) _______________
 7. WORK TELEPHONE NUMBER                              8. MONTHLY COMMUTING COSTS (from
                                                       worksheet on back)


 EMPLOYEE ACKNOWLEDGEMENT AND CERTIFICATION
 • I certify I am employed by the Federal Election Commission.
 • I certify I am eligible for a public transportation fare benefit. I will use it for my daily commute to and from work. I will not give, sell, or
 transfer it to anyone else.
 • I certify I am not a member of a carpool. Furthermore, I do not receive disability or executive parking privileges.
 • I certify that the monthly transit benefit I receive does not exceed my monthly commuting costs.
 • I certify that in any given month, I will not use the Government-provided transit benefit in excess of the statutory limit. If my commuting costs
 per month exceed the monthly statutory limit, I will supplement those additional costs with my own funds.
 • I certify I am responsible for returning unused FEC funded fare subsidy to the Office of Finance no later than my effective date of resignation, transfer,
 retirement, etc. from the FEC.
 • I certify my usual monthly public transportation commuting costs (excluding any parking costs) is the amount listed above (amount is supported by
 completed worksheet.).
 • I understand that I must submit a new Transit Subsidy Program Participant application if there is any permanent change in the information provided
 above.
 • I understand that it is a Federal crime under 18 United States Code, Section 1001, to make a false fictitious or fraudulent statement on this form. If I
 make a false statement, I may be subject to criminal prosecution and punishment, including a fine and/or administrative punishment, which may result on
 the termination of my federal employment.
 11. SIGNATURE OF EMPLOYEE                                                                 12. DATE


                                      TO BE COMPLETED BY THE HUMAN RESOURCES OFFICE
                                           VERIFICATION – HR BENEFIT COORDINATOR
 13. NAME OF HR BENEFIT COORDINATOR                                           14. AGENCY MAXIMUM BENEFIT (Enter monthly payable amount for
                                                                              each participant based upon commuting costs, statutory limitations,
                                                                              agency policy, Union Negotiations, etc.).

 15. SIGNATURE OF HR BENEFIT COORDINATOR                                      16. DATE



 17. ENTERED IN METRO SYSTEM AND FEC DATABASE BY:                             18. DATE



                                                           PRIVACY ACT STATEMENT
 This information is solicited under authority of Public Law 101-509. Furnishing the information on this form is voluntary, but failure to do so may result
 in disapproval of your request for a public transportation transit fare benefit. The purpose of this information is to facilitate timely processing of your
 request, to ensure your eligibility, and to prevent misuse of the funds involved. This information will be provided to the Human Resources and Finance to
 administer this program and to ensure that you are not listed as a carpool participant or a holder of any other form of vehicle work site parking permit
 with FEC or any other Federal Agency.




                                                                                                                                                  76 

                    CALCULATION OF COMMUTING COST 


To be completed by applicant: Use Appropriate Daily and/or Monthly Costs to calculate your
costs per month. Note: Do not include parking costs.



Mode of               Daily Costs           Multiplied by         Equals
Transportation        (round trip)          # of work days        Monthly
                                            (20 for F-T)          Commute Costs
Subway (METRO)        $                     Multiplied by         $
                                            ___ work days
Metro Bus             $                     Multiplied by         $
                                            ___ work days
Commuter Train        $                     Multiplied by         $
(VRE, MARC, etc.)                           ___ work days
Other Bus             $                     Multiplied by         $
(e.g., Ride-On)                             ___ work days
Van Pool              $                     Multiplied by         $
                                            ___ work days
Other                 $                     Multiplied by         $
                                            ___ work days
Total – all costs     $                     Multiplied by         $
                                            ___ work days

Routing Pattern (Required): ________________to______________ and return

                           ________________ to _____________ and return

Example 1: Vienna to Metro Center and return

Example 2: Line 1 Bus from residence to New Carrollton
           Line 2 Metro to Navy Archive and return. Bus back to residence.




                                                                                       77
 Attachment 5 FEC Employee Clearance Form



                    FEC EMPLOYEE CLEARANCE FORM
 Name (Last, First, 

 MI)


A. SUPERVISORY CLEARANCE                               DATE   SIGNATURE

1. Files/Manuals/Reference Materials
2. Documents & Related Materials
3. Keys (Desk, Files, Office)

B. FINANCE OFFICE (Room 820)                           DATE   SIGNATURE

1. Travel Advances
2. Moving Expense Allowances
3. Travel Vouchers
4. Metro Fare Media/SmarTrip Card

C. ADMINISTRATIVE OFFICE (Room 819)                    DATE   SIGNATURE

1. Parking Permit
2. Credentials
3. Kastle Key
4. Government Credit Card
5. Cellular Phone/Pager
6. Sprint Calling Card

D. LIBRARY (Room 801)                                  DATE   SIGNATURE

1. Materials Returned
2. Computer Access ID

E. PROGRAM MANAGEMENT BRANCH
(Room 506)                                             DATE   SIGNATURE

1. Personal Computer Password/Access Code
2. Laptop Computer

F. HR & LR OFFICE (Room 500)                           DATE   SIGNATURE

1. Obligated Service (Training, Relocation Expenses)
2. Overdrawn Leave
3. FEC’s ID Card




                                                                          78 

G. FORWARDING ADDRESS (This will be used to forward all payroll related information,
   e.g., W-2s, Last SF-50, Last Statement of Leave & Earnings.)



In compliance with the Privacy Act of 1974, the following information is provided: solicitation of this
information is authorized by the Federal Property Administrative Service Act of 1949, as amended
(63 Stat 377) 1 Part III, Title 5, USC, and EO 11652. Purpose is to ensure that you have satisfied all
obligations to the government prior to your transfer or separation from FEC. This information may
be transferred to appropriate government agencies, when relevant to civil, criminal or regulatory
investigations or prosecutions. Disclosure by you is mandatory. Failure to provide requested
information will prevent the processing of your final check, lump-sum leave payment, and retirement
refund or retirement application.

Employee’s statement—I hereby make the following statements in connection with my separation
from FEC. I am returning and have surrendered to the responsible FEC official, all government
property, official documents and materials with which I was charged, for which I was accountable, or
which I had in my possession. I (have) (do not have) an unsatisfied period of obligated service for
either moving expenses allowances or non-government training received while employed by FEC. I
am aware that willful disclosure of confidential or restricted information to any unauthorized person
or persons may be punishable by a fine or imprisonment under 2 U.S.C. subsection 437g(a)(12)(b) or
other Federal statute. Therefore, I certify that I shall not communicate or transmit such information
orally or in writing to any unauthorized person or agency. I further agree that my leave status (shown
below) is accurate.

As of _______date ________annual _____sick ____(none) (Advanced Leave should be indicated
by negative numerals).

Title 18, United States Code, Section 1001, makes it a criminal offense, punishable by a maximum of
five year imprisonment, $10,000 fine or both, knowingly and willfully to make a false statement or
representation to any department or agency of the United States, as to any matter within the
jurisdiction of any department or agency of the United States.

Employee signature:

Date:

All items listed on the reverse are necessary for the clearance of this employee. Clearance is
approved for all items checked in section in section A through E, provided all appropriate authorized
officials cleared each item.

Human Resources Director:

Date:


Original-----Finance
Copy---------HR
Copy---------Employee
Copy---------FEC Administrative Office




                                                                                                    79
Attachment 6 - Prior Audit Corrective Action Plan with Current OIG Status


 Audit                            Audit of FEC’s Transit           Responsible    Anticipated   Final Action   OIG Status
 Recommendation                   Benefit Program                  Office         Completion
                                  Corrective Action Plan                          Date


 Program Policy Needs Improvement – Finding #1

 1. Program management            FEC management has updated       OCFO –         March 31,
 should revise FEC Directive      its policy to incorporate        Brian Duffy,   2008                         Draft policy created to replace
 54 to include adequate           guidance related to the          ext. 1230                                   Directive 54. OIG comment has been
 guidelines on the management     SmartBenefits Program. The                                                   provided. The policy has not been
 of the SmartBenefits program.    policy is current under review                                               formally approved by management or
 Provisions should include the    and is expected to be final                                                  communicated to FEC staff. The
 delegation of responsibilities   March 31, 2008.                                                              draft policy requires improvement.
 and duties required to ensure                                                                  OPEN           Refer finding 4 pg. 19.
 the accurate electronic
 transmission of monthly
 transit subsidies to eligible
 employees.




                                                                                                                                                80
Audit                            Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                   Benefit Program                    Office         Completion
                                 Corrective Action Plan                            Date

2. Program management            FEC management has updated         HR – James     March 31,     Complete            OPEN
should develop internal          the policy to incorporate          Wilson, ext.   2008                              According to interview with OHR
operating procedures for         procedures related to this         1082 and                     HR has              staff, training has not occurred. The
program offices involved in      program. The policy is             Brian Duffy,                 developed a SOP     SOP is not sufficiently detailed to
the management of the            currently under review and is      ext. 1230                    for the             manage program operations. The
program to ensure the process    expected to be final March 31,                                  operations of the   SOP does not define detailed
is functioning in an efficient   2008.                                                           transit benefit     operating procedures for daily
manner and is not subject to                                                                     program,            processing activities such as
errors and manipulation.         Also, FEC management will                                       including new       additions, deletions, suspensions,
                                 provide training to the primary                                 guidance            changes, annual certification, and
                                 staff responsible for                                           addressed in the    quality assurance processes/controls
                                 administering and monitoring                                    policy. Also,       to ensure errors do not occur or are
                                 the transit subsidy program.                                    appropriate staff   detected and corrected in a timely
                                 FEC has updated the Transit                                     will be trained     manner. Refer finding 4 pg. 19.
                                 Subsidy application to enhance                                  two times per
                                 the management of the                                           year on their
                                 program.                                                        respective roles
                                                                                                 and
                                 Finally, FEC management will                                    responsibilities.
                                 prepare procedures that each
                                 office (e.g., HR, Finance, and
                                 Administration) should
                                 complete as part of their
                                 assigned duties to ensure the
                                 objective of the transit subsidy
                                 program is being achieved.




                                                                                                                                                             81
Audit                           Audit of FEC’s Transit           Responsible     Anticipated   Final Action        OIG Status
Recommendation                  Benefit Program                  Office          Completion
                                Corrective Action Plan                           Date

Employees Did Not Comply With Program Policy – Finding #2
3. Program management            FEC management has prepared HR – James          March 31,     Complete            CLOSED
should ensure that program       an updated draft of the policy   Wilson, ext.   2008                              The Finance Office included
participants who are absent for to address the need for           1082                         The transit         additional statements in the monthly
an extended period, especially adjustment should an                                            benefit policy      distribution reminder that clarifies the
those who frequently go on       employee’s transit subsidy                                    has been            requirement to adjust subsidy for
official business travel for the costs incurred be less than that                              updated. HR         periods of extended travel. This
FEC, are made aware of their     of what they received.                                        will provide        recommendation was closed in 2007.
responsibility to adjust their   Employees will be notified of                                 copies to all FEC   The OIG notes that the statement in
transit subsidy benefits when    the revised policy once it has                                employees, post     the monthly reminder does not appear
absent from their normal duty been finalized.                                                  an electronic       to be effective in that staff have
station for 50% or more                                                                        version on the      continued to claim full benefits while
business days in a calendar                                                                    intranet, and       on extended travel and leave. Refer
month. For example, the                                                                        incorporate this    finding 8 pg. 33.
Finance Office should include                                                                  subject into the
a statement in their monthly                                                                   New Employee
distribution reminder that                                                                     Orientation. HR
specifically instructs                                                                         will send
participants to make                                                                           quarterly emails
adjustments based on                                                                           on transit
extended absences from the                                                                     benefits to all
FEC.                                                                                           FEC employees.




                                                                                                                                                          82
Audit                            Audit of FEC’s Transit            Responsible    Anticipated   Final Action        OIG Status
Recommendation                   Benefit Program                   Office         Completion
                                 Corrective Action Plan                           Date

4. HRO should develop clear      FEC management has updated        HR – James     March 31,     Complete            OPEN
program policies and             its policy (formerly Directive    Wilson, ext.   2008                              The draft policy referred to has not
procedures to provide            54) to incorporate guidance       1082                         The transit         been finalized and requires
participants with specific       related to the SmartBenefits                                   benefit policy      improvements. Quarterly emails
instructions on how              Program. The policy is current                                 has been            have not been sent. The SOP is not
adjustments should be made       under review and is expected to                                updated. HR         sufficiently detailed to manage
for those who receive their      be final March 31, 2008                                        will provide        program operations. The SOP does
transit subsidy electronically                                                                  copies to all FEC   not define detailed operating
via the SmarTrip card.                                                                          employees, post     procedures for daily processing
                                                                                                an electronic       activities such as additions, deletions,
                                                                                                version on the      suspensions, changes, annual
                                                                                                intranet, and       certification, and quality assurance
                                                                                                incorporate this    processes/controls to ensure errors do
                                                                                                subject into the    not occur or are detected and
                                                                                                New Employee        corrected in a timely manner.
                                                                                                Orientation. HR     Application and clearance forms have
                                                                                                will send           been posted to the intranet but
                                                                                                quarterly emails    policy/Directive have not. Refer
                                                                                                on transit          finding 4 pg. 19.
                                                                                                benefits to all
                                                                                                FEC employees.




                                                                                                                                                           83
Audit                           Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                  Benefit Program                    Office         Completion
                                Corrective Action Plan                            Date

5. Program management           FEC management will ensure         HR – James     March 31,     Complete            OPEN
should require supervisory      all FEC employees receive a        Wilson, ext.   2008                              Supervisory review and approval is
review/signature of the         copy of the updated policy         1082                         The transit         not occurring on initial application or
employees’ transit benefit      highlighting the requirements                                   benefit policy      annual certification. The follow-up
program applications. An        to adjust one’s subsidy benefits                                has been            review noted few instances where
awareness that an employee      when necessary. Furthermore,                                    updated. HR         formal review and approval were
participates in the transit     FEC management will send out                                    will provide        documented. The reminder is sent on
program will allow the          reminders via e-mail, on a                                      copies to all FEC   a monthly basis but does not appear
supervisor to advise their      monthly basis, to all employees                                 employees, post     to be an effective control/deterrent
employees, as needed, on the    of this requirement.                                            an electronic       based on the number and nature of
requirements of the program,                                                                    version on the      exceptions noted during the follow-
such as instances in which                                                                      intranet, and       up review. The updated policy has
participants commute less                                                                       incorporate this    not been finalized or provided to staff
than 50% of the business days                                                                   subject into the    and has not been posted on the
in a month.                                                                                     New Employee        intranet. Refer 9 pg. 37 and finding 8
                                                                                                Orientation. HR     pg. 33.
                                                                                                will send
                                                                                                quarterly emails
                                                                                                on transit
                                                                                                benefits to all
                                                                                                FEC employees.




                                                                                                                                                          84
Audit                            Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                   Benefit Program                    Office         Completion
                                 Corrective Action Plan                            Date

6. Program management            FEC management will ensure         HR – James     March 31,     Complete            OPEN
should ensure that the           all FEC employees receive a        Wilson, ext.   2008                              Refer above. Neither the revised
program offices’ staff are       copy of the updated policy.        1082                         The transit         draft policy nor the SOP provides
properly trained on the          Furthermore, FEC management                                     benefit policy      sufficiently detailed procedures to
guidelines and procedures        will send out reminders, on a                                   has been            follow for performing daily activities.
regarding transit subsidy        monthly basis via e-mail, to all                                updated. HR         It does not define controls and quality
adjustments required when        employees of this requirement.                                  will provide        assurance processes needed to
participants are on extended                                                                     copies to all FEC   prevent fraud, waste and abuse by
absence from the office.                                                                         employees, post     program participants. It has not been
Properly trained program staff                                                                   an electronic       provided to staff. Program staff has
can provide accurate                                                                             version on the      not received formal training on the
information to employees who                                                                     intranet, and       transit system. Refer findings 4, 8
contact HRO for advisement                                                                       incorporate this    and 10 on pages 19, 33 and 39.
regarding program                                                                                subject into the
requirements.                                                                                    New Employee
                                                                                                 Orientation. HR
                                                                                                 will send
                                                                                                 quarterly emails
                                                                                                 on transit
                                                                                                 benefits to all
                                                                                                 FEC employees.




                                                                                                                                                           85
Audit                             Audit of FEC’s Transit            Responsible    Anticipated   Final Action        OIG Status
Recommendation                    Benefit Program                   Office         Completion
                                  Corrective Action Plan                           Date

7. Program management             FEC management has updated        HR – James     March 31,     Complete            OPEN
should develop and implement      the policy to incorporate         Wilson, ext.   2008                              Draft policy has not been approved or
procedures that include transit   guidance related to employees     1082                         The transit         disseminated to staff. OIG notes
benefit restrictions for          on leave. The policy is current                                benefit policy      inclusion of point on leave in FAQs
employees on administrative       under review and is expected to                                has been            provided by OHR in conjunction with
leave.                            be final March 31, 2008                                        updated. HR has     follow-up review. Have not seen
                                                                                                 also developed      FAQ given to staff and they are not
                                                                                                 FAQs that           on the OHR intranet. FAQ differs
                                                                                                 include questions   from Directive 54 with respect to
                                                                                                 on leave.           50% rule. FAQ has 10 days while
                                                                                                                     Directive describes >50% of
                                                                                                                     commutable days. It does not appear
                                                                                                                     the guidance is effective as an
                                                                                                                     employee placed on admin leave
                                                                                                                     claimed benefits for two months
                                                                                                                     before being removed.




                                                                                                                                                         86
Audit                               Audit of FEC’s Transit              Responsible    Anticipated   Final Action        OIG Status
Recommendation                      Benefit Program                     Office         Completion
                                    Corrective Action Plan                             Date

8. HRO should implement an          FEC management has updated          HR – James     March 31,     Complete            OPEN
administrative leave clearance      current policy to address leave     Wilson, ext.   2008                              OIG provided comment on the
process, similar to the process     situations. The policy is           1082                         The transit         clearance form to include guidance
completed for separated             current under review and is                                      benefit policy      on order of operation and additional
employees. The clearance            expected to be final March 31,                                   has been            lines needed to document and
form or other process should        2008.                                                            updated. HR has     communicate the level of transit
include a notification to transit                                                                    also developed      benefit to be recovered. OIG also
participants that their             Furthermore, FEC management                                      an administrative   provided a calculation worksheet to
participation in the program        will review the current                                          leave clearance     be used to document the amount of
has been suspended, pending         clearance form to incorporate                                    form, similar to    recovery. It is noted that the
resolution of the matter that       requirements relative to official                                the form            clearance process for staff placed on
necessitated administrative         administrative leave.                                            completed for       administrative leave is the same as
leave.                                                                                               separating          those separating from the agency and
                                                                                                     employees.          uses the same form. It is also noted
                                                                                                                         that the form is not always completed
                                                                                                                         depending on whether the staff is
                                                                                                                         physically present when notified of
                                                                                                                         leave. Form creation can be delayed
                                                                                                                         or be completed by management
                                                                                                                         without the employee. Refer finding
                                                                                                                         5 and 7 on pages 25 and 29.




                                                                                                                                                             87
Audit                         Audit of FEC’s Transit          Responsible    Anticipated   Final Action       OIG Status
Recommendation                Benefit Program                 Office         Completion
                              Corrective Action Plan                         Date

Program’s Internal Controls Need To Be Strengthened – Finding #3
9. The Finance Office should Since October 2007, the          HR – James     April 30,     Complete           OPEN
ensure the employee          Finance Office has been          Wilson, ext.   2008                             The OIG provided an example of an
separation clearance process documenting the return of any    1082                         The transit        exit computation form in April 2008.
includes the computation and unused transit subsidy on the                                 benefit policy     To date, it does not appear to be in
collection of unused transit current clearance form, as well                               has been           use by OHR. When employees have
subsidy from departing       as maintains a copy of any                                    updated. HR has    had transit subsidy calculated and
employees. Clearance forms   checks obtained.                                              also updated the   returned, it is not clear how the
should be revised to                                                                       exit clearance     calculation is derived. It does not
accommodate the unused       HR intends to update the                                      form to ensure     appear the process is fully
transit subsidy calculation. separation clearance process to                               the proper         implemented. Refer finding 6 on
                             incorporate transit subsidy as                                computation and    page 27.
                             an item to check so that it is                                collection of
                             readily identifiable in order to                              unused transit
                             calculate any unused transit                                  subsidy from
                             subsidy, as outlined in the                                   departing
                             policy.                                                       employees.




                                                                                                                                                     88
Audit                          Audit of FEC’s Transit            Responsible    Anticipated   Final Action        OIG Status
Recommendation                 Benefit Program                   Office         Completion
                               Corrective Action Plan                           Date

10. The Finance Office’s       FEC management does not           HR—James       April 30,     Complete            OPEN
monthly notification           believe that monthly reminders    Wilson, ext.   2008                              The information has not been
distribution e-mail should     are necessary. The updated        1082                         The transit         included in the monthly distribution
include a reminder that        policy will provides guidance                                  benefit policy      e-mail. It does not appear the
participants are required to   on this matter, as well as the                                 has been            clearance form is working as
return any unused transit      fact that the separation                                       updated. HR         intended. Contrary to the draft policy,
subsidy during the employee    clearance form will be updated                                 will provide        Finance rather than OHR calculates
clearance process.             to reflect the transit subsidy.                                copies to all FEC   the amount based on advice from
                                                                                              employees, post     OHR. How the amount is calculated
                                                                                              an electronic       is not transparent. When no recovery
                                                                                              version on the      is sought, it is not clear whether that
                                                                                              intranet, and       was because no funds were owed or
                                                                                              incorporate this    whether Finance or OHR failed to
                                                                                              subject into the    consider or calculate the value. OHR
                                                                                              New Employee        should calculate and use the
                                                                                              Orientation. HR     worksheet provided by OIG to show
                                                                                              will send           actual calculation. Refer finding 6
                                                                                              quarterly emails    pg. 27.
                                                                                              on transit
                                                                                              benefits to all
                                                                                              FEC employees.




                                                                                                                                                        89
Audit                          Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                 Benefit Program                    Office         Completion
                               Corrective Action Plan                            Date

11. The Finance Office         FEC management intends to          HR – James     April 30,     Complete            OPEN
should develop internal        update the separation clearance    Wilson, ext.   2008                              No training has occurred. Policy says
procedures that describe how   process to incorporate the         1082                         The transit         OHR calculates rate. The clearance
to calculate and record the    Finance Office to calculate any                                 benefit policy      form does not have space to show the
amount of unused transit       unused transit subsidy, as                                      has been            calculation of repayment. Where no
subsidy a departing employee   outlined in the policy. Training                                updated. HR has     repayment is sought, it is not clear
must return during the         will also be provided, as                                       also updated the    how that was determined. OHR
employee separation process.   necessary.                                                      exit clearance      should calculate the amount based on
                                                                                               form to ensure      system and timesheet data. Finance
                                                                                               the proper          should collect the amount shown on
                                                                                               computation and     the clearance form. Refer finding 6
                                                                                               collection of       pg. 27.
                                                                                               unused transit
                                                                                               subsidy from
                                                                                               departing
                                                                                               employees.
                                                                                               Appropriate staff
                                                                                               will be trained
                                                                                               two times per
                                                                                               year on their
                                                                                               respective roles
                                                                                               and
                                                                                               responsibilities.




                                                                                                                                                       90
Audit                           Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                  Benefit Program                    Office         Completion
                                Corrective Action Plan                            Date

12. The Finance Office          FEC management will provide        HR – James     April 30,     Complete            OPEN
should ensure proper training   additional training to the         Wilson, ext.   2008                              The SOP is not sufficiently detailed
of staff responsible for the    Finance Office as it pertains to   1082 and                     HR has              to manage program operations. The
office’s employee separation    processing employees               OCFO –                       developed a SOP     SOP does not define detailed
clearance process. Staff        separating from the agency.        Brian Duffy,                 for the             operating procedures for daily
should be familiar with                                            ext. 1230                    operations of the   processing activities such as
unused transit subsidy                                                                          transit benefit     additions, deletions, suspensions,
requirements and the                                                                            program,            changes, annual certification, and
procedures used to calculate                                                                    including new       quality assurance processes/controls
the correct amount of transit                                                                   guidance            to ensure errors do not occur or are
subsidy that should be                                                                          addressed in the    detected and corrected in a timely
returned by departing                                                                           policy. Also,       manner. No training has occurred
employees.                                                                                      appropriate staff   yet. It is unclear who will provide
                                                                                                will be trained     the training.
                                                                                                two times per
                                                                                                year on their
                                                                                                respective roles
                                                                                                and
                                                                                                responsibilities.




                                                                                                                                                           91
Audit                              Audit of FEC’s Transit              Responsible    Anticipated   Final Action   OIG Status
Recommendation                     Benefit Program                     Office         Completion
                                   Corrective Action Plan                             Date

13. The Finance Office should      FEC management has updated          OCFO –         October       Completed      OPEN
develop and maintain a record      its current policy to address the   Brian Duffy,   2007                         This process is in place with respect
or log that captures the receipt   unused subsidy. Since Metro         ext. 1230                                   to Finance. The only question is
of unused transit subsidy          does not accept partially used                                                  whether it is done consistently and
returned during the employee       Metrocheks, it has been                                                         transparently for all staff. Where the
separation process by              determined to ensure                                                            clearance form has no documentation
departing employees. The log       consistency between                                                             showing transit subsidy is owed,
should include the departing       Metrochek users and SmarTrip                                                    there is no other documentation
employee’s name, date of           users that any unused subsidy                                                   showing the calculation that none is
departure, computation of          must be returned via a personal                                                 owed (i.e. commuted days time daily
unused transit subsidy, actual     check or through a payroll                                                      cost is greater than the amount
amount received from               offset. The policy is currently                                                 collected for the month). Refer
departing employee and             under review and is expected to                                                 finding 6 pg. 27.
signature of Finance staff who     be final March 31, 2008.
received the subsidy. The log
should also include                Finance Office documents the
disbursement of Metrocheks         return of unused subsidy on the
to employees for local travel,     current separation clearance
thereby providing an audit         form and maintains a copy of
trail of transit subsidy           the personal check submitted
returned and disbursed.            by an employee.




                                                                                                                                                        92
Audit                          Audit of FEC’s Transit           Responsible    Anticipated   Final Action   OIG Status
Recommendation                 Benefit Program                  Office         Completion
                               Corrective Action Plan                          Date

14. The Finance Office         FEC management does not          OCFO –         January       Completed      CLOSED
should ensure that all FEC     agree with this                  Brian Duffy,   2008                         Metrochek supply has decreased 33%
employees are made aware of    recommendation, given the fact   ext. 1230                                   from prior levels. Vouchers will be
unused transit subsidy         that Metro does not accept                                                   used in the future and it is expected
available for official local   partially used Metrocheks any                                                that levels will decrease as only
travel. This will ensure       longer. Furthermore, FEC                                                     commuters using certain busses will
economic use of program        management is trying to reduce                                               be required to use vouchers. Staff
funds.                         the amount of Metrocheks                                                     who use mass transit for official local
                               maintained on hand, as the                                                   travel will need to submit an expense
                               SmarTrip/card is more widely                                                 form for reimbursement.
                               accepted.                                                                    Refer finding 15 pg. 50.




                                                                                                                                                  93
Audit                               Audit of FEC’s Transit              Responsible    Anticipated   Final Action   OIG Status
Recommendation                      Benefit Program                     Office         Completion
                                    Corrective Action Plan                             Date

15. The Finance Office              FEC management contacted            OCFO –         March 31,     Completed      CLOSED
should contact WMATA to             WMATA regarding unused              Brian Duffy,   2007                         Returned subsidy was placed into
research exchange                   Metrocheks. WMATA                   ext. 1230                                   distribution. Finance requires
opportunities available for         indicated that they do not                                                      separating employees to return excess
disposition of unused               accept any unused Metrocheks                                                    subsidy in the form of check or
Metrochek cards to ensure           for reimbursement or credit to                                                  money order. FEC staff no longer
efficient use of returned transit   FEC’s account. Accordingly,                                                     receives Metrocheks for local travel.
subsidy.                            the Finance Office was able to                                                  Employees must submit a request for
                                    exchange the partially used                                                     expense reimbursement.
                                    Metrocheks at Metro Center for
                                    full cards to be issued under the
                                    transit subsidy program. The
                                    Finance Office has
                                    implemented a procedure to
                                    accumulate partially used
                                    Metrocheks and trade them in
                                    at Metro Center on a semi-
                                    annual basis or when the
                                    amount of the Metrocheks
                                    accumulated exceeds $500,
                                    whichever comes first.
                                    Partially used Metrocheks will
                                    only occur now when someone
                                    uses a full Metrochek for FEC
                                    business and returns the unused
                                    portion.




                                                                                                                                                        94
Audit                          Audit of FEC’s Transit          Responsible    Anticipated   Final Action        OIG Status
Recommendation                 Benefit Program                 Office         Completion
                               Corrective Action Plan                         Date

Former Participants Listed as Eligible Recipients – Finding #4
16. HRO should ensure the      FEC management has also         HR – James     March 31,     Complete            OPEN
SmarTrip cards registered to   provided additional training to Wilson, ext.   2008                              Audit follow-up testing shows
receive FEC paid transit       the HR staff ensuring they are  1082                         HR has              separated employees are not removed
subsidy of separated           aware of this procedure.                                     developed a SOP     timely. The SOP provided is not
employees are promptly                                                                      for the             sufficiently detailed to ensure timely
suspended or removed.          FEC management has updated                                   operations of the   removal. It does not detail
Further, HRO should develop    its procedures currently in                                  transit benefit     management monitoring and quality
and implement written          place to ensure to suspend or                                program,            assurance activities. OHR staff has
procedures to prevent benefits remove separated employees                                   including new       not received formal training. Refer
from being transferred to the  from receiving additional                                    guidance            finding 5 on page 25.
SmarTrip cards of separated    SmarTrip benefits. The policy                                addressed in the
employees.                     is current under review and is                               policy. Also,
                               expected to be final March 31,                               appropriate staff
                               2008.                                                        will be trained
                                                                                            two times per
                                                                                            year on their
                                                                                            respective roles
                                                                                            and
                                                                                            responsibilities.
                                                                                            HR will send
                                                                                            quarterly emails
                                                                                            on transit
                                                                                            benefits to all
                                                                                            FEC employees.




                                                                                                                                                     95
Audit                               Audit of FEC’s Transit          Responsible    Anticipated   Final Action   OIG Status
Recommendation                      Benefit Program                 Office         Completion
                                    Corrective Action Plan                         Date

17. Program management              FEC management will assess      OCFO –         April 30,
should consider letters of          the costs compared to the       Brian Duffy,   2008                         The FEC did not seek recovery of
remittance to those former          benefits to collect any         ext. 1230                                   prior funds and has not consistently
employees to request                overpayment of funds.                                                       sought to recover excess benefits
repayment of transit benefits       Furthermore, FEC management                                                 received by separating employees
collected after their last day of   will ensure any collection is                                               since the prior audit report was
employment.                         done in accordance with the                                                 issued. Refer finding 6 pg. 27.
                                    Debt Collection Improvement                                  OPEN
                                    Act, as amended.




                                                                                                                                                       96
Audit                            Audit of FEC’s Transit            Responsible    Anticipated   Final Action        OIG Status
Recommendation                   Benefit Program                   Office         Completion
                                 Corrective Action Plan                           Date

18. HRO management should        FEC management has provided       HR – James     March 31,     Complete            OPEN
also ensure that all program     the HR staff that are primarily   Wilson, ext.   2008                              According to interview with OHR
staff receives proper training   responsible for managing the      1082                         HR has              staff, training has not occurred. It is
on the procedures for            SmartBenefits.                                                 developed a SOP     unclear who would provide the
managing the FEC’s                                                                              for the             training. The one-page SOP is not
SmartBenefits account.           Furthermore, FEC management                                    operations of the   sufficiently detailed to manage
                                 has updated its policy to                                      transit benefit     program operations. The SOP does
                                 incorporate guidance related to                                program,            not define detailed operating
                                 the SmartBenefits Program.                                     including new       procedures for daily processing
                                 The policy is current under                                    guidance            activities such as additions, deletions,
                                 review and is expected to be                                   addressed in the    suspensions, changes, annual
                                 final March 31, 2008.                                          policy. Also,       certification, and quality assurance
                                                                                                appropriate staff   processes/controls to ensure errors do
                                                                                                will be trained     not occur or are detected and
                                                                                                two times per       corrected in a timely manner.
                                                                                                year on their
                                                                                                respective roles
                                                                                                and
                                                                                                responsibilities.




                                                                                                                                                           97
Audit                        Audit of FEC’s Transit             Responsible   Anticipated   Final Action        OIG Status
Recommendation               Benefit Program                    Office        Completion
                             Corrective Action Plan                           Date

Program Staff Did Not Always Follow the Provisions of FEC Directive 54 – Finding #5
19. Program management        FEC management will ensure      HR – James     March 31,      Complete            OPEN
should revise the current     all FEC employees receive a     Wilson, ext.   2008                               Policy has not been approved and
policy to ensure that         copy of the updated policy.     1082                          The transit         shared with staff. Admin Division
employees are not receiving   Furthermore, the policy will be                               benefit policy      does not maintain sufficient
FEC paid transit subsidy      updated to clarify when an                                    has been            documentation to identify those who
while riding as passengers in employee is eligible to receive                               updated. HR         are passengers in cars with FEC paid
non-FEC paid or private       benefits and when he/she is                                   will provide        parking or those who pay to park in
carpools.                     not.                                                          copies to all FEC   the garage. Parking information is
                                                                                            employees, post     not routinely shared with OHR to
                             The Administrative Division                                    an electronic       ensure those who receive transit
                             will also provide Finance a list                               version on the      benefit do not also receive parking
                             identifying individuals                                        intranet, and       benefits. Refer finding 11 pg. 42.
                             receiving parking passes each                                  incorporate this
                             month, which will be compared                                  subject into the
                             to the transit subsidy lists to                                New Employee
                             ensure that individuals do not                                 Orientation. HR
                             receive both.                                                  will send
                                                                                            quarterly emails
                                                                                            on transit
                                                                                            benefits to all
                                                                                            FEC employees.




                                                                                                                                                       98
Audit                           Audit of FEC’s Transit             Responsible     Anticipated   Final Action   OIG Status
Recommendation                  Benefit Program                    Office          Completion
                                Corrective Action Plan                             Date

20. The Administrative          FEC management has also            Admin --        April 30,                    OPEN
Division should maintain a      updated the Transit Subsidy        Diane           2008                         Transit application form contains an
current list of employees who   application in an effort to        Cappuccio,                                   acknowledgement and certification
commute in a private carpool    capture this information.          ext. 1245 and                                that employee is not a member of a
or have been issued FEC                                            Brian Duffy,                                 car pool or received disability or
subsidized parking permits,     Administrative Division            ext. 1230                                    executive parking privileges. The
including passengers who        receives a report from LAZ of                                                   LAZ parking information was not in
commute with the parking        all FEC employees that                                                          the possession of FEC Admin staff
permit holders in their         commute to work and have                                                        and was obtained by OIG. Admin
car/vanpool. Permit holders,    received a parking permit for                                                   has not established process to obtain
both FEC subsidized and         the FEC garage. FEC                                                             the information monthly or
unsubsidized, should also be    management will develop a                                                       disseminate it to OHR. Refer finding
made fully aware of their       form that requires parking                                                      11 pg. 42.
responsibility to report the    permit holders to certify, on an
names of any regular            annual basis, whether or not
passengers and any changes to   they have carpoolers. The
the Administrative Division.    form will require the permit
                                holder to identify the
                                individuals that are carpoolers.




                                                                                                                                                    99
Audit                             Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                    Benefit Program                    Office         Completion
                                  Corrective Action Plan                            Date

21. HRO should fully              Admin Division will develop a      HR – James     March 31,     Complete (HR)       OPEN
implement program policy          form that requires parking         Wilson, ext.   2008                              Training has not occurred. The SOP
that requires the comparison      permit holders to certify, on an   1082                         HR has              is not sufficiently detailed to manage
of parking permit holders and     annual basis, whether or not                                    developed a SOP     program operations. The SOP does
their passengers to the Transit   they have carpoolers. The                                       for the             not define detailed operating
Subsidy Eligibility List to       form will require the permit                                    operations of the   procedures for daily processing
ensure that ineligible            holder to identify the                                          transit benefit     activities such as additions, deletions,
employees are not on the          individuals that are carpoolers.                                program,            suspensions, changes, annual
transit subsidy list.                                                                             including new       certification, and quality assurance
                                  The Finance Office will modify                                  guidance            processes/controls to ensure errors do
                                  its policies to incorporate a                                   addressed in the    not occur or are detected and
                                  comparison between the list of                                  policy. Also,       corrected in a timely manner.
                                  parking permit holders                                          appropriate staff   Parking information has not been
                                  (prepared for the                                               will be trained     provided on a regular basis. Refer
                                  Administration Division) to the                                 two times per       finding 11 pg. 42.
                                  required annual certification                                   year on their
                                  form to the Transit Subsidy                                     respective roles
                                  Eligibility List (prepared by                                   and
                                  HR).                                                            responsibilities.

                                  FEC management will provide
                                  additional training to the
                                  program staff to ensure that
                                  they are aware of this
                                  procedure.




                                                                                                                                                            100
Audit                             Audit of FEC’s Transit             Responsible    Anticipated   Final Action        OIG Status
Recommendation                    Benefit Program                    Office         Completion
                                  Corrective Action Plan                            Date

Other Matters to be Reported – Finding #6
22. HRO should maintain        FEC management has updated            HR – James     March 31,     Complete (HR)       OPEN
accurate program records; the  its current transit subsidy           Wilson, ext.   2008                              Policy has been updated but not
original application should be application to incorporate            1082                         HR has              disseminated. The one page SOP
updated to reflect changes in  pertinent information.                                             developed a SOP     provided is not sufficiently detailed
SmarTrip card numbers or the Furthermore, the policy will be                                      for the             to direct program operations. Form
applicant should complete a    updated to indicate that “if any                                   operations of the   has been updated. Noted that very
new application to record the  of the key information changes,                                    transit benefit     few of the forms submitted by staff
newly assigned SmarTrip        an employee is required to                                         program,            have indication of OHR supervisory
number.                        submit a new application.”                                         including new       review and approval and none had
                                                                                                  guidance            OHR staff processing field
                                                                                                  addressed in the    completed. Refer finding 10 pg. 39.
                                                                                                  policy. Also,
                                                                                                  appropriate staff
                                                                                                  will be trained
                                                                                                  two times per
                                                                                                  year on their
                                                                                                  respective roles
                                                                                                  and
                                                                                                  responsibilities.
23. The Finance Office            The Finance Office will            OCFO –         April 30,                         CLOSED
should regularly reassess the     evaluate the usage of              Brian Duffy,   2008                              Since OHR began requiring staff to
monthly amount of Metrochek       Metrocheks on a regular basis,     ext. 1230                                        accept SmartBenefit is their commute
stock on-hand for distribution.   no less than annually. Based                                                        allowed, Finance has reduced the
The Finance Office should         on this evaluation, the                                                             amount of Metrocheks held by 33
annually evaluate Metrochek       Accounting Officer will                                                             percent. It will continue to reduce
orders based on prior usage,      determine is the stock level can                                                    Metrochek holdings until they have
stock on hand, and estimated      be reduced.                                                                         been exhausted and are replaced by
usage of stock.                                                                                                       the new voucher system. Refer
                                                                                                                      finding 15 pg. 50.




                                                                                                                                                          101
Audit                              Audit of FEC’s Transit           Responsible    Anticipated   Final Action   OIG Status
Recommendation                     Benefit Program                  Office         Completion
                                   Corrective Action Plan                          Date

24. The Finance Office             The Finance Office researches    OCFO –         June 30,      Completed      OPEN
should continue to document        the cause for significant        Brian Duffy,   2007                         OIG noted that variances existed for
any shortages and overages in      differences and documents the    ext. 1230                                   three months in the period reviewed
the monthly subsidy count,         reasons accordingly. The                                                     (January 2007 to August 2008).
but also include management        results of the research are                                                  Documentation on effort to research
actions to identify the cause of   documented directly on the                                                   the variances was not included in the
the differences in Metrocheks      monthly distribution list and                                                monthly distribution file. Refer
maintained on hand and what        any related correspondence is                                                finding 16 pg. 50.
actions were taken, if any, to     attached. The documentation
prevent future shortages and       is maintained by the Assistant
overages.                          Accounting Officer.




                                                                                                                                                    102
Audit                            Audit of FEC’s Transit          Responsible    Anticipated   Final Action        OIG Status
Recommendation                   Benefit Program                 Office         Completion
                                 Corrective Action Plan                         Date

25. Program management           HR will develop                 HR – James     June 30,      Complete            OPEN
should encourage Metrochek       communication to encourage      Wilson, ext.   2007                              OHR updated the transit policy but it
recipients who utilize transit   FEC employees to utilize        1082                         The transit         has not been disseminated to FEC
carriers that accept SmarTrip    transit carriers that accept                                 benefit policy      staff. OHR reviewed the listing of
cards to switch their monthly    SmarTrip cards and to switch                                 has been            employees who use Metrocheks and
subsidy to SmarTrip cards.       their monthly subsidy to                                     updated. HR         identified those who could use
                                 SmarTrip cards. For those                                    will provide        SmarTrip for their commute. It
                                 employees that are bargaining                                copies to all FEC   notified those staff and required
                                 unit, management will work                                   employees, post     transition to the electronic program.
                                 through the FEC union to                                     an electronic       Refer finding 4 pg. 19.
                                 ensure the communication                                     version on the
                                 occurs.                                                      intranet, and
                                                                                              incorporate this
                                                                                              subject into the
                                                                                              New Employee
                                                                                              Orientation. HR
                                                                                              will send
                                                                                              quarterly emails
                                                                                              on transit
                                                                                              benefits to all
                                                                                              FEC employees.




                                                                                                                                                     103
     CONTACTING THE OFFICE OF INSPECTOR GENERAL
The success of the OIG mission to prevent fraud, waste, and abuse depends on the
cooperation of FEC employees (and the public). There are several ways to report
questionable activity.




      Call us at 202-694-1015 (a confidential or anonymous message can be
      left 24 hours a day/7 days a week) or toll-free at 1-800-424-9530 (press 0;
      then dial 1015 - Monday - Friday 8:30am – 5:00pm).




      Write or visit us - we are located at: 	 Federal Election Commission
                                             Office of Inspector General
                                             999 E Street, N.W., Suite 940
                                             Washington, D.C. 20463

      Mail is opened by OIG staff members only.




You can also fax (202-501-8134) or contact us by e-mail at: oig@fec.gov.
Website address: http://www.fec.gov/fecig/fecig.shtml

Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.
